<html>
<title> - CRISIS ON THE NATIONAL FORESTS: CONTAINING THE THREAT OF WILDLAND FIRE TO THE ENVIRONMENT AND COMMUNITIES</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



 
 CRISIS ON THE NATIONAL FORESTS: CONTAINING THE THREAT OF WILDLAND FIRE 
                  TO THE ENVIRONMENT AND COMMUNITIES

=======================================================================

                        OVERSIGHT FIELD HEARING

                               before the

                      SUBCOMMITTEE ON FORESTS AND
                             FOREST HEALTH

                                 of the

                         COMMITTEE ON RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

              Friday, March 7, 2003 in Flagstaff, Arizona

                               __________

                            Serial No. 108-5

                               __________

           Printed for the use of the Committee on Resources



 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
         Committee address: http://resourcescommittee.house.gov

                                 ______


                     U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003

85-487 PS

For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001






                         COMMITTEE ON RESOURCES

                 RICHARD W. POMBO, California, Chairman
       NICK J. RAHALL II, West Virginia, Ranking Democrat Member

Don Young, Alaska                    Dale E. Kildee, Michigan
W.J. ``Billy'' Tauzin, Louisiana     Eni F.H. Faleomavaega, American 
Jim Saxton, New Jersey                   Samoa
Elton Gallegly, California           Neil Abercrombie, Hawaii
John J. Duncan, Jr., Tennessee       Solomon P. Ortiz, Texas
Wayne T. Gilchrest, Maryland         Frank Pallone, Jr., New Jersey
Ken Calvert, California              Calvin M. Dooley, California
Scott McInnis, Colorado              Donna M. Christensen, Virgin 
Barbara Cubin, Wyoming                   Islands
George Radanovich, California        Ron Kind, Wisconsin
Walter B. Jones, Jr., North          Jay Inslee, Washington
    Carolina                         Grace F. Napolitano, California
Chris Cannon, Utah                   Tom Udall, New Mexico
John E. Peterson, Pennsylvania       Mark Udall, Colorado
Jim Gibbons, Nevada,                 Anibal Acevedo-Vila, Puerto Rico
  Vice Chairman                      Brad Carson, Oklahoma
Mark E. Souder, Indiana              Raul M. Grijalva, Arizona
Greg Walden, Oregon                  Dennis A. Cardoza, California
Thomas G. Tancredo, Colorado         Madeleine Z. Bordallo, Guam
J.D. Hayworth, Arizona               George Miller, California
Tom Osborne, Nebraska                Edward J. Markey, Massachusetts
Jeff Flake, Arizona                  Ruben Hinojosa, Texas
Dennis R. Rehberg, Montana           Ciro D. Rodriguez, Texas
Rick Renzi, Arizona                  Joe Baca, California
Tom Cole, Oklahoma                   Betty McCollum, Minnesota
Stevan Pearce, New Mexico
Rob Bishop, Utah
Devin Nunes, California
VACANCY

                     Steven J. Ding, Chief of Staff
                      Lisa Pittman, Chief Counsel
                    Michael S. Twinchek, Chief Clerk
                 James H. Zoia, Democrat Staff Director
               Jeffrey P. Petrich, Democrat Chief Counsel
                                 ------                                

               SUBCOMMITTEE ON FORESTS AND FOREST HEALTH

                   SCOTT McINNIS, Colorado, Chairman
            JAY INSLEE, Washington, Ranking Democrat Member

John J. Duncan, Jr., Tennessee       Dale E. Kildee, Michigan
Walter B. Jones, Jr., North          Tom Udall, New Mexico
    Carolina                         Mark Udall, Colorado
John E. Peterson, Pennsylvania       Anibal Acevedo-Vila, Puerto Rico
Thomas G. Tancredo, Colorado         Brad Carson, Oklahoma
J.D. Hayworth, Arizona               VACANCY
Jeff Flake, Arizona                  VACANCY
Dennis R. Rehberg, Montana           VACANCY
Rick Renzi, Arizona                  Nick J. Rahall II, West Virginia, 
Stevan Pearce, New Mexico                ex officio
Richard W. Pombo, California, ex 
    officio
                                 ------                                





                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on March 7, 2003....................................     1

Statement of Members:
    Flake, Hon. Jeff, a Representative in Congress from the State 
      of Arizona, Prepared statement submitted for the record....   108
    Gibbons, Hon. Jim, a Representative in Congress from the 
      State of Nevada............................................    11
    Hayworth, Hon. J.D., a Representative in Congress from the 
      State of Arizona...........................................    12
        Prepared statement of....................................    13
    McInnis, Hon. Scott, a Representative in Congress from the 
      State of Colorado..........................................     4
        Prepared statement of....................................     6
    Pombo, Hon. Richard W., a Representative in Congress from the 
      State of California........................................     7
        Prepared statement of....................................     8
    Renzi, Hon. Rick, a Representative in Congress from the State 
      of Arizona.................................................    10
    Shadegg, Hon. John, a Representative in Congress from the 
      State of Arizona...........................................    15
    Walden, Hon. Greg, a Representative in Congress from the 
      State of Oregon............................................     8

Statement of Witnesses:
    Ack, Bradley L., Program Director, Grand Canyon Trust........    92
        Prepared statement of....................................    94
    Cassatt, Sarah, Gardens Manager, The Arboretum at Flagstaff..    70
        Prepared statement of....................................    72
    Covington, W. Wallace, Ph.D., Regents' Professor and Director 
      of the Ecological Restoration Institute, Northern Arizona 
      University.................................................    64
        Prepared statement of....................................    65
    Donaldson, Hon. Joseph C., Mayor, City of Flagstaff, Arizona.     2
        Prepared statement of....................................     3
    Gibson, Kent B., Pulp & Paperworkers Resource Council........    85
        Prepared statement of....................................    86
    Kelley, Hon. Gene, Mayor, City of Show Low, Arizona..........    29
        Prepared statement of....................................    31
    Kolb, Thomas, Ph.D., School of Forestry, Northern Arizona 
      University.................................................    75
        Prepared statement of....................................    77
    Laverty, Lyle, Director, Colorado State Parks, State of 
      Colorado...................................................    43
        Prepared statement of....................................    45
    Massey, Dallas, Chairman, White Mountain Apache Tribe........    38
        Prepared statement of....................................    40
    Moore, Patrick, Ph.D., Chairman and Chief Scientist, 
      Greenspirit Strategies Ltd.................................    58
        Prepared statement of....................................    60
    Rey, Hon. Mark, Under Secretary, Natural Resources and the 
      Environment, U.S. Department of Agriculture................    17
        Prepared statement of....................................    23
    Watson, Hon. Rebecca W., Assistant Secretary, Land and 
      Minerals Management, U.S. Department of the Interior.......    20
        Prepared statement of....................................    23

OVERSIGHT FIELD HEARING ON ``CRISIS ON THE NATIONAL FORESTS: CONTAINING 
    THE THREAT OF WILDLAND FIRE TO THE ENVIRONMENT AND COMMUNITIES''

                              ----------                              


                         Friday, March 7, 2003

                     U.S. House of Representatives

               Subcommittee on Forests and Forest Health

                         Committee on Resources

                           Flagstaff, Arizona

                              ----------                              

    The Subcommittee met, pursuant to call, at 9:53 a.m., in 
the City Council Chambers, City Hall, Flagstaff, Arizona, Hon. 
Scott McInnis [Chairman of the Subcommittee] presiding.
    Present: Representatives McInnis, Pombo, Walden, Renzi, 
Gibbons, Hayworth and Shadegg.
    Mr. McInnis. You may be seated.
    I would like to thank the Veterans of Foreign Wars and the 
American Legion, and of course the Boy Scouts. I would also 
like to begin the meeting by thanking the community of 
Flagstaff. As I said earlier, it is a beautiful community. We 
also appreciate the utilization of your City Hall, and I am 
particularly pleased--I know we come from different sides on 
this issue, but I am particularly pleased at the turnout that 
we have today.
    It is an issue that is very important to all of us, and the 
fact that we have come out like this to participate in it, this 
is what it is about, this is why we wanted to bring this 
hearing, so that you could see what a hearing that would 
otherwise be conducted in Washington, you could witness how we 
do this.
    With that, Congressman Renzi--and what I would like to do 
as we go for our opening comments, I would like each 
Congressman, since most of us are from out of this area, to 
introduce themselves. But Congressman Renzi, why don't you 
introduce our special guests.
    Mr. Renzi. Thank you, Congressman, McInnis.
    Today, we have with us two very important people from 
Washington, D.C., The Honorable Mark Rey, U.S. Department of 
Agriculture, Under Secretary for Natural Resources and 
Environment; The Honorable Rebecca Watson, U.S. Department of 
the Interior; The Honorable Gene Kelley, Mayor of Show Low; and 
we are expecting today, Dallas Massey, the Chairman of the 
White Mountain Apaches; and of course, from Colorado, your home 
state, Lyle Laverty, who is the person in charge of Natural 
Resources for Colorado.
    So with that, I want to thank you all for coming today.
    May I go into my remarks, or would you like to--
    Mr. McInnis. Well, first, I want to tell you that one of 
the reasons we are down here is just to get Renzi to be quiet. 
All he talks about are these forests in this district. We said, 
all right, if we come out there, will you be quiet for the rest 
of the year?
    [Laughter.]
    If you do not mind, I would prefer--I would like to start 
with your Mayor, if you would like to introduce the Mayor and 
let him make some remarks.
    Mr. Renzi. I would, yes, thank you very much. Thank you, 
Mr. Chair.
    I want to thank all the people from Flagstaff and the 
surrounding communities who have turned out today, and I 
especially want to thank Mayor Joe Donaldson for being a great 
host and facilitator of this. And I welcome and would like to 
hear your opening remarks, Mr. Mayor.

           STATEMENT OF JOSEPH C. DONALDSON, MAYOR, 
                   CITY OF FLAGSTAFF, ARIZONA

    Mayor Donaldson. Thank you, Congressman, Mr. Chairman, 
members of the Subcommittee, welcome to our community and thank 
you for taking the time and effort to visit us. Your presence 
here is an honor for our community. As Mayor, I am grateful for 
the opportunity to be part of this hearing process.
    As evidenced by the ongoing drought, a dramatic increase in 
insect populations and the ever-growing threat of catastrophic 
wildfire, our forests are in disrepair and have become littered 
with untold numbers of dead trees. We are in critical need of a 
massive cleanup and tree removal effort that can only be 
achieved with technical and financial assistance through the 
Federal Government. The Stafford Act has been utilized in many 
disasters to assist local governments in debris removal 
efforts. We would ask your consideration in initiating this 
process to provide Federal assistance to our areas in order to 
mitigate a very hazardous condition that threatens both the 
lives and personal property throughout the region.
    It is also a concern that there are insufficient air 
support resources to effectively suppress a wildfire outbreak 
in this area. The immediate air response capability on the 
Coconino and Kaibab National Forests has been reduced to a 
single small capacity helicopter. The availability to obtain 
fixed wing tankers, large haul helicopters and lead planes are 
non-existent from our local air bases. We urge the Committee to 
support this effort and provide the necessary resources to 
properly equip the area suppression forces with this vital 
firefighting tool.
    Your presence in our community is evidence of your interest 
in this subject and your commitment to make a positive change. 
I would like to acknowledge Congressman Rick Renzi, Congressman 
J.D. Hayworth and Congressman John Shadegg for making this 
historic visit to Flagstaff possible. Mr. Chairman, and members 
of the Subcommittee, you have my pledge as Mayor that we regard 
this issue as a partnership, and that we stand ready to move 
forward with you.
    I again welcome you to our city and offer the services of 
our fine staff, if we can be of further assistance to you. I 
also encourage you to stay after the hearing to take advantage 
of the beauty and history that northern Arizona has to offer.
    Thank you and welcome.
    [The prepared statement of Mayor Donaldson follows:]

       Statement of Joseph C. Donaldson, Mayor, City of Flagstaff

    Mr. Chairman, Members of the Sub-Committee:
    Welcome to our community, and thank you for taking the time and 
effort to visit us. Your presence here is an honor for our community, 
and as Mayor, I am grateful for the opportunity to be a part of this 
hearing process.
    As evidenced by the on-going drought, a dramatic increase in insect 
populations, and the ever-growing threat of catastrophic wildfire, our 
forests are in disrepair and have become littered with untold numbers 
of dead trees. We are in critical need of a massive clean-up and tree 
removal effort that can only be achieved with technical and financial 
assistance through the Federal Government. The Stafford Act has been 
utilized in many disasters to assist local governments in debris 
removal efforts. We would ask your consideration in initiating this 
process to provide Federal assistance to our rural areas in order to 
mitigate a very hazardous condition that threatens both lives and 
personal property throughout the region.
    It is also a concern that there are insufficient air support 
resources to effectively suppress a wildfire outbreak in this area. The 
immediate air response capability on the Coconino and Kaibab national 
forests has been reduced to a single small capacity helicopter. The 
availability to obtain fixed wing tankers, large haul helicopters and 
lead planes are non-existent from local air bases. We urge the 
Committee to support this effort and provide the necessary resources to 
properly equip the area suppression forces with this vital firefighting 
tool.
    Your presence in our community is evidence of your interest in this 
subject and your commitment to make a positive change. I'd like to 
acknowledge Congressman Rick Renzi, Congressman JD Hayworth and 
Congressman John Shadegg for making this historic hearing in Flagstaff 
possible. Mr. Chairman and members of the sub-committee, you have my 
pledge as Mayor that we regard this issue as a partnership, and that we 
stand ready to move forward with you.
    I once again welcome you to our city, and offer the services of our 
fine staff if we can be of further assistance to you. I also encourage 
you to stay after the hearing to take advantage of the beauty and 
history that northern Arizona has to offer.
                                 ______
                                 
    Mr. McInnis. Thank you, Mr. Mayor.
    I will tell you, members of the Committee, that the Mayor 
has told me that he would like us to participate in his green 
effort, meaning greenback dollars, he would like us to spend a 
few while we are in town.
    [Laughter.]
    Mr. McInnis. Thank you, Mr. Mayor.
    Let me just very quickly tell you who we have on the 
Committee. First of all, as you know, my name is Scott McInnis 
and I chair the Subcommittee. The Subcommittee is a 
Subcommittee of the whole Committee. The whole Committee is 
Chaired by a gentleman named Mr. Pombo, Mr. Pombo is sitting to 
my right--this is Mr. Pombo from the State of California. Mr. 
Shadegg from the State of Arizona, Mr. Hayworth from the State 
of Arizona; Mr. Gibbons from the State of Nevada, Mr. Walden 
from the State of Oregon, and of course, Mr. Renzi from your 
fine area right here.

 OPENING STATEMENT OF THE HON. SCOTT MCINNIS, A REPRESENTATIVE 
             IN CONGRESS FROM The STATE OF COLORADO

    Mr. McInnis. I will start with my opening remarks, then we 
intend to go around and give every member an opportunity for 
opening remarks and then we will go to our witnesses.
    And to our witnesses, I specifically thank you for making 
the effort to come to this community to present some of the 
testimony we asked to hear today.
    My district is the western area of Colorado. All of us have 
large districts, ours is larger than the State of Florida, to 
give you an idea of just how big those districts are. All of us 
at this table have been touched by fire in one way or another. 
I actually have in the audience here my father, who came down 
here, my father lived at the foot of Storm King. I was on the 
Storm King fire, in fact was in a group that went up and 
brought our deceased firemen off that fire after that tragedy. 
My father's home was surrounded on three sides this summer in 
Glenwood Springs, Colorado by fire up there in Colorado. All of 
the fires in Colorado were in my district, so we know what it 
is like. We have a lot of sympathy for the horrible fire that 
you have suffered down here.
    I have been in the U.S. Congress now for six terms and I 
will begin with my opening remarks.
    I want to tell you that when we focus on healthy forest, 
somebody said do you look at the economy, do you look at the 
economics of a forest, and I say this Committee does look at 
the economics of a forest, the environmental economics of a 
forest.
    We had a fire in Colorado called the Hayman fire and people 
say well, look at the damage to the timber industry. I said in 
Colorado, we do not have much timber industry any more. The 
real damage of that fire was the damage to our air. We had more 
air pollution from that fire than we have all the C20 or 
whatever those emissions are from all the vehicles combined for 
the entire year in the State of Colorado.
    Our watershed will cost the City of Denver--that is where 
they get their water--their watershed is so polluted, it looks 
like a thick chocolate malt. It will cost them tens and tens 
and tens of millions of dollars.
    The safety factor obviously is our highest priority, the 
human safety factor. But then you take a look at the animals. I 
grew up--fortunately for my father's choice, we grew up and 
have many, many generations in those mountains and we are 
surrounded by animals. It was horrific what happens in these 
fires to these animals.
    So that is what I consider the economics of a forest, all 
of those different issues. And I hope today we have an 
opportunity to address this.
    I think that is appropriate that the legislative push 
begins here in Arizona which was ripped by your fire last year. 
Mr. Walden and I know something about these fires. Mr. Walden 
had probably the largest fires in the country, or close to it, 
and I appreciate you coming all the way from Oregon, Mr. 
Walden, to participate today too.
    If these unnatural fires and many others like them have 
taught us anything, it is that the disastrous status quo on our 
national forests and public lands is not acceptable. The status 
quo is unacceptable not only because of the massive price that 
it has exacted on wildland urban communities and rural 
economies, it is also intolerable because of the disastrous 
impact these unnatural fires have on our air, water, wildlife 
and our forest resources.
    My good friend, Lyle Laverty, will highlight this in much 
greater detail during his testimony, but the Colorado Hayman 
fire, as I said earlier, provides a good example of what I call 
that environmental economics.
    Of course, these stories are of no surprise to anybody in 
this room. In fact, I assume that everybody in this room has 
been touched by fire or threatened by fire. And so we want to 
take home a message and that is that responsible environmental 
stewardship requires that Congress, land managers and affected 
communities move aggressively to address these crisis 
conditions on our national forests and our public lands. 
Managing over-dense forests is the right thing to do, it is the 
right thing to do for our safety, it is the right thing to do 
for our air, it is the right thing to do for our water and it 
is the right thing to do for our wildlife.
    But to treat at-risk landscapes on a meaningful and 
effective scale, the process that we have seen, bogged down 
process, paralysis by analysis is the word that we often see, 
and frankly, Congress is guilty of a lot of that, that 
presently constrains our Federal managers, the people on the 
ground, the people that work it every day from being able to do 
their jobs, that is where we have got a severe handicap. It 
takes our land managers on average between three to 5 years to 
maneuver a thinning project through a tangled morass of Federal 
procedures and processes. With communities in harm's way and 
our environment at risk, that is wrong.
    In the weeks ahead, with cooperation from our Chairman, Mr. 
Pombo, and obviously he is a strong supporter of this, we 
intend to push legislation in concert with the members on this 
dais and any other Republican and Democrat--and I can advise 
you this is a very bipartisan effort--to this crisis that would 
break the cycle of bureaucracy and empower local forest 
managers with the tools needed to restore our nation's forest 
lands to a healthy state.
    It is with this that I thank Congressman Renzi for inviting 
us here today for this important discussion and commend 
Chairman Pombo and the others for their leadership on this 
critical issue.
    Two other points I wish to make. One, some ask us are you 
coming to town for a town meeting; this is not a town meeting. 
What we wanted to do was--the Chairman actually directed this, 
he came to his Subcommittee Chairman and he said I want people 
outside of Washington to kind of see, witness what hearings are 
like. And so that is why today, people asked if we could take 
questions from the public, obviously we have a lot of 
enthusiasm demonstrated out there, but unfortunately this is a 
hearing where we do not do that, we do not do that in 
Washington, we take it from our panel.
    The second thing is you will probably note or it might be 
noted elsewhere, the members of the panel up here are 
Republican. We do not have a boycott going on by the Democratic 
side. The logistics of being able to move a Committee out 
halfway across the country--and frankly, most of the 
Congressional people in the West are Republicans--so it is 
tougher to get the Democrats here, but we do not have a boycott 
and I can tell you, last year, the two leading advocates in the 
U.S. Congress for so-called environmental issues were a 
gentleman named Peter DeFazio from the State of Oregon and a 
gentleman named George Miller from the State of California. 
Those happen to be the two individuals who worked the hardest 
with Mr. Walden and myself, Mr. Pombo and our panel, to come to 
some legislation. Unfortunately, the day after it was 
discovered they were meeting with us, press releases went out 
calling them the chainsaw caucus and here, they are the two 
leading environmental people. So if either one of them could 
have made it here today, they would have been here. There is no 
boycott, it is just the circumstances and the logistics that 
you happen to have all of one party.
    With that, it is my privilege to turn the podium over to 
the Chairman of the whole Committee, Mr. Pombo. Mr. Pombo.
    [The prepared statement of Mr. McInnis follows:]

  Statement of The Honorable Scott McInnis, Chairman, Subcommittee on 
                       Forests and Forest Health

    It's a pleasure to be here in Flagstaff, Arizona to initiate this 
Committee's full court press to enact legislation to protect our 
communities and our air, water, wildlife and forest ecosystems from the 
destructive forces of catastrophic wildfire. It's appropriate that this 
legislative push begins in Arizona, which was ripped by the record-
setting Rodeo-Chediski fire last summer. Mr. Walden and I know a thing 
or two about record-setting wildfires ourselves--last summer's Biscuit 
Fire was the largest in Oregon's history, and my home State of Colorado 
experienced two wildfires last summer that were bigger and more 
destructive than any other in our state's recorded history.
    If these unnatural fires and the many others like them have taught 
us anything, it is that the disastrous status quo on our national 
forests and public lands is not acceptable.
    The status quo is unacceptable not only because of the massive 
price it has exacted on wildland-urban communities and rural economies. 
It's also intolerable because of the disastrous impact of these 
unnatural fires on our air, water, wildlife and our forest resources. 
My good friend Lyle Laverty will highlight this in much greater detail 
during his testimony, but Colorado's Hayman Fire provides a startling 
example of the kind of enduring environmental degradation that these 
fires cause. The fire dumped massive loads of mud and soot into 
Denver's largest supply of drinking water, annihilated several thousand 
acres of cathedral-like Ponderosa Pine old growth, and polluted 
Colorado's blue skies with carbon heavy black smoke. The fire so 
thoroughly polluted Denver air that the young and the elderly were 
urged not to go outside, and one asthmatic even died.
    Of course, these stories are no surprise to anyone in this room. 
The Rodeo-Chediski produced its own environmental horror stories, just 
as did the many other fires around this nation.
    And so the take home message is this: responsible environmental 
stewardship requires that Congress, land managers and affected 
communities move aggressively to address these crisis conditions on our 
national forests and public lands. Managing over-dense forests is the 
right thing to do for our air, water and wildlife.
    But to treat at-risk landscapes on a meaningful and effective 
scale, the slow-moving process that presently constrains Federal land 
managers must be improved. Currently, it takes our land managers on 
average between 3 and 5 years to maneuver a thinning project through a 
tangled morass of Federal procedures and processes. With communities in 
harms way, and our environment at risk, that is plain wrong.
    In the weeks ahead, I intend to push legislation, in concert with 
the Members on this dais and any other Republican and Democrat 
interested in a bipartisan solution to this crisis, that would break 
this cycle of bureaucracy and empower local forest managers with the 
tools needed to restore the nation's forestlands to a healthy state. 
After enduring 2 fire seasons in the last 3 years that match any in 
terms of ferocity and wide-ranging destruction, doing nothing is just 
not an option. The time for action on the part of Congress is now.
    It is with this that I thank Congressman Renzi for inviting us here 
today for this important discussion, and commend Chairman Pombo and the 
others for their leadership on this critical issue.
                                 ______
                                 

 OPENING STATEMENT OF THE HON. RICHARD POMBO, A REPRESENTATIVE 
            IN CONGRESS FROM The STATE OF CALIFORNIA

    Mr. Pombo. Thank you, Mr. Chairman. At the outset, I want 
to thank Rick Renzi for hosting all of us here in Flagstaff. In 
the time that I have gotten to know Rick, he has shown himself 
to be extremely knowledgeable and enthusiastic on the issues, 
and we are all looking forward to working with him in the 
coming years to solve some of the problems that we have here in 
Arizona and throughout the country on forest issues and other 
issues that are near and dear to his heart.
    I want to also thank the Chairman of the Subcommittee, 
Scott McInnis, for chairing this hearing. Scott has become an 
expert on forestry issues and I value both his input and his 
hard work over the years on this issue.
    Ensuring forest health is a top priority for myself and the 
many Resource Committee members that are here today. Today is 
especially important to me, as it is the first field hearing 
that I have attended as Chairman of the full Resources 
Committee. It is vitally important for Members of Congress to 
get out of Washington, D.C. and visit the local areas the 
decisions made in Washington impact. Rick Renzi's district, 
home to last year's catastrophic Rodeo-Chediski fire, the 
largest in southwest history, is the perfect place to hold this 
hearing.
    Public lands have undergone drastic changes during the last 
century. Large areas of these lands are vulnerable and need our 
protection. The number of people visiting our public lands, be 
they national parks or forests, increase every year. That is a 
good thing. It is important our lands remain open to the public 
so that, for example, parents can take their children hiking 
through a national park to see the wonders of nature. This 
makes it imperative that we do all we can to protect these 
lands.
    And there is no more devastating event that can happen than 
a forest fire. A forest fire destroys everything in its path--
trees, wildlife, personal property and causes devastating 
pollution to both the air we breathe and the water we drink.
    We all take clean air and clean water for granted. In 
reality, however, we remain in a delicate balance. To ensure 
that we make the right decisions in protecting our environment, 
we need the best science available and local input for the 
decisions we make. Congress can help, indeed, Congress has an 
obligation to help, but no one knows how to best protect 
Arizona forests than the people of Arizona.
    We have a responsibility to protect our citizens, our 
property and our environment and public lands. When severe fire 
threatens, as they do throughout the West every summer, we need 
to ensure that we have a plan that will act as an instrument of 
assistance, not an instrument adding fuel to an already raging 
fire.
    Mr. McInnis, I want to thank you again for coming to 
Arizona to see this situation firsthand. I am confident that we 
can enact a sensible policy that will protect our forests and I 
welcome the testimony of all of our witnesses today.
    Thank you.
    [The prepared statement of Mr. Pombo follows:]

          Statement of The Honorable Richard Pombo, Chairman, 
                         Committee on Resources

    Good morning. Thank Rick Renzi for hosting all of us here in 
Flagstaff. In the time I have gotten to know Rick, he has shown himself 
to be a fine man who knows the issues well. He will be a terrific 
Congressman.
    Thank you also to Scott McInnis for chairing this hearing. Scott is 
proficient on forestry issues and I value both his input and hard work.
    Ensuring forest health is a top priority for me and the many 
Resources Committee members here today. Today is especially important 
to me as it is the first field hearing I have attended as Chairman of 
the Resources Committee.
    It is vitally important for Members of Congress to get out of 
Washington, D.C. and visit the local areas that decisions in Washington 
impact. Rick Renzi's district, home to last year's catastrophic Rodeo-
Chediski fire, the largest in Southwest history, is the perfect place 
to hold this hearing.
    Public lands have undergone drastic changes during the last 
century. Large areas of these lands are vulnerable and need our 
protection. The number of people visiting our public lands, be they 
national parks or forests, increase every year. This is a good thing. 
It is important our lands remain open to the public so that, for 
example, parents can take their children hiking through a national park 
to see the wonders of nature.
    It is imperative that we do all we can to protect these lands. And 
there is no more devastating event that can happen that a forest fire. 
A forest fire destroys everything in its path--trees, wildlife, 
personal property, and causes devastating pollution to both the air we 
breathe and the water we drink.
    We all take clean water and clean air for granted. In reality, 
however, we remain in a delicate balance. We must protect our 
environment, we need the best science available and local input for the 
decisions we make. Congress can help, indeed, Congress has an 
obligation to help, but no one knows how to best protect Arizona 
forests than those people living in and near the forests of Arizona.
    We have a responsibility to protect our citizens, our property and 
our environment and public lands. When severe fires threaten--as they 
do throughout the West every summer--we need to ensure that we have a 
plan that will act as an instrument of assistance, not an instrument 
adding fuel to an already raging fire.
    Mr. McInnis, I want to thank you again for coming to Arizona to see 
the situation firsthand. I am confident that we can enact a sensible 
policy that will protect our forests, and I welcome the testimony of 
our witnesses.
    Thank you.
                                 ______
                                 
    Mr. McInnis. Thank you, Mr. Chairman.
    Mr. Walden--and if you would preface your remarks with a 
brief introduction.

OPENING STATEMENT OF THE HON. GREG WALDEN, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF OREGON

    Mr. Walden. Thank you very much, Mr. Chairman. I am Greg 
Walden, I represent the people of eastern Oregon, about 72,000 
square miles, everything from the Cascade Mountains to Idaho, 
from Washington to the great State of Nevada and California and 
then almost over to the Oregon coast.
    Part of my district and that area of Oregon I share with 
Congressman DeFazio went up in smoke last summer, over 500,000 
acres, half a million acres in the Sour Biscuit fire were 
consumed, not only at the costs we heard from you, Mr. 
Chairman, in terms of its impact on the wildlife and the 
habitat for the endangered spotted owl, but also in terms of 
air quality. In fact, we were supposed to have the hundredth 
celebration of Crater Lake National Park and it was so smoky 
that day that you could not even see the lake from the rim as 
the smoke came over. It also cost taxpayers more than $150 
million to extinguish that fire, and really it was the rains 
that came this fall that put it out.
    I believe my State of Oregon was second only to Alaska in 
the amount of acres burned by forest fires last year. President 
Bush took note of the fires that were raging in Oregon, came to 
my district, along with your Governor Hall and Governor Marx 
and our Governor Kulongoski, we toured the Squires Peak fire. 
It is an area that burned very recently, but they had been 
doing forest health work up in the Squires Peak area. The same 
people who were doing the forest health improvement work ended 
up being on the fire lines.
    And as we stood and talked to the firefighters in their 
yellow suits, they made it clear they needed help, they wanted 
our help to be able to get in and do the work, because they saw 
first-hand the fires and where they had raged and how hot they 
had burned where the forests had not been treated versus where 
it had.
    I do not know about most people, but being a native 
Oregonian, I like my trees green, not black. I want a health 
environment and a healthy forest. That is why Congressman 
Shadegg and Congressman McInnis and others from my state of 
both parties have worked very hard on this issue.
    And I want to thank Congressman Renzi for encouraging us to 
come here and the fine people of this community and this state 
for turning out today. And I look forward to hearing the 
testimony of our witnesses.
    As the President said in the meeting we had with elected 
officials from around the West, he said, you know, whatever it 
is we have been doing has not worked. We need to figure out a 
way to make it work for the future of our states and our 
forests.
    And whatever side of the issue you find yourself on, let us 
try and reach some common ground that is good for our forests, 
that means our communities are not subject to catastrophic run-
away wildfire that threatens not only habitat but lives and 
homes. These are our forests and we can do a better job of 
managing them.
    Thank you, Mr. Chairman.
    Mr. McInnis. Thank you, Mr. Walden.
    And I might add that Mr. Walden's district probably had the 
most fatalities of firemen coming out of your district. Most of 
the men and women we lost on Storm King were out of your 
district and we lost I think six of them out of your district 
just down the road from my house in a horrible traffic 
accident.
    Mr. Walden. Yes, indeed.
    Mr. McInnis. When we were trying to transport them.
    Mr. Renzi, thank you very much again for encouraging us; 
thank you for the warmth of your community. You may proceed.

 OPENING STATEMENT OF THE HON. RICK RENZI, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF ARIZONA

    Mr. Renzi. Thank you, Mr. Chair.
    I want to begin this morning by thanking the people of 
Flagstaff and the surrounding communities for coming out, 
taking time away from your families and your businesses to 
share and learn as we hear the testimony from these experts and 
from the community.
    I also want to begin by thanking humbly my colleagues who 
have taken time away from their own districts, their own needs, 
their own cries in the hearts of their constituents to come to 
Flagstaff and to hold a Congressional hearing here in 
Flagstaff. In the words of our Chair, Subcommittee Chair, Mr. 
McInnis, we are bringing Washington to the people. So many 
people do not have the opportunity to go to Washington and hear 
a full Congressional hearing, and I thought it would be a great 
time, and particularly seeing the young people this morning 
during our pledge, turn out and be able to see first-hand a 
Congressional hearing, particularly given the critical nature 
and the times that we are facing here in the West.
    I think it is also appropriate that we bring these 
discussions of forest health and our environment here to 
Flagstaff, given the fact that we are the home of Northern 
Arizona University and the School of Forestry, which is the 
origins of some of the best scientific contributions that we 
have seen to our forest health and management plans in recent 
years.
    I would echo the comments of Congressman Walden, in that 
this is our environment. We cannot control the weather or the 
winds or the rains, but we can control the policies as it 
governs the trees, the undergrowth, the dog hair thickets, the 
bark beetles, and we can work together to find a way to live in 
a holistic approach to our lands and our public property.
    I would be remiss not to point out that Chairman Pombo, our 
new Chairman of the full Resources Committee, has been kind 
enough to fund this and make sure that we all come here 
together and to thank him also for his great leadership. Thank 
you, Mr. Pombo.
    [Disturbance from the audience.]
    Mr. McInnis. May we have them removed?
    Let me make this very clear to every one of you sitting out 
there. You are entitled to those kind of comments, but not 
inside this room. We are trying to conduct in a very 
professional fashion a meeting for the benefit of everyone. One 
more outburst like this, you will be immediately removed from 
this room and you will not be allowed to participate.
    [Comment from the audience.]
    Mr. McInnis. Take him out. Please have him removed.
    [Pause.]
    Mr. McInnis. At least they sing in rhythm.
    Thank you folks for voluntarily removing yourselves. At 
least they did not chain themselves to the rail or something.
    For the rest of us, we really are trying to have a 
constructive meeting and I think we will. We expected something 
like this. I can tell you though, I am very, very proud of our 
nation and I am certain that even these individuals, should we 
initiate action over there, we will all support our troops. So 
I do not think that is any indication of lack of support for 
our troops.
    But now, let us back to the agenda.
    Under protocol--I must apologize to the next member, he is 
the Vice Chairman of the whole Committee, and under protocol, 
he should have been recognized right after our Chairman. So I 
do apologize to the gentleman from Nevada. I would like to 
introduce and ask him to introduce himself--Mr. Gibbons from 
the State of Nevada.

OPENING STATEMENT OF THE HON. JIM GIBBONS, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF NEVADA

    Mr. Gibbons. Thank you very much, Mr. Chairman, and indeed 
I was glad that you did sequence the speakers the way that you 
had, it gave me a chance to think about and listen to my other 
colleagues out there; also to listen to some of the members in 
the audience who have just left the room. And I would like to 
remind all of us that this is exactly what democracy is about--
what we are doing right here today.
    There is no doubt about it, Mr. Chairman--and let me 
introduce myself before I begin my comments. I am Jim Gibbons 
from the Second Congressional District of Nevada. The Second 
Congressional District of Nevada is fortunate to touch on all 
five states in the western area. That includes California, 
Oregon, Idaho, Utah, Arizona and Nevada as well occupies about 
110,000 square miles. We had a very mild fire season last year. 
Compared to other seasons when we have burned over two million 
acres, we burned only 90,000 acres last year.
    But I think it is clear to all of us on this Committee and 
it is clear to those in the audience that we all have--those of 
us in Washington, those of us on this Committee, those of you 
in the audience, a moral obligation to protect your forests and 
to protect your air quality and your water quality as well.
    Having lived my entire life in the great State of Nevada, I 
have witnessed countless wildfires that have begun in forests 
that looked just like the forests that you have outside this 
community, that I thought were very pretty until I got close 
and saw the infestation of bark beetle in those trees. Those 
forest fires in Nevada that raged through forests that looked 
very similar to yours ran faster than the wild horses we have 
in our state, and they destroyed not only the prized forests 
that all of us love and wish to visit and enjoy; they destroyed 
wildlife and everything in their path, whether that path 
included critical habitat, endangered species, wild animals and 
human lives.
    And so our obligation, of course, goes to the fundamental 
issue of what can we do, what must we do for that moral 
obligation to protect our forests and the result of that 
habitat.
    And if the absolute destruction of forests and brushland 
and private property is not catastrophic enough, as you ladies 
and gentlemen have already heard, just consider the air 
pollution that rises from one of these fires and the effects on 
human health for years could have individuals affected by air 
pollution and water pollution from these forest fires. And as I 
said, with no vegetation to hold the soil in place, thousands 
of tons of sediment have been dumped into our streams and lakes 
and have greatly reduced the high water quality that our state 
enjoys and I am sure every state that suffers these wildfires 
enjoys as well.
    This year is probably going to be even worse than last 
year. Many of us, including those in Nevada, have seen record 
warm temperatures, diminished snowfall; in fact, in some areas 
of Nevada, we have about 39 percent of the average snow pack in 
place that we need for a year, 13 percent of the average 
precipitation has fallen, that we anticipate. And our 
reservoirs are holding right now 8 percent of their capacity.
    I am not here to give you a weather report, I think these 
statistics are of great concern to you, to everyone. We are in 
an ongoing drought condition and it is going to dramatically 
increase the risk, the speed at which these catastrophic fires 
will occur.
    And Mr. Chairman, with that, I would like to just ask that 
my full recorded statement be entered into the record and I 
will yield back the balance of my time.
    Mr. McInnis. So ordered. Thank you, Mr. Gibbons.
    Mr. McInnis. I would add that the good news from my dear 
friends down river, Arizona and Nevada, it is snowing heavy in 
those Colorado mountains, we are going to have a good snow year 
up there.
    The gentleman from Arizona--I will just tell you, I am the 
first one in the gym every morning and Mr. Hayworth is the 
second. So for about 15 minutes, I get to work out without 
hearing about the State of Arizona. But for the next 45, that 
is all I hear about.
    Mr. Hayworth.
    [Laughter.]

 OPENING STATEMENT OF THE HON. J.D. HAYWORTH, A REPRESENTATIVE 
             IN CONGRESS FROM THE STATE OF ARIZONA

    Mr. Hayworth. Well, Mr. Chairman, I thank you, and to so 
many friends and neighbors who join us this morning, we offer a 
hearty welcome, as well as to our Congressional colleagues from 
the West.
    And I can assure you in the same vociferous fashion, I 
believe for better, Congressman Renzi will not remain quiet 
about this issue and we are pleased that we are here in the new 
First Congressional District, formerly the Sixth Congressional 
District that I had the honor to represent for the better part 
of a decade. I would like to thank Congressman Renzi, and it 
really is impressive early in the first term to use the powers 
of persuasion to have the full Committee Chair and our 
Subcommittee Chair and our colleagues join us here, bringing 
Washington to the people.
    I want to thank the Committee for all those who will join 
us with testimony and welcome the first panel. I would also 
like to thank the Committee for inviting our Governor to 
testify. It is unfortunate that Governor Napolitano could not 
clear her schedule and join us today. I believe it is very 
important to hear her perspective because there is such Federal 
interaction--we are dealing with Federally controlled lands in 
this situation and it is a role primarily taken on by the 
Federal Government. And I think my colleagues from around the 
West would have welcomed hearing her perspective first-hand 
since we serve on the Forest and Forest Health Subcommittee. 
Now a member of her staff informed me earlier this morning that 
she will submit written testimony for the record and I know we 
all welcome her written testimony.
    I would also like to thank the Governor's staff for 
extending a personal invitation to me this morning for the 
Forest Symposium Monday in Prescott. I will clear my schedule 
and be there in attendance because I believe it is important to 
listen to everyone and all perspectives on this issue and the 
challenges we confront, as we saw first-hand last year, with 
the Rodeo-Chediski fire, are too important to leave to partisan 
politics.
    As we looked at what happened, and we welcome and look 
forward to the testimony of my friends Gene Kelley, the Mayor 
of Show Low and my friend Dallas Massey from the White Mountain 
Apache Tribe. They can tell you first-hand what transpired 
there, but friends, I think this is so important because no 
longer is catastrophic fire an abstraction.
    If there is any silver lining to the pyro-cumulus clouds 
that envelop northern Arizona, it is the fact that now we 
understand first-hand the consequences of catastrophic fire.
    I have been struck over the years as we have worked on 
these issues and tried to build consensus for effective sound 
science and effective forest management--our good friend that 
will testify later, Professor Wally Covington, from here at 
Northern Arizona University, said something to me that has just 
stuck with me through the years, and that is conditions are 
such that the City of Flagstaff, in a horrible conflagration, 
could be reminiscent of the City of Dresden in World War II. 
The firestorms of Dresden could be visited on a place like 
Flagstaff, Arizona. And indeed, without the inexplicable rise 
in humidity, as Mayor Kelley and I were talking about earlier 
today, that we can only attribute to divine providence, the 
City of Show Low would have been consumed last summer. This is 
not an abstraction, this is a genuine problem.
    As my friend from Oregon pointed out, the President of the 
United States is reorienting us to a task that transcends party 
by its very necessity.
    I thank you again for holding this hearing in Flagstaff and 
again look forward to the testimony of those who join us. Thank 
you, Mr. Chairman.
    [The prepared statement of Mr. Hayworth follows:]

Statement of The Honorable J.D. Hayworth, a Representative in Congress 
                       from the State of Arizona

    The Chairman.
    Thank you for holding this hearing here in beautiful Flagstaff. I 
am also grateful to Congressman Rick Renzi for requesting this hearing 
and for bringing the House Committee on Resources to Arizona today.
    Forest conditions across the country have gone from bad to worse. 
Communities, wildlife, and our environment are at greater risk now than 
ever before in Arizona and across much of the West. Simply stated, our 
forests are in a treacherous condition and are perfectly suited for 
catastrophic wildfire. Flagstaff has, for the most part, so far dodged 
the bullet. But the communities southeast of here are more than a 
little aware of the dangerous state of the forest.
    The Rodeo-Chediski fire devastated the lives of thousands of people 
who lived on the Apache-Sitgreaves National Forest. Although we aren't 
going to point fingers, one can hardly help but wonder how bad last 
summer's cataclysmic fire would have been, had the forest been in a 
condition of fire sustainability. But decades of mismanagement and, 
frankly, under-management, left the forest in a state where a small 
fire turned into the firestorm of the century. Dense forestland quickly 
went up in flames. Devastating crown fires ravaged the land for two 
weeks. The fire was so large and so intense that it jumped roads, it 
jumped rivers, it spread over tens of thousands of acres each day. It 
killed wildlife, including threatened and endangered species. It 
wreaked havoc on the watershed. It burned nearly 500 structures, many 
of them private homes. The smoke and debris was so heavy and 
widespread, it formed its own weather system. This is NOT the type of 
fire you see in a healthy forest.
    The fact is, healthy forests can sustain small fires. In fact, 
small fires are beneficial to a healthy forest because they 
periodically clear underbrush and small-diameter timber. As we 
tragically learned last summer, our forests are not in a healthy state.
    For years, our forests have been poorly managed. In fact, for the 
most part, our forests simply have NOT been managed. Additionally, 
lawsuits brought by environmental extremists have tied our hands and 
kept us from employing sound science and proven principles of forest 
management. There are some that would have us believe that a hands-off 
approach is natural, and that we must not actively manage our forests. 
These are the same people who believe that the forests should not be 
touched at all--not by naturalists, not by recreationists, not by 
picnicking families, not by anybody. That is ridiculous. I firmly 
believe that we should enjoy our forests, and that this can be done in 
a responsible way. The fact is, if we don't act to protect our forests, 
there may one day be no forests left. Simply put, we have a moral 
obligation to protect these valuable resources so that our children may 
have the opportunity to enjoy nature as we have.
    I have reviewed the President's Healthy Forests Initiative. This 
plan will allow for an environmentally-friendly, common-sense approach 
to protecting and conserving our forests. The plan will not only save 
lives and forestland, but it will save each American taxpayer money. 
The damage from the Rodeo-Chediski fire was nearly $60 million. The 
Forest Service spent more than $40 million fighting this fire. And what 
is the value of endangered species that were killed?
    The Healthy Forests Initiative addresses the need for hazardous 
fuels reduction. Investments in fuels reduction saves so much more 
money spent on fire suppression. The bill will reform the appeals 
process, which is completely broken. It makes conservation of 
forestland a priority, and will allow for long-term forest health. This 
initiative will keep environmental extremists from holding our forests 
hostage. In fact, the Healthy Forests Initiative will bring us to a new 
age of practicing not ``elitist environmentalism,'' but ``enlightened 
environmentalism.''
    Again, I am grateful for the opportunity to revisit my friends here 
in Flagstaff, and again want to thank Resources Committee Chairman 
Pombo, Forests and Forest Health Subcommittee Chairman McInnis, and my 
colleague, Congressman Renzi for bringing us here to address this 
important issue.
                                 ______
                                 
    Mr. McInnis. Thank you, Mr. Hayworth.
    The audience might note that Mr. Shadegg is well-dressed--
he has a reputation for being one of the best dressed Members 
of Congress and I can tell you how that happened, because 
before we come to Arizona, he tells all the rest of us, don't 
wear a tie down there, they will not like it.
    [Laughter.]
    Mr. McInnis. He walks in at the very last--so once again, 
he takes best dressed of Arizona.
    With all seriousness, Mr. Shadegg, I have appreciated very 
much working with you and your experience in the forests and so 
on and your help. And you may proceed with a brief 
introduction. Thank you.

OPENING STATEMENT OF THE HON. JOHN SHADEGG, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF ARIZONA

    Mr. Shadegg. Thank you very much, Mr. Chairman, I 
appreciate that. I thought all you guys would be in suits.
    I want to start by complimenting Congressman Rick Renzi, my 
colleague. It is no mean feat to bring about what he has done 
this early in the year and this early in his very first term. 
Of course, if you know Rick, you know that he's pretty intense 
on a lot of issues and I am not surprised he has been 
successful.
    I also want to say a few words complimenting both the full 
Committee Chairman and the Subcommittee Chairman. The reality 
is Rick was in part successful in getting this hearing because 
of his intensity, but he was also successful because these two 
gentlemen care a lot about this issue. They understand the 
issue, they are from the West, they have forests in their 
district, they have been working on this issue for a long time 
and it is a compliment to us that they care so much about this 
issue and that they would accede to this demand because they 
care.
    I am kind of an interloper here and I need to thank both 
the full Chairman and the Subcommittee Chairman. I no longer 
have the privilege of serving on the Resources Committee or the 
Forest Health Subcommittee, that was taken away from me 
sometime ago, I do not get to serve on this Committee. 
Nonetheless, I am, as many of you know, a native Arizonan, I 
have camped and hiked many of the forests of Arizona, my family 
has a summer home in Prescott and these issues mean a lot to me 
and so I have remained involved in them after leaving the 
Committee.
    As my colleague, Greg Walden, pointed out, last year, we 
spent--Mr. McInnis and Mr. Walden and I and others--spent 
countless hours trying to find a middle ground on this issue 
and I want to echo my colleague Mr. Walden's words on that 
issue. It is vitally important, no matter where you come from 
on this issue, no matter how strongly perhaps you believe we 
should not be moving forward with thinning our forests and 
restoring them to health or how strongly you believe that we 
should, we absolutely must come to common ground on that issue, 
it is essential for the forests of this nation and for the 
communities which border those forests. And I will tell you, 
last year following the devastating fires here in Arizona, but 
also the devastating fires elsewhere around the country, the 
Chairman of this Subcommittee threw himself into that effort 
and we did meet for countless hours with George Miller and 
Peter DeFazio. The good news is that Mr. DeFazio has forests in 
his district and he understands the problem and he has the 
respect of George Miller and so he is able to bring Mr. Miller, 
who has no forests, has an urban district, around and make some 
progress.
    This is an absolutely critical issue, not only for Arizona 
and for northern Arizona, but for the entire nation. We are 
fortunate to have had such great experts working on this 
problem.
    I want to briefly enlighten you as to how difficult it is 
for some of our witnesses. We have many great witnesses here 
and I want to thank all of them for their testimony today, but 
I want to particularly thank Mark Rey, the Under Secretary of 
the Department of Agriculture, who has worked on this issue and 
given great testimony before the full Committee and the 
Subcommittee, and I want to point out the difficult life he 
lives with.
    Last year, when the Interior appropriations bill was going 
forward, I made an effort to add $23 million for forest fire 
fighting to the bill. I went onto the floor, I offered the 
amendment during the appropriations process, I argued for it 
vigorously. One of my colleagues stood up and said absolutely 
not, we did not need that extra $23 million, this was an 
outrage and it should not pass.
    In yesterday's Washington Post, that same member who argued 
we did not need that $23 million is attacking the U.S. Forest 
Service for not having enough money in its budget for forest 
fire fighting.
    [Laughter.]
    Mr. Shadegg. Welcome to the wonders of Washington, D.C.
    Mark, I applaud you for your efforts. It is an outrage that 
we have left this year, the Forest Service some $300 million 
sort in fire fighting funds and I will continue to fight to get 
resources for fire fighting.
    I want to conclude by simply talking a little bit about the 
resource we have here in northern Arizona. The Ecological 
Restoration Institute at NAU is a tremendous resource for this 
nation on this issue. And in preparing for today's hearing, I 
was reading through some of their materials that I think are 
worth including. I presume they were written by Dr. Wally 
Covington, the Director of the Institute, but they deserve to 
be thought about by everyone.
    He begins by pointing out that there is a parallel between 
the work they have done, the research they have done at the 
Ecological Restoration Institute, working with the BLM, the 
Forest Service, the Arizona Game & Fish and others, in the 
nature of clinical trials. But he says this, ``The results of 
these clinical trials are so impressive that it is unethical 
for us not to enlarge our restoration efforts to protect entire 
landscapes and human communities embedded within them.''
    He goes on to say that often in our personal lives, someone 
says someone ought to do something about that problem, and then 
he raises this question, ``Who is that someone? It is us, it is 
our generation and the time to act is now.''
    Those words by Dr. Covington and his staff, I think set the 
tone for this hearing. It is us and the time to act is now.
    With that, I yield back the balance of my time, Mr. 
Chairman.
    Mr. McInnis. Thank you, Mr. Shadegg. Mr. Shadegg, I do want 
to publicly acknowledge your effort. It was really a great 
group, we had a lot of fun--Miller and DeFazio, we really did.
    Mr. Shadegg. We came very close.
    Mr. McInnis. On a lot of issues, this is not a group that 
we usually mesh together, but on this issue, we came together 
pretty strongly, so that was pretty neat.
    We are now going to--first of all, members, thank you for 
your opening statements. We are going to move to our witnesses 
now. I want you to know, witnesses, we have another party that 
I have not introduced, but I am going to introduce. Her name is 
Betty Crocker and she, you only hear her through a little 
timer. What we are trying to do--she does not say much but a 
little bing once in awhile, and what we are trying to do is 
attempt to limit your testimony, if you would respect us, to 5 
minutes. We have this timed such that if we can keep it to 5 
minutes for every witness, that then allows us some time to ask 
questions of the panel, then bring the other panel up and go 
through the same kind of thing.
    So let me briefly introduce the entire panel--The Honorable 
Mark Rey, who is the Under Secretary, U.S. Department of 
Agriculture; The Honorable Rebecca Watson with the U.S. 
Department of the Interior; The Honorable Gene Kelley, the 
Mayor of Show Low, out there in Arizona, I am looking forward 
to your testimony, considering the year you have had; Mr. 
Dallas Massey with the White Mountain Apache Tribe and Mr. Lyle 
Laverty, a long time friend of mind, long time forest employee, 
now with the Colorado Department of Parks.
    Mr. Rey, why don't we start with you. You may proceed.

 STATEMENT OF THE HONORABLE MARK REY, UNDER SECRETARY, NATURAL 
   RESOURCES AND ENVIRONMENT, U.S. DEPARTMENT OF AGRICULTURE

    Mr. Rey. Thank you. On behalf of the United States 
Departments of Agriculture and Interior, we want to express 
what a pleasure it is to be here today to enjoy the hospitality 
of Congressman Renzi and the citizens of Flagstaff, and also to 
acknowledge the leadership of yourself, Mr. Chairman, full 
Committee Chairman Pombo, and the balance of the Committee on 
this issue.
    As we are working together as one, we will have one 
statement for both departments and both Secretary Watson and I 
will summarize our statements.
    In my summary, I would like to do basically four quick 
things for you--one, review the 2002 fire season; two, talk 
about our 2002 rehabilitation and restoration work; three, talk 
about safety, community preparedness and fire fighting cost 
issues that were raised as a consequence of the 2002 season, 
and then four, tell you a little bit about what the outlook is 
for 2003.
    In 2002, 7.2 million acres burned nationwide. We had fires 
in every one of the 50 states.
    Mr. McInnis. Excuse me, Mr. Rey, what was the number?
    Mr. Rey. 7.2 million acres.
    Mr. McInnis. Thank you.
    Mr. Rey. And there were fires in every one of the 50 United 
States, so this is not a regional issue. The Federal Government 
expended $1.6 billion in extinguishing that fires, that makes 
2002 the second worst year in history in terms of acreage 
consumed or recent history in terms of acreage consumed, and 
the most expensive year in recent history and probably all of 
history in terms of expenditures.
    We spent 62 days at preparedness level five, that is our 
highest level of fire preparedness. That is, by comparison, 22 
more days than we spent at preparedness level five than we did 
in the year 2000.
    Nevertheless, as a consequence of the assistance Congress 
provided in 2000 and the development of the National Fire Plan 
and the inter-governmental coordination that resulted, over 99 
percent of the wildfires were stopped during initial attack. In 
addition to our efforts and those of our cooperating state and 
local governments, we received assistance in firefighting from 
the U.S. Army, from firefighters from Canada, Australia and New 
Zealand, as we have reciprocal agreements with firefighters 
from those countries, and some of our firefighters are in 
Australia today as we speak.
    You have already recounted the environmental and economic 
effects of the 2002 fires, so I will not elaborate on what is 
already in our testimony.
    With regard to the restoration and rehabilitation work, the 
majority of the work that remains to be done is needed to 
respond to the effects of the largest six to eight wildfires. 
Through our burned area emergency rehabilitation program, the 
Department of Agriculture has already invested $72 million and 
the Department of the Interior has spent $78.1 million in 
emergency restoration work in the areas that were affected.
    The Interior Department and the Forest Service have 
carryover in Fiscal Year 2003 budget resources that provide 
another $50 million for continued restoration work, with more 
that will be available from other accounts as we get further 
along in developing our final long-term restoration and 
recovery plans for the largest fires.
    A season like 2002 raised, inevitably, a number of safety, 
community preparedness and cost concerns. For instance, we have 
done a review of our aircraft program and have enacted new 
safety standards for contract firefighters. I believe that by 
the time we conclude the review of the aircraft program, we 
will have sufficient air attack resources available as the fire 
season commences here in the southwest where it usually begins.
    In addition, we have assisted over 11,000 communities in 
prevention and provided over 5000 rural and volunteer fire 
departments with training or equipment. And while no one would 
call New York City either rural or remote, you should know that 
last month we signed a memorandum of agreement with the Fire 
Department of New York City to train them in the incident 
command system. As part of their training, some of New York's 
firefighters will be participating with us this summer in 
firefighting efforts in the wildland area here in the West. 
Probably you will be able to recognize them by their accents, I 
would guess.
    [Laughter.]
    Mr. Rey. Costs of a year like 2002 are extraordinary, with 
impacts on programs from which funds were borrowed. We thank 
the Congress for providing us a repayment of those funds in the 
2003 Omnibus Appropriations Act.
    Those costs also spurred an inter-agency accountability 
team to review expenditures on large fires and establish new 
contract containment procedures and clarify financial 
management provisions.
    Now let me close by talking a little bit about 2003 and I 
will illustrate this with a map, if someone will hold the map 
for me.
    Mr. McInnis. Mr. Rey, let me tell you, I have just been 
advised of a complication we have and that is that we have a 
fixed camera. So unfortunately, you are not on camera and since 
we are trying to do this for the community, we really want to 
do that. So if you would not mind moving to the podium with the 
map and then wrap up your testimony--you have to move to the 
podium itself.
    And then for other witnesses while we are doing this, 
unfortunately, that will also necessitate you giving your 
testimony from the podium, versus from your seat. So in 
sequence, if you would go up there.
    And then one final thing, when we ask questions by the 
Committee here, if all of you would stand at podium, then you 
can take the question there. And the only reason I do this--I 
really want the community to get a full picture of what we are 
doing here.
    Mr. Rey, you may conclude with your remarks.
    Mr. Rey. The absence of my visage will not diminish the 
quality of the hearing, I am sure.
    [Laughter.]
    Mr. Rey. 2003 is stacking up to be another very difficult 
year. It looks a little bit better in the southwest, but a 
little bit more difficult in the northern and central Rockies 
and in the northern Great Lakes.
    The areas in red hatches are areas where we believe that 
there will be above-average potential for wildfires. The areas 
in the green are where we believe there will be below average 
potential for wildfires.
    There is some good news and there is bad news in this map. 
Some of the good news is that we will be able to do a lot of 
our prescribed burning program on national forests in this part 
of the country because we will have--
    Mr. McInnis. Mr. Rey, if you will--again, sorry to 
interrupt you, but I think this is very important. If you would 
describe the geographical locations on the map since most of 
the audience cannot see the map. If you would say down in the 
Florida area or so on.
    Mr. Rey. Right, down in the southeastern United States from 
Texas through the Florida panhandle and up into North Carolina. 
So there, we will have below average potential for wildfire.
    Also, some good news is that the situation in the southwest 
is mixed. New Mexico has been very wet in the last month, 
Arizona is improving. It may be that our fire season will start 
later in 2003 than it did in 2002.
    Now on to the bad news and that is that the northern 
Rockies--Montana, northern Idaho, Wyoming, eastern Oregon--are 
looking at above-average potential for wildfires. So that means 
that our fire season in 2002 which ended relatively early, will 
probably extend into September and maybe even early October if 
these trends continue.
    These are crude scale maps, they are based upon snowpack, 
stream flows, precipitation and fuel moistures, and they will 
change as the year changes and unfolds. But this is what it 
looks like at this point in time.
    As Mr. Shadegg said, this is a difficult task with a lot of 
problems associated with it that are daunting in their 
magnitude.
    I know when the President asked me to take this job, I said 
a quiet prayer and said I hope that if I do this that I will be 
able to serve in a time of budget surpluses and above-average 
rainfall. And I am 0 for 2.
    Thank you very much.
    Mr. McInnis. Mr. Rey, you will note I let you go beyond the 
5 minutes, that is because I want to treat you with kid gloves 
so we get your airplanes out here. Get them fixed, get them in 
the air.
    Ms. Watson, The Honorable Rebecca Watson, U.S. Department 
of the Interior. You may proceed.

    STATEMENT OF THE HONORABLE REBECCA W. WATSON, ASSISTANT 
SECRETARY, LAND AND MINERAL MANAGEMENT, U.S. DEPARTMENT OF THE 
                            INTERIOR

    Ms. Watson. Thank you, I am very glad to be here. Good 
morning to both Chairmen and members of the Committee. I am the 
Assistant Secretary from the Department of the Interior. One of 
the bureaus I administer is the Bureau of Land Management.
    I am here today to talk about the Healthy Forests 
Initiative and my role for the Department there as spokesperson 
for the four bureaus in our Department that have concerns about 
wildland fire. They are the National Park Service, the Fish & 
Wildlife Service, Bureau of Indian Affairs and Bureau of Land 
Management.
    Interior has different lands, different missions than the 
Forest Service does. We have the parks, we have wildlife 
refuges and we also have more range and grass and woodland 
landscapes than we do timber.
    I come from western Montana and I lived through the fires 
of 2000, so I share some of the experiences that members of the 
Committee discussed today. I know the catastrophic effects that 
can come from wildfire and that my state is still living with.
    I want to talk a little bit about catastrophic fires and 
the local communities here in Arizona. The Rodeo-Chediski fire 
inflicted tremendous resource and economic impacts on the White 
Mountain Apache Tribe. The fire killed about 60 percent of the 
tribe's timber, resulting in a loss of investment and adversely 
affecting long-term local employment opportunities in a 
community that desperately needs its timber program.
    Rehabilitation, restoration and salvage costs for the 
Tribe's assets are high and they are vitally needed. I want to 
announce today that as of this morning, I talked to the Budget 
Office of Department of Interior; we are aware of the Tribe's 
need for an additional $5 million for restoration and 
stabilization, and we will provide that money. We have 
reprogrammed the money and will provide that to the Tribe, so I 
am pleased to announce that to the Chairman today.
    Mr. McInnis. Now you get an extra minute for that.
    [Laughter.]
    Ms. Watson. Good.
    I quickly want to just show some pictures before I get into 
the Healthy Forests Initiative and what we have done in the 
Administration, just to set the stage. It is a simple problem 
to describe, but it is complex to implement, which is why we 
are here.
    This first picture is from my State of Montana, it is the 
area where the fires of 2000 occurred. You see here what the 
forests looked like in the 1880's and 1890's. This is what the 
forests looked like in 1980, same cabin, densely covered with 
trees. This is the forest--
    Mr. McInnis. Rebecca, could you lift it up so we can get it 
on camera too, I want the community to see it. Thank you.
    Ms. Watson. This is the forest in the year 2000. The cabin 
had been removed previously but the trees are now all black. 
And that is what the problem is, over-dense forests.
    It is just like any plant that you are familiar with, 
plants need three things, they need sun, they need water and 
they need soil nutrients. When you have 1000 trees competing 
for those same resources versus the 50 that in historic times 
were on these lands, it is not surprising the trees are thin, 
disease-prone, insect-prone and go up in flames.
    This is a picture from the Squires Fire in Oregon that we 
heard about earlier. This is what wildfire looks like in an 
untreated forest, it flames up and crowns.
    Here is an example of what the forest looks like, the 
results, after a fire like that. This is from Rodeo-Chediski, 
these are black trees that result in an unthinned forest and 
fire.
    Again, we go back to the Squires Fire, this is an area that 
had been treated. You see the fire dropping down to the ground, 
clearing out the understory, not going up to the trees' crowns.
    The last picture, again back to Rodeo-Chediski, this is an 
example of a thinned forest after the fire, and you see green 
trees, you see big trees remaining, mid-sized trees, and this 
is what the forest looked like.
    The last picture is one that is also up on the wall and it 
is particularly revealing. It is a satellite image from the 
Department of the Interior's USGS and it shows four green spots 
across there. You can see them here, here, here and over there. 
And those are areas that were treated. The red is what was not 
treated and was burned in the Rodeo-Chediski fire. And I think 
that is a compelling picture of what we are talking about in 
the Healthy Forests Initiative.
    The foundation for the Healthy Forests Initiative is the 
10-Year Comprehensive Strategy and Implementation Plan that 
will reduce risks of wildfire. And what makes that plan 
unique--and you in Congress have voted a resolution in support 
of it--is that it is a collaborative effort between states, 
counties, Federal agencies and Tribes. Part of our 
implementation of that is a recent agreement we just signed 
between these entities to agree to a collaborative process to 
prioritize and select fuels treatment projects. So it is 
reaching out, it is not the Federal Government in isolation 
deciding what projects should be done. We work together with 
counties and states and interested parties to prioritize 
projects for treatment.
    Another step that we have done pursuant to the President's 
directive is issuing two guidance documents to expedite 
Endangered Species Act consultation. As you know, this problem 
is large. The process can slow us down, as the Chairman 
mentioned, process predicament. What we want to do here is meet 
the legal requirements of the Endangered Species Act, but do it 
in a smarter, more efficient way, so we issued two guidance 
documents last fall to do that.
    The Department of Interior and Forest Service have also 
proposed an expedited use of the National Environmental Policy 
Act, or NEPA. And here we have proposed two categorical 
exclusions that can be used for hazardous fuel reduction. I 
want to make it clear to you and the members of the public that 
these are narrowly crafted categorical exclusions. Categorical 
exclusions are a tool recognized by NEPA and these categorical 
exclusions provide that they cannot be used in wilderness 
areas, no herbicides or pesticides can be used, you can have no 
new roads and there are no timber harvests unless hazardous 
fuel reduction is the primary purpose. So, this is not an 
expedited means to do timber harvests; it is something entirely 
different.
    Mr. McInnis. Rebecca, would you mind--excuse me again--just 
very briefly for the benefit of our audience, describe what a 
categorical exclusion is--very briefly.
    Ms. Watson. Sure. The National Environmental Policy Act 
requires Federal agencies to take a hard look at the 
environmental consequences of any action they take, and you can 
meet those requirements by either preparing an environmental 
impact statement, which is a long, lengthy document; an 
environmental assessment, which is a shorter document; or a 
categorical exclusion. With categorical exclusions are is you 
take a look at the same actions that have been done repeatedly. 
If you see there are no environmental impacts, it repeatedly 
comes back saying no, there is no impact, you do not need to 
prepare an environmental impact statement, then you can have a 
categorical exclusion. And you look at not just the individual 
impact, but the cumulative effects. So these are actions that 
have been done so many times that we know that they do not have 
a significant environmental impact and so they are 
categorically excluded or have a permit to go under NEPA.
    Mr. McInnis. Thank you.
    Ms. Watson. Another administrative action that we have done 
for those cases where a categorical exclusion is not 
appropriate is an environmental assessment document. The 
Council on Environmental Quality, part of the White House, has 
proposed a model environmental assessment. What it is trying to 
test is, can we get back to the original intent of NEPA, to 
have a focus document that people in the public can read and 
understand and meaningfully participate in. So we have 15 
projects around the country, Forest Service and BLM, and those 
projects are designed to test whether or not a 20 to 35-page 
environmental assessment will disclose impacts rather than what 
we have seen in both agencies, environmental assessments 
getting up to 300 pages and longer.
    In addition, both agencies have proposed changes to their 
administrative appeals processes. We want to expedite those, by 
placing those appeals to the front of the line. It still, of 
course, provides for public participation through that appeals 
process, but we want to expedite the process and recognize the 
emergency that our public lands are under.
    We think these administrative proposals will facilitate 
treatment of these lands. The problem is enormous, some 190 
million acres of public land at risk of catastrophic wildfire. 
Resources are limited, especially at this time in our country's 
history. So we need to find tools to address this problem. 
These administrative tools are part of that solution. I want to 
take this opportunity to thank Congress for a very important 
tool we just received through the Omnibus Appropriations Act, 
which is stewardship contracting. We at Department of the 
Interior have now received this authority for the first time 
for the Bureau of Land Management, and it has been extended for 
the Forest Service. We want to thank Congress for that, we 
think it is going to be very important and also want to assure 
the public that we are going to implement stewardship contract 
authority with their input. We are already reaching out to the 
Governors, to the counties and to other interested members of 
the public on how to craft the guidance surrounding our use of 
stewardship contracting.
    Finally, I want to just mention legislation briefly. The 
President endorsed legislation at the end of August and the 
President's proposed 2004 budget sent forward proposals 
designed to accomplish timely and efficient implementation.
    We look forward to working with this Committee in a 
bipartisan fashion, as you fashion Healthy Forests Initiative 
legislation. So thank you.
    Mr. McInnis. Thank you, Rebecca. I appreciate the substance 
of your comments. I would add that Mr. Renzi will probably 
mosey on over to your desk and look for a check to present to 
the tribe there.
    [Laughter.]
    Mr. McInnis. He has been on that. Thank you very much.
    Next, I would like to introduce The Honorable Gene Kelley, 
the Mayor of Show Low. Thank you, Mayor, for coming over, we 
appreciate it; thank you for letting us in your area. I know 
you had a trying summer. You may proceed.
    [The prepared statement of Mr. Rey and Ms. Watson follows:]

   Statement of Mark Rey, Under Secretary, Natural Resources and the 
   Environment, U.S. Department of Agriculture, and Rebecca Watson, 
 Assistant Secretary, Land and Minerals Management, U.S. Department of 
                              the Interior

    Mr. Chairman and members of the Committee, thank you for the 
opportunity to meet with you today. Since the Department of the 
Interior and the Department of Agriculture work closely together in 
fire management and in implementing the National Fire Plan, it is 
appropriate to use one statement to talk about the 2002 wildland fire 
season, and discuss our work on the National Fire Plan and the 
President's Healthy Forest Initiative. President Bush's proposed 
Healthy Forests Initiative is based upon a common-sense approach to 
reducing the threat of catastrophic wildfires by restoring forest and 
rangeland health. Our goal is to ensure the long-term safety and health 
of communities and natural resources in our care. Our responsibility is 
to ensure the long-term health of our forests and rangelands for the 
use, benefit and enjoyment of our citizens and for generations to come.
    But first, we would like to congratulate you, Chairman Pombo, on 
assuming the leadership of the Resources Committee. We also want to 
thank you, Chairman McInnis, for your aggressive attention to the 
issue. We look forward to working with you and the Committee. As we 
move into the 2003 fire season, fighting wildland fires is only one 
aspect of the work we must do to protect communities; we must also 
reduce the amount of hazardous fuels, and restore healthy ecosystems to 
protect communities and our natural resources.
NATIONAL FIRE PLAN
    With the fire adapted ecosystems of North America, we have the 
challenging task of reducing fuels and the vulnerability of our 
communities to wildfire while restoring the health of our forests and 
rangelands. This challenge is national and long term in scope. Of the 
three factors that most influence wildland fire behavior--weather, 
topography, and fuel- land managers can effectively impact only fuel. 
Since the severe 2000 wildland fire season, Congress has funded the 
National Fire Plan for Federal agencies to work on a long-term program 
to reduce fire risk and restore healthy fire-adapted ecosystems in the 
Nation's forests and rangelands. Federal agency field units, States, 
Tribes, and other partners have been busy, putting into action the 
concepts of the National Fire Plan. Bipartisan Congressional support 
provided the funding necessary in 2002 for 17,400 Federal fire 
employees and thousands of contract fire personnel to prevent, detect, 
and suppress wildland fires, treat hazardous fuels, and provide 
leadership for the organizations. In 2002, despite the severe drought, 
the Forest Service and the Department of the Interior accomplished a 
total of 2.2 million acres of hazardous fuels reduction; of that, 
almost 1 million acres were in the wildland urban interface. This is 
168,000 acres more than 2001. We also reduced hazardous fuels on 
slightly more than 1million additional acres through wildland fire use. 
For 2003, we anticipate treating 2.5 million acres of hazardous fuels 
of which 1.1 million acres are in the wildland urban interface.
    Recently, the Forest Service, Department of the Interior, National 
Association of State Foresters and National Association of Counties 
agreed to a collaborative process to identify fuels treatments. In 
order to more expeditiously protect communities and improve forest and 
rangeland health, the parties agreed to coordinate this process across 
ownerships and jurisdictions.
2002 FIRE SEASON
    The 2002 wildland fire season was intense, difficult, and historic. 
Long-term drought over most of the West contributed to an earlier and 
very severe fire season. Of the 7.2 million acres burned in 2002, only 
a few wildfires were the large, uncontrolled fires seen on television. 
These were the fires that burned in and around wildland-urban interface 
areas requiring extensive evacuations of communities, subdivisions, and 
ranches. Fire activity was intensified by unfavorable weather 
conditions and in many situations posed a safety threat to firefighters 
and members of the public.
    When we realized the potential severity of the 2002 wildland fire 
season, we hired seasonal firefighters early and we staged firefighting 
crews and equipment in locations where they could be mobilized quickly 
and effectively. Federal wildland fire agencies had enhanced initial 
attack capabilities in Arizona, New Mexico, Colorado, Montana, and 
Nevada by pre-positioning resources ranging from air tankers, to hand 
crews, to engines in strategic locations. Although several fires were 
devastatingly large, the additional resources made a difference in 
reducing the size of many of the fires. Without the added National Fire 
Plan support, our response would not have been as strong. Initial 
attack suppression activities were highly successful, as about 98% of 
2002 wildfires were stopped during initial attack. We sustained 62 days 
of Preparedness Level 5, our highest level of activity; 22 days longer 
than the 2000 wildland fire season, another record year. Modular 
Airbourne Firefighting System military C-130 aircraft were based in 
Colorado, Utah, Washington, Idaho, and California and dropped more than 
1.6 million gallons of fire retardant on wildfires burning on these 
areas. One battalion from the U.S. Army, Task Force Destroyer (1/5 FA 
1st Battalion, 5th Regiment) Fort Riley, Kansas was also assigned for 
30 days. International firefighting assistance was provided by Canada, 
Australia, and New Zealand. These international resources provided a 
total of thirty-nine 20-person hand crews and 131 overhead or 
management personnel assisted in fire suppression activities across the 
West.
ENVIRONMENTAL EFFECTS OF WILDFIRE
    For most of the twentieth century, all wildland fires were thought 
to be bad. As a result, fires were suppressed as soon as possible to 
reduce their negative effect. Aggressive fire suppression was effective 
but had an unintended consequence. The frequency and intensity of 
wildfires appears to have increased due to the buildup of fuels such as 
dead and dying trees and dense growth of flammable vegetation. Fire 
exclusion resulted in woody species encroachment into shrublands and 
grasslands, altered wildlife diversity and populations through habitat 
modification, and increased disease and insect infestations. This build 
up of fuel coupled with other factors like drought have raised 
increasing concerns about the overall wildland condition and 
particularly the health of the forest and rangelands.
    These conditions of increased fuel and severe drought have resulted 
in increasingly large and severe wildland fires. Damage to watersheds, 
wildlife habitat, air quality, erosion, and old-growth forests are the 
undesirable effects of large and severe fires. These fires are costly 
and increasingly difficult to control.
    However, where the natural fire return interval has been maintained 
through prescribed burning or where the buildup of fuels, such as thick 
understory and dense trees, have been thinned by environmentally sound 
forest management practices, these wildfires can be beneficial. This is 
particularly so in plant communities that have historically experienced 
frequent low severity fires such as ponderosa pine. Low intensity fires 
generally leave the soil intact, recycle nutrients, and stimulate the 
regeneration of many beneficial plant species. These fires often create 
a patchy mosaic on the landscape, increasing the overall biological 
diversity or health of the area.
2002 REHABILITATION AND RESTORATION
    Rehabilitation and restoration are critical parts of responding to 
the aftermath of wildfire. These efforts focus on lands unlikely to 
recover quickly and naturally from wildfire. Rehabilitation activities 
generally take several years and include reforestation, watershed 
restoration, road and trail rehabilitation, noxious weed control, and 
fish and wildlife habitat restoration. Native plants and trees are used 
whenever possible.
    The majority of the work needed to be accomplished for Fiscal Year 
2003 results from the negative fire effects such as erosion, 
sedimentation, downstream flooding, and spread of noxious weeds, from 
the Rodeo/Chediski, Hayman, McNally, Biscuit, and Tiller Fires of 2002. 
Some of the previous commitments we have made for rehabilitation work 
resulting from fires of 2000 include the watershed and road work 
provided for in the Bitterroot Settlement agreement and completing the 
reforestation efforts that are already underway with the nurseries.
    Through Burned Area Emergency Rehabilitation (BAER) Plans in 2002, 
$72 million was authorized for immediate emergency stabilization after 
fires. This post-fire work focuses on preventing additional damage to 
the land, and minimizing threats to life or property resulting from the 
effects of fire. This work typically begins before the fire is 
completely contained and is generally accomplished within the first 
year after the fire. The longer rehabilitation efforts follow this 
emergency stabilization work.
    Like the Forest Service, the Department of the Interior experienced 
a demanding workload for stabilizing and rehabilitating burned areas 
after wildfires. Interior made $78.5 million available for emergency 
stabilization and burned area rehabilitation last year, with $15 
million carrying over to continue stabilization efforts this year. The 
carryover from Fiscal Year 2002 plus the Fiscal Year 2003 appropriation 
will provide the Department with $35 million for emergency 
stabilization and rehabilitation in Fiscal Year 2003. This funding has 
been targeted to priority projects to protect public health and safety, 
protect municipal water supplies, threatened and endangered species 
habitat, and prevent invasive plant establishment.
SAFETY
    We thank you and your Committee for your support of the men and 
women who make up our firefighting corps. Our firefighters do an 
impressive job under adverse conditions and they deserve our thanks and 
admiration. Firefighting is a high risk, high consequence activity. 
Following the Thirty-Mile Fire tragedy in July 2001, where four 
firefighters lost their lives, we reexamined our safety programs and 
made a number of improvements. Through training and reinforcement, we 
are emphasizing management of firefighter fatigue, use of the 10 
Standard Fire Orders and the 18 Watch Out situations. We have revamped 
our training to include findings and lessons learned from the 
Thirtymile incident. Firefighter briefings now include standard 
components that address planned suppression operations, hazards and 
risks, critical fuels and weather conditions, and other crucial 
information. We have an improved fire shelter which is used as a ``last 
resort'' tool and a key component of fire fighter safety equipment.
    Despite our efforts, there were 23 fire-related Federal, states, or 
volunteer fatalities in the 2002 wildland fire season. Over half the 
fatalities were contractors to Federal agencies; most of the fatalities 
were the result of vehicle accidents, some attributed to fatigue. 
Therefore, we are including in Fiscal Year 2003 contracts Federal 
firefighter work-rest guidelines to minimize fatigue for contracted 
firefighters and support personnel. Six fatalities resulted from 3 
aviation accidents. The Forest Service and Bureau of Land Management 
commissioned an aviation blue-ribbon panel that surveyed the aviation 
program and made factual findings. Based on the findings, the Forest 
Service made several changes to the aviation program, including 
extensive inspections of airtankers as well as grounding other aircraft 
until air worthiness can be assured. In addition, Sandia Lab in 
Albuquerque is developing increased aircraft safety criteria for Forest 
Service contracted aircraft.
WHAT COMMUNITIES CAN DO
    More than 2,000 structures were lost to wildfires last year. Of the 
structures destroyed, 835 were primary residences, 46 were commercial 
properties, and 1,500 were outbuildings. Communities can help 
themselves to prevent this sort of loss in the future. Indeed, with our 
State Forester partners through the State Fire Assistance program, we 
assisted over 11,000 communities by developing local projects on fire 
prevention, fire suppression, hazard mitigation, and creating FIREWISE 
communities. In 2002, both Departments helped over 5,000 rural and 
volunteer fire departments by providing training, protective fire 
clothing, and firefighting equipment through the Volunteer and Rural 
Fire Assistance programs. Additional efforts will promote partnerships, 
community action plans, and projects where communities can themselves 
reduce fuel hazards, improve building codes, and create fire resistant 
landscapes.
    National fire prevention teams were activated throughout the year 
in many Western states where fire danger was extreme. Teams were 
dispatched for month-long assignments to assist local resources in 
assessing human-caused fire starts. Once assessments are complete, 
these trained fire prevention professionals prepare a site-specific 
strategy of unique fire prevention solutions for the area. Fire 
prevention teams were placed in Salt Lake City, UT, Santa Fe, NM, 
Custer, SD, Seattle, WA, Sequoia National Forest, CA, and Colorado 
Springs and Durango, CO.
    In addition, citizens can take action through the FIREWISE program, 
which helps people who live or vacation in fire-prone areas educate 
themselves about wildland fire protection. Homeowners can learn how to 
protect their homes with a survivable space and how to landscape their 
yard with fire resistant materials. A consortium of wildland fire 
agencies that include the Forest Service, the Department of the 
Interior, and the National Association of State Foresters sponsors the 
program.
COSTS
    There is no question that fighting these fires was expensive--the 
total cost for both Departments was almost $1.6 billion. The Forest 
Service transferred approximately $1 billion from other accounts to 
fund fire suppression costs. We want to thank Congress for acting upon 
the Administration's request and repayment. $636 million was 
appropriated in the Fiscal Year 2003 Omnibus Appropriations Act. Every 
effort will be made to repay these as quickly as possible. The Forest 
Service has established a priority process to repay the accounts from 
which funds were transferred, and every effort will be made to repay 
these in a timely fashion.
    Interior also had emergency wildfire response costs that exceeded 
funding available within the fire management appropriation by more than 
$250 million last year. The Secretary transferred $240 million from the 
construction and land acquisition accounts of the land management 
bureaus and BIA to cover most of the additional costs for emergency 
suppression and stabilization. The fire program also reprogrammed $14 
million intended for fire facility maintenance and construction and 
hazardous fuels reduction projects.
    Recent criticism of how the Forest Service and the Department of 
the Interior spend funds to suppress wildfire is of great concern to 
the Departments and the agencies. In response to criticisms that 
occurred during this past fire season, Forest Service Chief Dale 
Bosworth in cooperation with Interior agencies promptly dispatched an 
accountability team to review specific expenses and policies that may 
have contributed to unnecessary expenditures on large fires. As a 
result of this and other interagency efforts, new procedures have been 
established that will focus on cost containment strategies in 
suppressing wildfire and eliminating unnecessary expenses; establish 
clearer financial management accountability of incident commanders and 
line officers; and provide for improved controls and incentives for 
suppression costs.
    Additionally, the Forest Service and the Department of the Interior 
will fully implement performance measures in cooperation with the 
Department of the Interior that reflect the level of risk reduced by 
treatments as part of the interagency effort to increase accountability 
of Federal wildland fire management efforts.
    In implementing these performance measures, it is important to 
emphasize that firefighter safety and the protection of communities 
will not be compromised. As we focus on an efficient wildland 
firefighting organization, we must not lose sight of the fact that fire 
suppression often is an expensive operation where major costs will be 
most substantially reduced by accomplishing the goals of the 
President's Healthy Forests Initiative and the National Fire Plan.
2003 SEASONAL WILDLAND FIRE OUTLOOK
    At this time, our experts at the National Interagency Coordination 
Center (NICC) in Boise, Idaho, indicate that long term drought persists 
and is expected to intensify over much of the interior West. Mountain 
snow pack and precipitation remains below average for most of the 
western states with the exception of northern and central California. 
The outlook for February through April calls for above normal 
temperatures and below normal precipitation over the Pacific Northwest, 
Northern Rockies, portions of the Great Lakes, and the Ohio River 
Valley. Unless the weather patterns provide relief, 2003 has the 
potential for an above normal fire season in these areas, especially in 
the interior West.
    Drought conditions and dense vegetation increase the risk of 
wildfires that burn longer, faster, and more intensely. We know that 
fire historically played a positive role in sustaining ecological 
stability. Where appropriate, we will manage wildland fire use as 
prescribed in land and resource management plans. However, because of 
the degraded condition of many forests and grasslands, use of fire for 
forest management has become much more complex. It requires scientific 
support and new tools to help plan, implement and monitor fire 
management activities. One of these tools is the President's Healthy 
Forest Initiative.
THE PRESIDENT'S HEALTHY FOREST INITIATIVE
    In May 2002, working with the Western Governors' Association and a 
broad cross-section of interests including county commissioners, state 
foresters, tribal officials and other stakeholders, we reached 
consensus on a 10-Year Comprehensive Strategy and Implementation Plan 
to reduce fire risks to communities and the environment. The plan sets 
forth the blueprint for making communities and the environment safer 
from destructive wildfires. The plan calls for active forest management 
focusing on hazardous fuels reduction both in the wildland-urban 
interface and across the broader landscape. Active forest management 
includes: thinning trees from over-dense stands that produce commercial 
or pre-commercial products, biomass removal and utilization, and 
prescribed fire and other fuels reduction tools. We want to thank you, 
Chairman Pombo, Chairman McInnis, and the members of the House of 
Representatives, for initiating and passing House Concurrent Resolution 
352 endorsing the Collaborative 10-Year Strategy.
    In order for the 10-Year Implementation Plan to succeed, the Forest 
Service and Interior agencies must be able to implement critical fuels 
reduction and restoration projects associated with the plan goals in a 
timely manner. Often, however, the agencies are constrained by 
procedural requirements and litigation that delay actual on-the-ground 
implementation. As we testified last September, the three factors most 
contributing to project delay are: 1) excessive analysis; 2) 
ineffective public involvement; and 3) management inefficiencies. We 
have reached a point where we must change to allow agencies to 
implement management decisions to achieve healthy forests and 
rangelands.
    On August 22, 2002, President Bush announced Healthy Forests: An 
Initiative for Wildfire Prevention and Stronger Communities. The 
Healthy Forest Initiative would implement core components of the 10-
Year Implementation Plan, enhancing and facilitating the work and 
collaboration agreed to in that document.
    The President's initiative directs us, together with Council on 
Environmental Quality Chairman Connaughton, to: improve procedures for 
collaborative selection and implementation of fuels treatments and 
forest and rangeland restoration projects; reduce the number of 
overlapping environmental reviews; develop guidance for weighing the 
short-term risks against the long-term benefits of fuels treatment and 
restoration projects; and develop guidance to ensure consistent NEPA 
procedures for fuels treatment activities and restoration activities. 
We will report today on several actions the Secretaries have taken to 
accomplish these objectives.
ADMINISTRATIVE ACTIONS
    The USDA Forest Service and the Department of Interior have 
proposed two categorical exclusions that can be utilized across 
jurisdictional boundaries by Federal agencies engaged in hazardous fuel 
reduction and post-wildfire resource and infrastructure rehabilitation. 
These two categorical exclusions were based on an analysis of over 
3,000 hazardous fuel reduction and post-wildfire restoration projects. 
Our analysis of these activities has shown that these types of narrowly 
defined actions have not resulted in individually or cumulatively 
significant environmental impacts, and therefore, may be conducted 
without preparation of an environmental assessment or environmental 
impact statement. We expect to publish final categorical exclusions 
later this year.
    A categorical exclusion may not always be the appropriate level of 
analysis; each project is different and some may not meet the criteria 
for use of a CE. Therefore, CEQ Chairman, Jim L. Connaughton, has 
issued guidance which clarifies the policy on the preparation of 
environmental assessments for fuels treatments. The clarification 
addresses the purpose and content of a model Environmental Assessment 
for fuels treatments. The guidance is being applied initially to ten 
Interior and five Forest Service projects to test the adequacy of the 
model EA to address the impacts typically found in fuels treatment 
projects. Process lessons learned in developing these projects will be 
shared widely throughout all agencies for application to additional 
projects.
    The Forest Service has proposed revising its implementing 
regulations under the Appeals Reform Act. Proposed changes are designed 
to encourage early and meaningful public participation in project 
planning, rather than focusing the public on review of a completed EA 
and on appeal of a decision after it has been made. The proposal gives 
the line officer discretion over the timing of the 30-day notice and 
comment period, rather than requiring that it take place after the 
environmental assessment is complete. There would also be limitations 
on appeals based on early project involvement and on raising new issues 
that had not previously been raised. A final policy is expected to be 
published later this year.
    The Department of the Interior's Office of Hearings and Appeals 
(OHA) and the BLM are proposing a series of changes to their 
administrative rules, to streamline their appeals process for hazardous 
fuels treatment projects. Interior wants to ensure that appeals from 
decisions involving either forest or rangeland health are resolved 
quickly without depriving the public of the right to participate in the 
administrative process. Frequently, delaying a project can be the same 
as stopping a project. The proposed rules would require OHA to resolve 
any appeal involving forest or rangeland health within sixty days from 
the filing of all paperwork from the parties. Forest and rangeland 
health appeals will not be subject to any different standards than 
other types of appeals. Under this proposal, they must simply be 
handled first. The proposed rules also contain a number of technical 
changes that will allow OHA to do its job more efficiently and apply 
rules more consistently.
    The Fish and Wildlife Service and the National Oceanic and 
Atmospheric Administration issued a joint guidance memo on Endangered 
Species Act Section 7 consultation in October, 2002. It emphasizes the 
use of programmatic interagency consultation under the Endangered 
Species Act for Healthy Forests Initiative projects. It also emphasizes 
the grouping of multiple projects into one consultation. These agencies 
also issued joint guidance in December, 2002 providing direction on how 
to fully consider and balance potential short- and long-term beneficial 
and adverse impacts to endangered species when evaluating proposed 
Healthy Forests Initiative projects.
    In addition to these Healthy Forests Initiative actions, the Forest 
Service has proposed the addition of three new timber harvest 
categorical exclusions (CEs) to its authorities. Projects would include 
limited timber harvesting of live trees, salvage harvests, and 
sanitation of dead and dying trees for insect and disease control. 
Projects of this nature occur routinely as part of managing National 
Forest System lands.
LEGISLATIVE ACTIONS
    In August, 2002, the Administration endorsed legislation to 
implement the Healthy Forest Initiative. Recently, the Congress passed 
the Omnibus Appropriations Act of 2003 [PL 108-7]. Section 323 of the 
Act contains stewardship contracting language that includes the Bureau 
of Land Management and extends authority through Fiscal Year 2013 for 
the Forest Service to enter into long-term stewardship contracts with 
the private sector, non-profit organizations, local communities, and 
other entities. Long-term contracts provide contractors the opportunity 
to invest in equipment and infrastructure needed to productively use 
material generated from forest thinning to make forest products or to 
produce energy. The stewardship contracting provision does not provide 
any authority to enter into long-term contacts that the Forest Service 
did not already have under the National Forest Management Act. The 
Departments are currently developing public involvement methods and are 
working with the state Governors, counties and interested parties to 
develop procedures to implement the Act.
    As the Committee knows, the President's budget included proposals 
for the Healthy Forest Initiative. We thank the Committee for their 
bipartisan efforts to pass Healthy Forest legislation in the last 
Congress. We look forward to working with your Committee to develop 
Healthy Forest legislation and pledge our cooperation.
SUMMARY
    With the outlook for an upcoming severe fire season, the five 
Federal land-managing agencies and our partners at the State and local 
level are doing all that we can to be prepared. Safety of firefighters 
and communities is our first priority. With the fire adapted ecosystems 
of North America, we have the challenging task of reducing fuels and 
the vulnerability of our communities to wildfire while restoring the 
health of our forests and rangelands. This challenge is national and 
long term in scope. The 10-Year Implementation Plan and the Wildland 
Fire Leadership Council will continue to foster cooperation and 
communication among Federal agencies, States, local governments, 
Tribes, and interested groups and citizens. With your continued help, 
all the agencies can accomplish robust performance-based programs for 
the nation's forests and rangelands, and do so in full collaboration 
with state governments, communities, Congress and the American people.
    We look forward to working with you in implementing the agency's 
programs and would be happy to answer any questions.
                                 ______
                                 

  STATEMENT OF THE HONORABLE EUGENE KELLEY, MAYOR, SHOW LOW, 
                            ARIZONA

    Mr. Kelley. The thank you should come from me to you. Mr. 
Chairman, members of the Subcommittee, I do thank you for the 
opportunity to testify before you today.
    Last year, the Rodeo-Chediski fire was something that none 
of us ever want to see repeated. The fire experts from the Type 
1 team told us on Saturday that our city would surely overburn, 
all fire science said that was what was going to happen. We 
evacuated the city and on Sunday, we were spared the most 
certain forecast, by the intervention of our good Lord 
providing us with 48 percent humidity and most favorable winds 
that took the fire out of the crown of the trees and put it on 
the ground. Please do not misunderstand me, we also owe our 
gratitude to over 5000 firefighters that were able to jump this 
fire and within hours have it under control within less than 
one quarter mile of our city limits and our homes.
    As the Mayor of Show Low, I am most grateful that Show Low 
was spared the devastation. I know that I speak for our entire 
community when I express my sincere condolences to our 
neighboring communities who experienced great losses. I express 
our collective gratitude to everyone involved in suppressing 
this fire. I especially thank those in the Forest Service and 
the White Mountain Apache Tribe for the countless acres of 
their land that was thinned prior to the fire. We believe that 
this effort ultimately protected Show Low. In particular, Rick 
Lupe's team and dedicated fire crew deserves a lot of credit 
for saving Show Low and our neighboring communities. We are 
forever in their debt.
    The City of Show Low has been concerned for years that what 
happened last summer was a possibility. we have worked hard and 
long in an effort to prepare our community for the possibility 
of such a disaster. For years before the Rodeo-Chediski fire, 
we have been involved in forest health issues and focused on 
the need to thin our forests to restore them to their natural, 
pre-settlement state.
    Since the fire, we have embarked upon a number of thinning 
projects on city property in an attempt to set an example for 
private property owners. It is our believe we will have 
completed before peak of fire season the thinning of all city-
owned and controlled property within our city limits.
    In addition, Show Low's City 4 Television has done a number 
of programs on the importance of protecting our homes and 
businesses from the threat of wildfire with firewise 
landscaping.
    We have coordinated with the University of Arizona 
Cooperative Extension, the Northern Arizona University School 
of Forestry and the Ecological Restoration Institute. These 
groups developed and implemented the Blue Ridge Demonstration 
Project, 17,000 acres of forest land adjacent to the 
communities of Pinetop-Lakeside, our neighbors to the south. 
This project has demonstrated that all the interested parties 
can work productively together. A special debt of gratitude is 
owed Senator Jon Kyl, who was responsible for directing a 
significant amount of funding toward this project.
    Currently there is an area south of Show Low and east of 
Highway 60 that has been designated as most critical to the 
protection of Show Low and much of the White Mountains. This 
area must be treated if we are to be protected and our 
communities from the forest fire possibilities. We have been 
informed by our friends at the Forest Service that money for 
the project will not be available to put work forces on the 
ground until May or June. If they start the project in May or 
June, they may well be shut down because they are a threat of 
ignition. Trying to be creative, thinking outside the box, 
using some common sense, the City Council of Show Low recently 
unanimously voted to lend the Federal Government $300,000 to 
facilitate that thinning project on approximately 600 to 1000 
acres of forest land. Unfortunately, the Federal Government has 
no mechanism in place to be able to take advantage of our 
offer.
    [Laughter.]
    Mr. Kelley. We were only going to charge interest at the 
rate of zero, and expected the money to be paid back when they 
were funded this year. We find this to be a very frustrating 
catch-22. We continue to pursue the project through political 
means and today's hearing is part of that process. I do have a 
pleasant ending. In just a moment, I will share it with you.
    We have had much success convincing homeowners and business 
owners of the importance of saving the forests in our community 
by cleaning up their own property. The Show Low Council has 
passed two resolutions in support of forest health and fire 
protection, landscaping within our community, and we are in the 
process of preparing an ordinance that would address those 
issues.
    I was here prepared to recommend to this Committee go back 
to Washington and develop a mechanism to handle this little 
catch-22 to possibly save Show Low, Pinetop-Lakeside and many 
key parts of the reservation. I do not need to ask you to do 
that, because moments before this hearing began, Secretary Rey 
informed me that the problem had been solved internally and 
within 2 weeks the money would be in the Show Low area to let 
the contract and the prediction then would be the project will 
be completed before peak fire season.
    Therefore, I change my recommendation specifically to you 
and ask that you go back to Washington and put into place a 
mechanism that will cause our forests to be managed by good, 
scientifically proven methods that we know work, and to stop 
forest management by lawsuit that oftentimes it appears 
represents less than one-tenth of 1 percent of the people of 
this country's interest. Therefore, that is my challenge to 
you, gentlemen.
    Thank you for your time.
    Mr. McInnis. Thank you, Mayor, I appreciate that. And Mr. 
Rey, once again, thank you for your assistance in the 
difficulty that we had with Show Low.
    I would also like to highlight one of the Mayor's comments, 
and that was the thousands of firefighters that came to our 
assistance. As you know, a lot of these people are young, 
vibrant people and they were of great assistance. And today, if 
you see a Forest Service employee, BLM, Parks or local fire 
department--we have several people in the crowd--pat them on 
the back, we appreciate the good job you did last year.
    [The prepared statement of Mayor Kelley follows:]

   Statement of The Honorable Gene Kelley, Mayor, City of Show Low, 
                                Arizona

    Last year's Rodeo-Chediski fire was something that none of us ever 
want to see repeated. As the Mayor of Show Low I am most grateful that 
Show Low was spared the devastation. I know that I speak for our entire 
community when I express my sincerest condolences to our neighboring 
communities who experienced great losses. I express our collective 
gratitude to everyone involved in the suppression of this fire. A 
special thanks goes to the Forest Service and the White Mountain Apache 
Tribe for the countless acres of their land that was thinned prior to 
the fire. We believe that this effort ultimately protected Show Low. In 
particular, Rick Lupe and his dedicated crew deserve a lot of the 
credit for saving Show Low and our neighboring communities. We are 
forever in their debt.
    The City of Show Low has been concerned for years that what 
happened last summer was a possibility. We have worked hard and long in 
an effort to prepare our community for the possibility of such a 
disaster. For years before the Rodeo-Chediski fire we have been 
involved in forest health issues that focused on the need to thin our 
forests to restore them to their natural state.
    During the winter and spring prior to the fire, the City of Show 
Low was very heavily involved in Navajo County efforts aimed at 
preparing our collective communities for the possibility of a 
catastrophic wildfire. The City of Show Low developed a ``Surviving a 
wildfire...are you prepared?'' Brochure that we believe led to a very 
effective evacuation of Show Low once that became necessary. In 
addition, the City was involved in many efforts aimed at preparing our 
residents for the very real possibility of a wildfire. The City of Show 
Low sponsored a community fire preparedness forum in the spring of 
2002. It was well received by the community and helped us spread the 
message of the importance of preparedness. That forum aired live on 
City 4 Television, our city-sponsored cable station.
    Prior to the fire the City had begun some projects to remove dead 
trees on City property in an attempt to mitigate the bark beetle 
problem and in the process reduce the fire danger. Since the fire, we 
have embarked upon a number of thinning projects on City property in an 
attempt to set the example for private property owners.
    In addition, City 4 Television has done a number of programs on the 
importance of protecting our homes and businesses from the threats of 
wildfire with firewise landscaping. One program in particular 
documented the effect that firewise landscaping had on a home in 
Timberland Acres, one of the areas hit hardest by the fire. By 
following the simple guidelines provided by the Firewise program, a 
family was able to save their home while the homes of their neighbors 
were lost.
    We have coordinated with University of Arizona Cooperative 
Extension, the Northern Arizona University School of Forestry, and the 
Ecological Restoration Institute. Six years ago we were a partner in 
the formation of the White Mountain Natural Resources working group, to 
bring together all interested parties involved in the natural resources 
debate and identify workable solutions to forest health concerns in 
both the community forest and the Apache Sitgreaves National Forest. 
The group developed and implemented the Blue Ridge Demonstration 
Project on 17,000 acres of forest service land adjacent to the 
community of Pinetop-Lakeside. This project has demonstrated that all 
the interested parties can work together productively. To date 5000 of 
the 17,000 acres have been effectively treated. The treatments 
implemented south and west of Show Low, that enabled firefighters to 
keep the Rodeo-Chediski Fire out of Show Low, Pinetop-Lakeside, and 
beyond, were modeled after these successful treatments conducted on the 
Blue Ridge Demonstration Project. A special debt of gratitude is owed 
Senator Jon Kyl who was responsible for directing a significant amount 
of funding towards the this project.
    Another very positive result of the Natural Resource Working Group 
and the Blue Ridge Demonstration Project has been the designation of 
the Apache-Sitgreaves National Forest as a County Partnership 
Restoration (CPR) Program pilot forest. Funding for this pilot is in 
the current National Fire Plan. This program includes the local 
communities as partners in the forest restoration and management, 
planning and implementation process.
    There is an area south of Show Low that has been designated as an 
area critical to the protection of Show Low and much of the White 
Mountains. That area must be treated if we are to protect our 
communities and forests from another catastrophic fire. We have been 
informed by our friends at the Forest Service that money for that 
project will not be available until May or June. If they can't start 
that project until the funding is available in May or June there is a 
good chance they will have to shut the project down (if they ever get 
started) because of the onset of the fire season. In response to that 
news the Show Low City Council recently voted unanimously to lend the 
Federal Government $300,000 to facilitate that thinning project on 
approximately 600--1000 acres of Forest Service land. Unfortunately, 
the Federal Government has no mechanism in place to be able to take 
advantage of our offer. We find this to be a very frustrating catch-22 
situation. We continue to pursue this project through political means 
and today's hearing is part of that process.
    We have had much success convincing homeowners and business owners 
of the importance of saving the forests in our own communities by 
cleaning up their own property. The Show Low City Council has passed 
two resolutions in support of forest health and fire protective 
landscaping within our community. We are in the process of preparing an 
ordinance that would address those issues. Now, we need your support in 
making it possible for the Forest Service to have the necessary funds 
available for critical projects on public lands like this one.
    I would recommend that this Committee go back to Washington D.C. 
and develop a mechanism to implement the solution that we have 
outlined. Find a way to break the impasse now. We need your support in 
giving us the opportunity to make a difference in our own community and 
throughout the White Mountains. Words cannot express how important and 
essential this project is to protecting our communities.
                                 ______
                                 

    [Attachments to Mr. Kelley's statement follow:]
    [GRAPHIC] [TIFF OMITTED] T5487.001
    
    [GRAPHIC] [TIFF OMITTED] T5487.002
    

                            CITY OF SHOW LOW
                          STAFF SUMMARY REPORT
DATE:            May 30, 2002
TO:               Mayor and City Council
FROM:            Ed Muder, Planning and Zoning Director
AGENDA TITLE:   LCONSIDERATION OF RESOLUTION NO. 954--ADOPTING A TREE 
POLICY
RECOMMENDATION
    Staff recommends that the City Council MOVE to adopt Resolution No. 
954.
BACKGROUND
    Over the past several months the White Mountain Community Forest 
Task Force, comprised of members from the communities of Pinetop-
Lakeside and Show Low, Navajo County, real estate and insurance 
industry representatives, the University of Arizona Cooperative 
Extension Service, and a community forester recently hired by Show Low, 
Pinetop-Lakeside, and Navajo County, met with the goal of developing a 
tree policy. The final draft of the proposed policy was completed March 
22, 2002 with the intention that Pinetop-Lakeside, Show Low and Navajo 
County would present the draft to their respective boards and councils 
for consideration.
    Attached is Resolution No. 954 which would have the effect of 
adopting the tree policy recommended by the task force. The policy 
would serve as a guide for the adoption of ordinances relating to tree 
management and maintenance. The communities and Navajo County are 
proposing to work together in developing ordinances that would be 
consistent throughout all of the forested areas in Navajo County.
Attachments

                  CITY OF SHOW LOW RESOLUTION NO. 954
a resolution of the mayor and council of the city of show low, arizona 
 adopting a tree policy as recommended by the white mountain community 
                           forest task force
RECITALS:
WHEREAS, the most significant reasons that people are attracted to the 
        White Mountains of Arizona are the mountains, forests, lakes 
        and streams, moderate summer climate and rural setting; and
WHEREAS, most people living in this area value these attractions and 
        have strong convictions regarding their conservation; and
WHEREAS the current biomass accumulation and fuel ladder development 
        present an increased potential for catastrophic crown fires; 
        and
WHEREAS, fires of this nature would have a tremendous negative effect 
        on those very attractions for which people live or vacation 
        here; and
WHEREAS, recent fires in the Ponderosa pine forest in the Southwest and 
        elsewhere have put a tremendous financial burden on the Nation 
        Forest Service and taxpayers; and
WHEREAS, for these reasons, the White Mountain Community Forest Task 
        Force strongly recommends that the attached Tree Policy be 
        adopted and that the communities of Show Low and Pinetop-
        Lakeside, and Navajo County, work together to develop 
        consistent ordinances based on these guidelines.
ENACTMENTS:
NOW, THEREFORE, BE IT RESOLVED that the Mayor and Council of the City 
        of Show Low, Arizona hereby adopts the attached Tree Policy, 
        recommended by the White Mountain Community Forest Task Force, 
        be adopted and that the communities of Show Low and Pinetop-
        Lakeside, and Navajo County, work together to develop 
        consistent ordinances based on these guidelines
PASSED AND ADOPTED this 4th day of June, 2002, by the Mayor and Council 
        of the City of Show Low, Arizona.
/signed/ Gene Kelley, Mayor
ATTEST:
/signed/ Elizabeth A. Burke, City Clerk
APPROVED AS TO FORM:
/signed/ Michael J. Brown, City Attorney

                   TREE POLICY DRAFT--March 22, 2002
               updated march 29, april 9 and may 5, 2002
    People are attracted to the White Mountains of Arizona for a 
variety of reasons. The most significant of these include the 
mountains, forests, lakes and streams, moderate summer climate and 
rural setting. Most people living in this area value these attractions 
and have strong convictions regarding their conservation. History tells 
us that many dramatic changes have occurred in the Ponderosa pine 
forest ecosystem over the past 120 years. The current biomass 
accumulation and fuel ladder development present an increased potential 
for catastrophic crown fires. Fires of this nature would have a 
tremendous negative effect on those very attractions for which people 
live or vacation here. Recent fires in the Ponderosa pine forest in the 
Southwest and elsewhere have put a tremendous financial burden on the 
National Forest Service and taxpayers.
    For these reasons, the White Mountain Community Forest Task Force 
strongly recommends that the following goals be considered for adoption 
of consistent ordinances by the communities of Show Low and Pinetop-
Lakeside and Navajo County. The communities should further work 
together on an ongoing basis.
Maintenance
    A. LThe urban forest environment shall be maintained in an 
ecologically sound condition with particular emphasis on forest health, 
wildlife habitat, and wildfire prevention by implementing policies and 
programs to reduce the risk of a catastrophic urban wildfire. A 
community forester or other designated individual shall have general 
oversight over the maintenance of trees by promoting tree health and 
determining the elimination of fuel laddering whenever possible. Tree 
maintenance may include pruning, fertilizing, watering, insect and 
disease control, removal or thinning or other tree care activities. 
Maintenance may be accomplished by the resident, personnel of the 
municipal and county government or by contract with commercial tree 
care companies.
    B. LMaintenance of optimal levels of age and species diversity will 
be established to help stabilize the urban forest by buffering it from 
pest and disease infestations. Representatives of low-growing species 
(junipers, etc.) shall be retained but pruned to eliminate existing 
fuel laddering. Attempts should be made to keep representatives of all 
layers and age classes currently present in the overstory.
    C. LGood community forest management practices shall be established 
with a clear set of priorities and a long-range plan. Record-keeping on 
costs and types of operations performed is recommended. Activities such 
as planning, ordinance enforcement, research, public outreach and 
education shall be tracked.
    D. LWhen requested, the community forester or other designated 
individual shall provide information to owners of private property 
regarding all aspects of tree care, including the latest techniques and 
procedures currently being practiced.
    E. LCommunity response mechanisms shall be developed to eliminate 
conditions that threaten forest health, including disease, infestation 
and excessive fuel loading.
Conservation
    A. LConservation of the urban forest structure and natural 
resources shall be promoted by protecting existing healthy tree 
resources.
    B. LBasic performance standards shall be set for the amount of tree 
canopy to be retained or achieved.
    C. LA master plan for tree planting, protection and removal shall 
be developed.
Tree Management Standards
    A. LUrban forest management and enforcement shall be the 
responsibility of the community forester or other individual. This 
manager shall coordinate all activities that affect urban trees and 
specify cooperation between departments and agencies.
    B. LUrban forest management guidelines and ``best management 
practices'' for residential and commercial property shall be developed.
    1. LTree hazards such as diseased, insect-infested and/or dead 
trees shall be removed.
    2. LProper pruning, thinning and removal, fertilizing, watering, 
etc., shall be accomplished annually with the goal to achieve fuel 
reduction and tree health.
    3. LProper care of existing trees in commercial development areas 
shall be enforced.
    4. LThe review process prior to development will include assessment 
of impacts to trees, grading considerations, footing and foundation 
design and structure design.
    5. LTree planting, maintenance and removal guidelines as specified 
by the International Society of Arboriculture shall be followed.
    6. LUrban forest interface should be based on firewise concepts 
where private property and commercial property are analyzed by either:
      1) LCanopy cover,
      2) LBiomass per unit area, or
      3) LBasal area.
    7. LThe construction of houses, decks and/or buildings around 
existing trees on private/commercial property shall be strongly 
discouraged.
    8. LStandards and procedures for certification and/or licensure of 
individuals and businesses engaged in commercial tree removal and 
maintenance shall be established.
    9. LStandards for tree maintenance and care shall be established 
with International Society of Arboriculture guidelines by each 
community entity (Show Low, Pinetop-Lakeside and Navajo County).
Enforcement
    A. LA legal basis for enforcement of required tree management 
standards shall be established.
Education
    A. LA tree board, commission/committee shall be established by each 
entity. It is recommended that its membership be comprised of a 
representative from each of the following: fire districts, universities 
and Master Gardeners. Duties for this group shall be established by 
each entity.
    B. LThe community forester shall assist the community and agencies 
of the municipal government through public education to create and 
maintain a healthy and firewise community forest. The community 
forester shall also provide information and public relations to 
citizens and groups in the City regarding trees. The forester shall 
gather information and publish reports as needed about community forest 
vegetative and tree resources. The community forester shall work with 
municipal departments and agencies to improve agencies' understanding 
of trees and tree problems. The community forester shall meet regularly 
with the tree board.
    C. LAssistance and education for citizens performing tree 
maintenance shall be provided through the University of Arizona Master 
Gardener program under the direction of the community forester.
                                 ______
                                 
                CITY OF SHOW LOW RESOLUTION NO. R2003-09
a resolution of the mayor and council of the city of show low, arizona 
        adopting a fire-safe community forest management policy
RECITALS:
    WHEREAS, Show Low is at risk from wildfire from both within and 
without the community; and
    WHEREAS, during the Rodeo-Chediski Fire of last summer, a portion 
of the forest that surrounds our community did burn; and
    WHEREAS, Show Low continues to be a great risk from another 
wildfire if the forest within and without the community is left in its 
present condition.
ENACTMENTS:
    NOW, THEREFORE, BE IT RESOLVED that the Mayor and Council of the 
City of Show Low, Arizona hereby adopts the attached Fire-safe 
Community Forest Management Policy and the City of Show Low pledges to 
continue to work with the surrounding communities and government 
agencies to develop consistent ordinances that will protect the White 
Mountains from the threat of catastrophic wildfire.
    PASSED AND ADOPTED this 18th day of February, 2003 by the Mayor and 
Council of the City of Show Low, Arizona.

------------------------------------------------------------------
Gene Kelley
Mayor

ATTEST:
------------------------------------------------------------------
Ann Kurasaki, City Clerk

APPROVED AS TO FORM:
------------------------------------------------------------------
Michael J. Brown, City Attorney

              FIRE-SAFE COMMUNITY FOREST MANAGEMENT POLICY
    The City of Show Low agrees to:
    A. LRecognize that the responsibility for all structural and 
landscape protection within the community begins with the individual 
home or business owner and initial developer, progresses to the local 
property owners associations or home owner associations, and finally 
rests with City government which has the charge to provide for the 
safety and well being of all citizens within the community.
    B. LAddress the issue of property owner and homeowner association 
restrictions and prohibitions concerning the removal of trees. These 
agreements should be structured so that property owners will be 
encouraged to remove vegetation, not for the purpose of clear cutting 
but for the purpose of attractively protecting homes and businesses 
from the threat of wildfire.
    C. LProvide for the elimination of any current policies within City 
government that limit the ability of any property owner to remove 
vegetation without incurring sanctions.
    D. LEncourage all property owners, developers, property owner and 
home owner associations, and all government agencies to implement and 
maintain fire-safe forest management practices with the understanding 
that no one can rely on adjacent properties or sites as protection from 
their own failure to implement fire safe practices and follow-up 
maintenance schedules.
    E. LEstablish and sponsor a training and certification program for 
contractors that wish to provide landscape and property fire safe 
landscape treatments within the community. All certified contractors 
will be placed on a list of recommended providers that will be shared 
with interested property owners.
    F. LFormally develop and implement a permit process that will 
monitor and map all work conducted on private and public property 
within the community.
    G. LEvaluate the entire community and identify priority areas for 
the establishment of safe zones and natural corridors to serve as 
defense lines in the event of a wildfire.
    H. LConduct a forest health survey within the community to 
delineate the impacts of climatic conditions, insect and disease on the 
entire community forest.
    I. LDevelop a long-term strategic plan to develop a safe and secure 
community forest. This plan will have five, ten, and fifteen year 
objectives, will be reviewed and updated annually, and will include the 
implementation of a maintenance program that all property owners will 
be encouraged to continue.
                                 ______
                                 
    Mr. McInnis. Now I think we get an opportunity to hear from 
our Senior Chairman of the White Mountain Apache Tribe, Mr. 
Massey. Mr. Massey, thank you and you may proceed.

         STATEMENT OF DALLAS MASSEY, SENIOR CHAIRMAN, 
                  WHITE MOUNTAIN APACHE TRIBE

    Mr. Massey. Good morning, Chairman and Committee also. 
Thank you, Chairman, members of the Committee and Rick Renzi, 
thank you for bringing the hearing here to Flagstaff.
    I am honored and pleased to be able to share a few words 
with you today. We have prepared a PowerPoint presentation for 
you, but to save time, I think it is better that we present it 
at the conclusion of my talk.
    I hope we can develop a better understanding of wildfire 
impacts and methods to protect our forests and our communities. 
As the Chairman of the White Mountain Apache Tribe n eastern 
Arizona, my people and I have learned a lot about wildfire.
    Last summer on June 18, year 2002, the Rodeo-Chediski fire 
broke out on our reservation and consumed more than 500,000 
acres of reservation lands, Forest Service lands and private 
lands and State of Arizona lands; 276,000 acres or about 61 
percent of the fire, was on our reservation. Today, more than 6 
months after the outbreak of the fire, I am here to tell you we 
have learned from our experiences.
    First, let me tell you, a fire of this magnitude not only 
destroys trees and landscape, it is destructive to jobs, to 
families and to our economy. We are struggling to recover from 
the fire which is greater than anything we have imagined and 
experienced in our history. And if we do not work together and 
take strong steps, we could see more fires destroying our 
precious resource basis and devastating families and 
communities throughout the West.
    Now for us, recovering has been a full time task, which we 
must face every day. We are still working to get our first 
break-through to get back on our feet. Our recovery work 
focuses on bringing our forests back to health and restoring 
our economy, getting jobs for people. And we ask for your help 
for both. Both restoration and management of our forests is 
only half of recovery needs. I often remark to others that at 
the core, recovering from a fire is really centered on 
recovering for our people. Recovering means assistance and 
strengthening for our families, for our wage earners, for our 
communities. So planning for forest health must also recognize 
that people are part of these forests and our plans for 
protection and betterment of our forests must involve us.
    For the White Mountain Apache people, our lands, our 
forests, are part of us. For us Apaches, our land is our home. 
In my language the term is chinek. The word is used to describe 
the land. Also, the same word is used to describe our mind. Our 
land, our mind are integrated, so we are truly tied to our 
land, we live, we work, we spend our days in our forests.
    So when we lost so many acres because of the fire, we lost 
part of our home, part of ourselves also.
    This is why our recovery work must move forward and must be 
fully completed, to bring healing to our land, our people. 
Unfortunately, with our limited resources, we are struggling to 
meet the challenges for this recovery. With the loss of so many 
acres of prime commercial forests, we realize the tribe must 
further expand its economy to make up for the loss of 
harvestable timber. We are trying to develop the use of our 
precious streams, lakes and mountains for outdoor tourism, 
fishing, camping, skiing and other economic activities using 
our natural resource base. This will help expand our economy 
and benefit our entire region.
    But the key to bringing long-term recovery to the forests 
and economy to the region, must link to the people, getting 
people employed. Without economy base, we cannot afford to do 
the work we need to fix our forests. We need your assistance 
and cooperation to help identify new products and new markets 
and new policies to use small diameter trees which crowd our 
forest land, so that we may create the jobs and provide 
economic engines to fund and perpetuate a long-term sustainable 
and healthy forestry program in our region. And to protect our 
forests from future catastrophic fire.
    For our recovery efforts, we have met many obstacles and 
roadblocks. We ask for your assistance. But we are patient 
people and we are committed to long-term recovery. We are proud 
people and we are proud citizens of the United States. We have 
every confidence that we will reach our goals. We are pleased 
to share our experience and knowledge and we are committed to 
work with all of you to restore our land to health. If we do 
not act, my people, my land will continue to suffer. We all 
face the risk of another fire with a greater magnitude of 
destroying more of our precious land.
    Are we able to do this?
    Mr. McInnis. Mr. Chairman, we are pretty tight on time and 
in courtesy to the other members, I am watching my clock, I 
have got to tighten it up. So if you can wrap it up in 30 
seconds, that is where we are.
    Mr. Massey. OK, the pictures say more than 1000 words, and 
you have before you the slides that we are going to give you.
    Mr. McInnis. That is the handout that you have given to us?
    Mr. Massey. Yes.
    Mr. McInnis. Great, thank you.
    Mr. Massey. But if we could have had time for these people 
to see what is on there, it would have been amazing. There is a 
lot a picture can tell.
    Mr. McInnis. I understand that and maybe what we can do is 
come back to you, Mr. Chairman, but unfortunately we have got 
to meet a 1 time deadline for a bunch of connections this 
afternoon. So if we have time afterwards, I can bring you back 
up, unless you can wrap it up in 30 seconds or a minute. If it 
takes longer than that, I have to--
    Mr. Massey. All right, we will go ahead and take a few 
pictures up here, very fast--
    Mr. McInnis. All right.
    Mr. Massey. --and have you guys look at it from the 
audience. Thank you for your time and we will go ahead and 
continue doing this. Look at the fires, how we can--if we 
manage our forests right, this is what we have out there and 
you can read how fire laid down if we can manage our forests 
right. The trees are still out there. And look at the post-
fires there, no recent density fuel management treatments--all 
gone. Unmanaged forests, fire affects you. Creosote fire, 10 
percent harvest; post-fire, artificial regeneration. That is 
what it looks like when we treat our salvage harvest. Low post-
fire timber salvage, that is what it looks like.
    Thank you.
    [The prepared statement of Mr. Massey follows:]

   Statement of Dallas Massey, Chairman, White Mountain Apache Tribe

    Thank you Chairman and members of the Committee for inviting me to 
provide testimony at this hearing. I am honored and pleased to be able 
to share a few words with you today, and I hope we can develop a better 
understanding of wildfire impacts and better methods to protect our 
forests and our communities.
    As Chairman of the White Mountain Apache Tribe in eastern Arizona, 
my people and I, have, unfortunately, gained a great deal of first-hand 
knowledge about the threats and impacts from wildfire. Our reservation, 
containing more than 1.6 million acres of Tribal trust land, was the 
site of the devastating Rodeo-Chediski Fire which broke out last 
summer, consuming nearly one-half million acres of forest land. Of that 
amount, more than 276,000 acres destroyed by fire were within our 
Tribal lands.
    Today, more than six months after the outbreak of the fire, I am 
here to tell you about our experiences learned in the Rodeo-Chediski 
Fire, to describe for you the impacts it has had on our land and our 
people and our economy, and to offer our suggestions, along with the 
other valuable comments you will hear today, about what we can do 
together to respond to the threat which remains with us this year and 
for years to come from the threat of uncontrolled wildfires in our 
precious forest lands.
    Our learning experience from the Rodeo-Chediski Fire began June 18, 
2002, which for us White Mountain Apache was a day that changed our 
lives. On that day, looking to the west on our reservation from my own 
community of Canyon Day, we could see smoke billowing up like a dark 
thundercloud in the sky. We knew that the long dry spell had caught up 
with us and that we would be in for a major fire. We had battled forest 
fires before; for us Apache, fire is a way of life and it is regarded 
in our culture as a teacher. But we soon learned that this fire was 
very different. Within a matter of hours it grew beyond all control and 
expectation on its march to become the largest fire in Arizona history 
and one of the largest in recorded history in the western United 
States.
    Within several days of its outbreak, the Rodeo Fire had merged with 
a new fire on the west side, the Chediski Fire and quickly became a 
threat to our lives, our communities, and our livelihood. The combined 
fires forced the evacuation of communities all along the northern 
boundary of our Tribal lands. Our effort to fight the fire and to cope 
with the evacuations and emergency planning consumed our people 24 
hours a day. My memory of that time is a blur of endless meetings, 
telephone calls, and planning and replanning to coordinate scores of 
work teams and equipment which were dispatched in every direction. When 
the fire was curtailed and people could begin to return to their homes 
and their jobs, more than $50 million had been spent in fire fighting 
and well more than 4,300 personnel, in addition to countless 
volunteers, had been assigned to the fire.
    As the fire was brought under control and drew to a close, we 
learned the devastating impact from the fire. On our lands two primary 
watersheds in mountainous terrain had been scorched from flames, 
creating ongoing damage from erosion and flooding. It is estimated that 
more than 400 million board feet of timber from our commercial forests 
were destroyed, in addition to the damage and disruption to the variety 
of plants and animals which inhabited the 276,000 acres of burned land 
within our reservation.
    Now, some six months after the fire has come through our lands, we 
have gained knowledge and experience and a degree of frustration and 
sorrow from what we have seen and what we have learned. For us each day 
we are faced with the task of recovery. This means recovery from the 
fire's effects on our lands and its effects on our homes, our jobs, and 
our future. Recovery for us is a full-time job. It will occupy future 
planning for our Tribe for years to come; and to guide our steps to 
recovery, we look to what we have learned from the fire and its impacts 
on our lands.
    Some of what we have seen and learned has been very gratifying and 
promising. We have seen that our forestry management work made a 
significant difference in the fire and we understand better the need to 
continue the prescribed burning and the thinning which was occurring in 
some areas of the Rodeo-Chediski Fire. The maps which have been 
prepared through our BIA Agency Forestry Office show that when the 
Rodeo-Chediski Fire approached areas of our forest which had been 
treated through burning or thinning within the past ten years, the fire 
intensity dropped and became a healthier fire. The fire dropped from a 
crown fire to a surface fire, leaving healthy trees intact to survive 
and to provide seed for a future forest. As you can see from the maps 
and photos, there is a very dramatic and direct correlation between 
areas of treatment and areas of little or no serious fire damage.
    In contrast, in the untreated areas, the fire was highly 
destructive and in many places, sterilized the soil. Again, the map 
shows high fire damage where there were no treatments or treatments in 
the recent past. The lesson is that multiple treatments at regular 
intervals will make the difference between catastrophic fire and a 
potentially healthy fire. In addition, a wildfire which breaks out in a 
treated area burns much less intensely and is much much easier for 
crews to control and manage. This is what allowed crews to contain and 
control the eastern flank of the fire in Cottonwood Canyon. The result 
will be much less destruction to the forest base and much less risk to 
private property and homes adjacent to forest lands from the threat of 
wildfire. We have seen this same pattern in earlier fires within our 
reservation, such as the 1999 Rainbow Fire, which abruptly stopped 
where it reached a pre-treated area near Cradleboard School.
    Our fire also taught us some lessons about the recovery and 
rehabilitation work that is needed in the forest after a catastrophic 
wildfire. The Rodeo-Chediski Fire burned through a portion of our 
forest which had previously been burned in1971 in the Carrizo Fire. We 
were able to salvage the destroyed trees in some areas, which removed 
fuel for the Rodeo-Chediski fire and resulted in lower fire severity. 
In the unsalvaged areas, our forestry officials found that when the 
Rodeo-Chediski Fire reached the perimeter of the old Carrizo Fire, the 
dead timber, along with additional fuels provided from brush and new 
growth, accelerated the fire and it burned with an even greater 
intensity. This experience shows that active management steps before a 
fire can ensure that the risks from runaway fires are minimized and 
action following a fire in the burned area can reduce impacts 30 years 
later. If we pull together now, we can utilize this knowledge to plan 
for our future and return our forests to a healthy condition and a 
fire-safe condition.
    For us Apache people, our land is our home. As a people, we draw 
our identity and our culture from our land. In my language, the term 
shii ne'' is the word we use to describe our land and it is also the 
same word we use to describe our mind. So, our land and our mind are 
integrated and in that way we truly are a people who are tied to and 
are of our land. So for us, the terrible destruction to our forest land 
is a loss of ourselves and who we are. That is why our recovery work 
must move forward and must be fully completed to bring healing to our 
land and to our people.
    Unfortunately, for our Tribal government with limited resources, we 
are struggling to meet the challenges for this recovery, especially 
after experiencing the devastating economic setback from the fire. This 
has left the Tribe with even greater challenges to improve the 
livelihood of its people, many of whom are now at risk for layoff and 
job closures due to the loss of the commercial forest on the west side, 
and at a time when our Tribe is struggling economically to get back on 
its feet following the fire.
    In conjunction with the BIA we have received funding for recovery 
for our lands through the Emergency Stabilization and Rehabilitation 
(ESR) process, formerly known as BAER, but we know that our recovery 
needs will extend much beyond the three year extent of ESR funding and 
will need much greater scope and attention than the preliminary soil 
stabilization and limited tree replanting, which is the focus of the 
recovery plan. For example, we estimate it would take over 150 years of 
recovery and growth before we will, once again, have a commercial 
forest in the Rodeo-Chediski Fire area. We seek your assistance in 
providing positive policy direction and funding to continue this 
rehabilitation to prevent further irreparable damage to our lands and 
to ensure that recovery becomes a reality for our forest lands.
    But we understand that recovery for us will mean much more than 
stabilization and rehabilitation for our land, although we consider 
this very important. I often remark to others that at the core, 
recovery from this fire is really centered on recovery for our people. 
Recovery means assistance and strengthening for our families, for our 
wage earners, and for our communities which have been impacted by this 
fire. In turn, planning for future forest management and forest health 
must also recognize that we as people are a part of these forests and 
our plans for the protection and betterment of our forests must involve 
us.
    For the White Mountain Apache people, our lands, our forests are 
part of us. We live, we work and we spend our days in our forests. We 
undertake our activities in our forests, including our logging, in an 
integrated approach. We use our staff and our years of experience to 
plan and carry out our forest activities in fulfillment of our 
environmental regulations and standards to ensure protection and health 
for our watersheds, our pasture lands and our forests. We also 
recognize that to bring about recovery we will need help. We have 
identified critical projects for our Tribe which we think can help 
expand our economic base, still using our precious natural resources, 
but geared to alternatives to commercial timber activity.
    With the loss of so many thousands of acres of prime commercial 
forest, we realize that the Tribe must further expand its economy to 
make up for the loss of harvestable timber. With our streams and lakes 
and mountains in a state known for its dry deserts, we recognize that 
outdoor tourism, fishing, camping, and even skiing are to play a vital 
role in our economic future. As part of our recovery, we hope to obtain 
funding and assistance to further enhance our outdoor recreation 
programs. In turn, we recognize that the dollars spent for these 
programs, whether it be sport fishing or camping or skiing, brings a 
tremendous boost to our hard-pressed rural economy in eastern Arizona. 
The White Mountain Apache Tribe is already well-known and well-regarded 
for its tourism and outdoor recreation opportunities. We hope to expand 
these programs to further strengthen our regional economy and open a 
door to our future in cooperation with our regional partners.
    However, we do not mean to overlook a key historic cornerstone of 
our economy, as represented by our commercial forests. We also seek 
funding and assistance to better adapt our timber processing and 
manufacturing to meet the new resource base of smaller trees, and 
unfortunately, of salvage trees impacted by fire or the growing threat 
in Arizona of bark beetle. It is our firm belief that without a viable 
economic base to the activities we wish to undertake in managing and 
perpetuating our forests, even the best of efforts will be short-lived 
and will not produce the results we wish for our offspring and future 
generations. We need your assistance and cooperation to help identify 
new products, and new markets, and new policies to utilize the 
overabundance of small diameter trees which crowd our forest lands so 
that we may create the jobs and the economic engine to fund and 
perpetuate a long-term, sustainable and healthy forestry program in our 
region and to protect our forests from future catastrophic wildfires.
    As I stated, ultimately, recovery from our fire and planning for 
our forest health must be tied to people. For that reason, we seek the 
assistance and the funding to be able to return our people to work 
after the devastating setback from the fire and to build a model which 
links our activities at the workplace with the future growth and health 
of our forests. Those are not unattainable goals, in fact, we believe 
that this approach is the only real viable solution to the future 
welfare of our Tribal lands and the forest lands throughout our region.
    From the date of the fire last summer, we have met many obstacles 
and roadblocks to our plans for recovery. Expectations of assistance 
and aid have been met with only limited responses and, more often than 
not, denials. But we are patient people and we are committed to our 
long-term recovery. We are a proud people, and we are proud citizens of 
the United States. We have every confidence that we will reach our 
goals and we will achieve our vision for sustenance for our economy, a 
positive future for our people, and restoring our land to a balance of 
health, but we need your help. We lost much more than trees and forests 
from this fire. We have suffered a loss of a part of ourselves and our 
heritage, and we ask you for help. Without it, my people and my land 
will continue to suffer, and for all of us, the question becomes not 
if, but when will another fire of even greater magnitude erupt to 
destroy more of our precious lands. We look to your assistance in 
bringing our recovery goals to reality, and we pledge our commitment of 
cooperation in channeling the resources of our people and their 
enthusiasm toward the health, the recovery, and the welfare of our 
great lands.
    Thank-you very much.
                                 ______
                                 
    Mr. McInnis. Thank you, Mr. Chairman. I found your 
testimony very moving.
    Next, Mr. Laverty, Director of the Colorado State Parks 
Department of Natural Resources. Thanks, Lyle, for coming down. 
You may proceed.

  STATEMENT OF LYLE LAVERTY, DIRECTOR, COLORADO STATE PARKS, 
            COLORADO DEPARTMENT OF NATURAL RESOURCES

    Mr. Laverty. Thank you, Mr. Chairman.
    Mr. McInnis. Also, if you do not mind, Mr. Laverty, if you 
would give your background prior to becoming the Director of 
Parks, so we have an understanding of your knowledge of the 
forests.
    Mr. Laverty. Thank you. It truly is an honor to be here in 
front of you and the Committee again. I am currently the 
Director of Colorado State Parks. Last December, Governor Owens 
asked me if I would take on that job. In my prior life, I have 
had a number of opportunities to engage in a review, I was the 
Associate Deputy Chief of the Forest Service dealing with 
implementation of the national fire plan. Prior to that 
assignment, I served as a regional forester for the Rocky 
Mountain Region of the U.S. Forest Service here.
    It has really been a delight to see, and I am encouraged 
with the conversation that you folks are entertaining as it 
relates to really critical issues.
    I have got three quick points I want to share with you that 
relate to Colorado specifically, and really it is an honor to 
be here representing Governor Owens and Greg Walter, our 
Executive Director of the Department of Natural Resources. Both 
of those folks are passionately committed about forest health 
conditions in Colorado and I will share with you at the end 
where we are really taking some very active and progressive 
actions to deal with forest health conditions.
    Three things I will just share with you--some highlights of 
the 2002 season in Colorado; some very, very specific impacts 
that happened in Colorado as a result of similar situations 
that you have seen this morning, and then just share with you 
very briefly some of the actions that we are currently taking 
in Colorado.
    The fires in 2000 in Colorado, we burned over 500,000 acres 
with over 2000 fires; a dramatic change for the historic 
pattern in Colorado.
    On the question of cost, just alone in Colorado, not quite 
like the Oregon fires, we did spend over $152 million just in 
suppression costs and rehab costs are going off the wall.
    As a result of the fires, we moved out 81,000 people, we 
evacuated 81,000 residents in Colorado because of racing fires. 
They burned over 384 homes, 600-plus structures.
    The 134,000 Hayman fire burn was nine times the size of the 
largest fire that we have ever had in Colorado, and that was 
14,000 acres back in 1994. The 17 wildfires required the 
investment of almost 16,000 firefighters throughout the course 
of the summer, and tragically, we also ended up with nine 
fatalities.
    As we looked at the situation, we found that there are 
really some very common denominators that existed across 
Colorado and perhaps across the interior west. The first being 
the fact that we had extremely low fuel moistures, really 
unbelievably low fuel moistures; unnaturally dense forest 
conditions of which we have been talking about for some time; 
and then those continuously high temperatures and lack of 
precip.
    The urban interface lessons that we learned, I think these 
are the important parts I will share with you:
    One is that we know that landscape treatments can in fact 
make a difference. Landscape treatments can make a difference 
when it affects the fire behavior and reduce the risks and the 
effects of fire.
    In the fall of the season before, we burned about 8000 
acres on a prescribed burn and the Hayman fire ran into that 
fire and it just went down very similar to the pictures you saw 
here. So the records are replete with examples on how active 
forest management can in fact affect these costs, suppression 
costs, can in fact significantly be reduced. But when you begin 
looking at the $152 million that we just spent in Colorado, the 
majority of those costs were dealing with the urban interface. 
So being proactive in terms of managing that landscape can make 
a huge difference, and I am convinced that we can show you 
examples over and over again of how this will work.
    Compounding the situation that we are wrestling with, with 
fire, is the whole issue of forest health. And in Colorado, not 
unlike what I just saw when I flew into Flagstaff this morning, 
is forest health conditions. We have the pinyon beetle down in 
southwestern Colorado that has currently killed 50 percent of 
the pinyon pine in southwestern Colorado, and my guess is that 
is basically the situation here in Arizona and New Mexico.
    Just a couple of specific elements that I would just like 
to highlight as it relates to the fires that we had in 
Colorado. Congressman McInnis talked about the effects on water 
quality, on air quality and on endangered species. We have 
found--well, my time is up.
    Mr. McInnis. If you could wrap it up.
    Mr. Laverty. I will go quick.
    The endangered species, we have lost acres and acres, 
thousands of acres of habitat as a result of the 2002 fires in 
Colorado. Water quality, we have spent over $25 million in the 
Denver watershed just as a result of the Buffalo Creek fire 
2000--in 1996, I am sorry--and the Hayman fire has burned 10 
times the size of that Buffalo Creek fire. So we are 
anticipating those are going to be huge impacts on the people 
of Colorado.
    Let me just talk quickly about some actions. The 
legislature in Colorado has taken some very aggressive action--
    Mr. McInnis. Mr. Laverty, we need to do it in about 30 
seconds.
    Mr. Laverty. I will do it in 30 seconds, I will talk fast.
    The legislature has taken some very aggressive action to 
encourage state agencies to manage forest stands in a healthy 
condition. We are working right now with the Forest Service and 
in fact, today we are cutting on Staunton State Park to show 
you the kinds of treatments that are taking place on the Apache 
Tribe. This is an urban interface and I tell you, it is a great 
example of how we can in fact show people that good positive 
forest management can make a difference in fire effects and 
behavior and it can be a very positive thing as a result in how 
a state park looks.
    Thanks very much, I will be happy to answer any questions 
you might have.
    [The prepared statement of Mr. Laverty follows:]

  Statement of Lyle Laverty, Director, Colorado State Parks, State of 
                                Colorado

    Ladies and gentlemen of the Committee, my name is Lyle Laverty and 
I currently serve as the Director of Colorado State Parks. It is my 
distinct honor to come before you and provide some information about 
the degraded air quality, water quality, and wildlife impacts that 
catastrophic fires had on the State of Colorado in 2002.
    As you well know, the Hayman fire was the largest wildfire in 
Colorado's recorded history, burning some 138,000 acres in and around 
the Pike National Forest--less than 20 miles from the Denver 
Metropolitan Area--at a cost of $40 million in suppression costs. The 
Hayman fire, the Missionary Ridge fire, and some 2,000 other wildfires 
statewide were unprecedented. I would like to share with the Committee 
just a few of the impacts that these fires had on the natural 
environment in Colorado.
    The Hayman fire was started on June 9, 2002. Severe drought and 
unseasonably dry weather, exacerbated by unnatural fuel accumulations 
throughout the forest, had left the Pike a virtual tinderbox. In a move 
not often seen by wildfire ecologists, the Hayman fire crowned and made 
a 12-mile run in half of a day's time. It destroyed almost everything 
in its path, including threatened and endangered species habitat and 
imperiled one of Denver's largest municipal water supplies.
Water Quality
    The impact of catastrophic wildfires on forested watersheds is 
difficult to underestimate. The Denver Metro Area is primarily served 
by the South Platte River drainage located within the Pike National 
Forest. The Denver Water Department, which supplies 1.2 million users 
in the Metro area, owns several storage facilities in the South Platte 
drainage. One of the most significant storage facilities is the 
Cheesman reservoir, which is also at the heart of where the Hayman fire 
burned. In fact, some of the most severely burned stands are directly 
within the Cheesman drainage. If history is any indicator, this bodes 
very poorly for Denver's drinking water.
    In 1996, the 12,000-acre Buffalo Creek fire--which is located just 
north of where the Hayman fire burned in the South Platte watershed--
burned above a drainage leading to another Denver Water storage 
facility in the South Platte basin. Heavy rains a month later caused 
flash flooding across the denuded landscape, washed out a state highway 
and deposited 600,000 cubic yards (or hundreds of thousands of tons) of 
sediment into Strontia Springs reservoir--the equivalent of 13 years of 
sediment load in a few short days. To date, the State Forest Service 
estimates that more than $25 million has been spent as a result of the 
comparably small Buffalo Creek fire.
    Colorado's concern, and more acutely, the concern of the Denver 
Water Department, is what will then happen if a heavy rain falls upon 
the Hayman burn area--an area roughly 10 times the size of the Buffalo 
Creek fire and above a reservoir roughly 6 times the size of Strontia 
Springs. We are looking at a potentially disastrous situation, despite 
the mammoth $7 million flooding mitigation effort by the Denver Water 
Department. Denver Water has constructed very large sediment barriers, 
but granular granite sediment across such an immense landscape still 
has the potential to do tremendous damage to the reservoir.
    In short, the Hayman fire has already affected the quality of 
Denver's drinking water. Fortunately, the area has not seen any 
significant rain as of yet. Unfortunately, our forest professionals 
tell us that the threat of landslides and massive sedimentation will 
not subside until vegetation has been reestablished. Because of the 
heat and intensity of the fire, many of the soils are incapable of 
supporting vegetation without scarification or other expensive 
mitigation efforts.
    It is estimated that Denver's South Platte water supplies will be 
cut off for upwards of three days until water quality levels are safe 
again if heavy rains occur in the Hayman area. Perhaps most disturbing 
is the fact that this threat of incapacitation may persist for up to 
three years.
Air Quality
    While water quality has been one of the most difficult ongoing 
challenges that we have had to deal with after the Hayman fire, the air 
quality impacts during the height of the fire may have actually been 
worse.
    The Metro Area has spent the past thirty years working hard to 
improve air quality. In fact, we were recently given ``clean air'' 
status from the EPA for the first time since the inception of the Clean 
Air Act. To put that into context, in 1977 only Los Angeles had worse 
air quality than Denver.
    On June 9, 2002, the day the Hayman fire exploded across the Pike 
National Forest, a strong northeasterly wind carried the enormous 
plumes of wildfire smoke up the South Platte riverbed and right into 
the downtown area. As the smoke entered the city, visibility was 
reduced to less than three miles, and was as little as 1+ miles in some 
places. The result of this thick smoke was the worst air pollution 
levels ever recorded in Colorado. The fine particulate matter levels 
were so high that the air across the Metro Area was deemed unhealthy to 
breathe, according to EPA standards. Obviously some members of the 
public are more sensitive to air pollution. There was one fatality 
recorded as a result of the smoke pollution combined with the 
individual's reported asthmatic condition. But humans were not the only 
fatalities recorded as a result of these catastrophic wildfires.
Endangered Species
    The Pawnee Montane Skipper butterfly is a Federally threatened 
species, listed under the Endangered Species Act (ESA) in 1987. It is 
found in only one place in the world and that is the Upper South Platte 
watershed area. The total amount of suitable habitat burned since 1996 
is 12,026 acres, or 48.3 percent of the mapped suitable habitat. Based 
on the USFS fire severity mapping for the four major fires since 1996, 
it is estimated that the skipper population has been extirpated from 
about 30 percent of its former habitat since 1996. The fires of 2002 
alone burned 39% of known skipper habitat. The species is now believed 
to be in a drought-induced dormancy, so official population estimates 
will not be known for some time, although few skipper have been 
observed since the fire. Needless to say, the Hayman fire has put 
tremendous stress on an already sensitive species.
    Over 40,000 acres burned within the boundary of designated critical 
habitat for the Mexican Spotted Owl. There were several other 
threatened or endangered species that lost habitat--either known or 
suitable--in the Hayman fire, including the Bald eagle, Preble's Meadow 
Jumping Mouse, and Canada lynx.
    We also lost an undetermined number of big game species, such as 
elk. Because the fire burned so early in the season, elk calving was a 
factor and state officials estimate that cows and calves were lost due 
to the immobility of young at that point in the season. The Hayman fire 
did not burn the primary range of elk, but wildlife officials are still 
unsure about the total impact to the herds in that area.
    Colorado experienced a wildfire season in 2002 unlike anything we 
have faced before. The largest two fires in our recorded history--the 
Hayman and Missionary Ridge fires, respectively--not only burned 
simultaneously, but represented nearly half of the total acreage burned 
in the entire state in 2002--well over half a million acres in all. 
There are contributors to unnatural wildfires like these that are 
beyond our control, such as weather and drought. But the unmitigated 
fuel levels across Colorado's 22 million acres of forested lands is not 
beyond our control.
    The Federal Government owns two-thirds of Colorado's forested 
acres. Reducing the fuel levels on those lands is a monumental task 
with which Congress will have to wrestle. There are enormous roadblocks 
that the Federal land management agencies are facing in their effort to 
reduce dangerous fuels throughout the West. We know that the actions we 
are asking the Federal agencies to take will come at significant 
costs--though these costs can and should be reduced through effective 
tools like stewardship contracting. But we would ask Congress to keep 
in mind the cataclysmic costs that inaction would have on the 
landscapes of our forests.
    At the state level, Colorado has taken the initiative to address 
forest health conditions. The Colorado State Legislature has passed 
through one house a bill requiring state land management agencies to 
manage state-owned forested lands to reduce the threat of catastrophic 
wildfire and to improve wildlife habitat and water quality. We 
anticipate the Governor will sign the bill in the coming months. The 
only problem is that this bill only deals with state-owned lands, some 
1% of Colorado's forests.
    Catastrophic wildfires like that of the Hayman can be avoided 
through aggressive and coordinated fuels reduction treatments. We know 
thinning works. Science and research support these findings. Treatments 
in and around the Hayman fire dramatically altered fire behavior. But 
to be effective, treatments must occur on a landscape scale. It is for 
these reasons, among many others, that the State of Colorado whole-
heartedly endorses the Bush Administration's Healthy Forests 
Initiative.
    Colorado is currently moving on legislation that will allow us to 
use thinning to restore healthy ecosystems in state-owned forests. But 
we must have action from the Federal Government to provide thinning on 
a landscape scale. Our best efforts simply cannot effect the volume 
necessary to avoid Hayman-type catastrophes in the future unless they 
are mirrored by Federal land managers. Nothing short of that will 
provide the necessary protections for our precious air, water, and 
wildlife.
    Our analysis provides the following findings:
    <bullet> LThe key to reducing the risk of catastrophic fire in 
Colorado is to return Colorado's forests to a more fire resistant, 
resilient condition.
    <bullet> LThere are active management techniques that can speed up 
the process of returning forests to a more natural, fire resistant 
condition.
    <bullet> LObsessive focus on short-term species protection impedes 
long-term habitat protection.
                                 ______
                                 
    Mr. McInnis. Thank you again, Lyle.
    It has now come to the time for the Committee to ask 
questions of the panel. Again, just because we have a fixed 
camera, if the members of the panel would just move over to the 
podium, then members, if you would limit your questions and the 
anticipated response to 4 minutes, we can stay on track.
    So if the panel would go ahead and stand up and shift on 
over, and members of the Committee will direct the question to 
a specific individual. I do not want to spend the whole day on 
this, but it is just the circumstance we face.
    Mr. Chairman, if you would start the questioning.
    Mr. Pombo. Thank you. I just wanted to ask a question of 
Chairman Massey, if I could.
    Native Americans tend to look at things much longer term 
than a lot of us do, and when you look at protecting your land, 
your area water, your forests, and you are planning out the 
next seven generations, how do you see us and our management of 
our forests playing an active role in managing those forests?
    Mr. Massey. Well, the White Mountain Apache Tribe and the 
Bureau of Indian Affairs have been working real close together 
managing our forests and I think with your Committee, we need 
your help, I think loosening some of those environmental laws 
that we have out there. And I think we can really manage our 
forests the right way.
    Yes, we have an environmental work plan that we have, an 
inter-governmental agreement, but we need to work together on 
those issues and I think we can harvest a lot more small trees 
and help on that. We would really appreciate that also.
    Mr. Pombo. So you see it as an active management, actually 
people in the forests actively managing it, trying to plan out 
what that forest is going to look like in order to protect it 
into the future?
    Mr. Massey. Yes, we believe in working in forests.
    Mr. Pombo. Thank you.
    And just a follow up with Mr. Laverty, if I could. You 
talked in your oral testimony and in your written testimony 
about the active management of forests and how important is 
that. In your experience, if we adopted a policy of hands off, 
lock down the forests, do not touch them, are these fires the 
result of that kind of a management policy?
    Mr. Laverty. Mr. Chairman, great question. And I would say 
that the result that we are experiencing today in Colorado and 
the interior west is a result of these unnatural conditions, 
for a variety of reasons, and you have heard them all. But 
whether there has been active suppression or various management 
practices, the conditions are not normal. And if we do not go 
in there and do some proactive work right now, we are going to 
have more and more of these kinds of fires that we have had 
this summer.
    We are very conscious that we are going to experience in 
Colorado large fires again that are going to have even more 
catastrophic effect on the life and property of people. So I 
really believe that with active management, we can in fact make 
a difference, we can in fact make a difference--we can do it.
    And I think the present healthy forest initiative--I 
subscribe to that personally and I would love to show you what 
we are doing on the ground in Colorado because it first exactly 
with the President's efforts.
    Mr. Pombo. I am sure we will get the opportunity to see 
that before it is over with.
    Mr. Laverty. Let me bring you to Colorado.
    Mr. Pombo. And just in conclusion, Mr. Chairman, I would 
like to thank Secretary Rey and Secretary Watson for taking 
their time to come out here. It is not very often that we do a 
field hearing that we get two high ranking officials from the 
Administration out here and I greatly appreciate you making the 
effort to be here. Thank you.
    Mr. McInnis. Thank you, Mr. Chairman. Mr. Gibbons, you may 
proceed.
    Mr. Gibbons. Thank you very much, Mr. Chairman. And I think 
the first two questions I have would relate to either Secretary 
Watson or Secretary Rey, perhaps both would like to answer.
    Congress' duty, of course, is to fund adequately services 
for each agency as predicted for what would be expected 
occurrences over the next year or so, during the budget. How do 
you predict in your budget what your annual firefighting cost 
will be so that we have that picture in our budget?
    Mr. Rey. Normally what we have done over the last several 
years is to take the 10-year average expenditures for the past 
10 years and budget that. You have also granted us the 
authority, if the fire season is worse than that, to use any 
available funds to fight fires and then, as has been the case, 
you have replenished those funds as they have been borrowed, in 
the next appropriations bill.
    That system may not work as well now as it once did, for a 
couple of reasons. One, it was facilitated by excess trust fund 
balances that we no longer enjoy. Second, we are into what 
looks to be a sustained situations where fire seasons are going 
to be bad for awhile until we can do the fuels treatment work 
we need to do.
    I believe that what we would like to do is to sit down with 
your Committee to look at some alternatives for a more stable 
means of funding firefighting costs and today is probably not 
enough time to get into that, but there are several 
alternatives that we are working with the budget Committee and 
with OMB and we would be happy to share those with you as well.
    Mr. Gibbons. Thank you very much, Mr. Secretary, and that 
was such a clear explanation that I am sure Secretary Watson 
would agree with it as well for her budget.
    Ms. Watson. I do.
    Mr. Gibbons. Let me ask Secretary Watson a very brief 
question, if I may. In Nevada, we have what is called a 
wildfire support group, which is something that would go to 
perhaps Mayor Kelley's question about how do you prepare a 
community for fires, but the wildfire support group in Nevada 
is a group of individuals who have been trained to fight fires, 
they are not your volunteer firefighters, they are 
individuals--they may be ranchers in a community, they may be 
ordinary citizens out there that have a residence nearby that 
are trained.
    Is that a program that you support and you believe that 
having wildfire support groups that can address fires in a 
rapid fashion when they are small and containable, to be a 
significant part of the answer to preventing or addressing 
these larger wildfires that erupt, that are out of control 
after many days?
    Ms. Watson. I am not familiar with that particular program, 
but the concept of having locally trained people to respond is 
an important one, because we have found the first responders 
are often local folks and they can get a handle on a fire 
quickly. And I think adequate training is part of what the 
National Fire Plan is all about, working with local 
communities, getting them the equipment and the training they 
need to work together with us and to respond quickly.
    Mr. Gibbons. I would like to make that suggestion to Mayor 
Kelley and in fact anybody in this area, this region, that has 
a region that is susceptible to fire and the wild/urban 
interface. Because the resources that could be used to train 
these individuals, these individuals then would be qualified to 
address a fire, sort of like a rapid response team that we have 
created in homeland defense for terrorist threats, we could now 
have a homeland defense for wildfires.
    So thank you, Mr. Chairman, and thank you to these 
witnesses.
    Mr. McInnis. Mr. Walden.
    Mr. Walden. Thank you very much, Mr. Chairman.
    Mr. Rey and Secretary Watson, I want to commend the 
Administration. My understanding is you last year worked on 
168,000 more acres in fuel reduction than the prior year and 
for this year, you are proposing to double that increase to 
almost 300,000 more acres than were done before.
    You know, we grow up hearing about the odds of something 
happening are like being struck by lightning. In the case of 
our Federal forests, I am betting on lightning right now. We 
have, what, 100 million acres that are susceptible to 
catastrophic fire, disease and bug infestation? And we are 
creating--
    Mr. Rey. 180.
    Mr. Walden. 180? And we are treating 2.2 million acres a 
year at this rate, is that correct?
    Mr. Rey. That is about right.
    Mr. Walden. So it is probably better to bet on lightning 
than the fact that we are going to get all this treated in 
time.
    Mr. Rey. Well, we have to ramp up the rate of treatment 
significantly, there is no question about that. But I think we 
also have to acknowledge that it took us 100 years to get into 
this situation and it is going to take us more than a couple of 
years to get out of it.
    Mr. Walden. I could not agree more. What are the biggest 
obstacles that you are running into right now in being able to 
treat our forests?
    Mr. Rey. I think the biggest obstacles right now are the 
ones that we are focusing on addressing, which is the 
procedures that we have used that have become too cumbersome 
and expensive to carry out the work on a timely basis. Our hope 
is that by changing that alone we will be able to accelerate 
the amount of work that we do on an annual basis and certainly 
the use of stewardship contracting, the tool that you have just 
provided us, will assist that as well.
    Mr. Walden. Some critics of the President's plan have said 
that it shuts people out from the courthouse door, that you 
cannot participate in the process. Is that the case?
    Mr. Rey. I think what we want to try to do is to encourage 
participation earlier in the process by a broader range of 
interests. If we are worried about shutting people out of the 
courthouse door, we have already failed. Because once an issue 
gets to the courts, we have already sustained a significant 
amount of time and expense in trying to do the treatments.
    Mr. Walden. And can you describe some cases where the delay 
has resulted--or the appeals process the way it is currently 
constructed, has resulted in areas not being treated that later 
were subject to catastrophic fire, does that go on a lot?
    Mr. Rey. Probably the two most notable examples from 2002 
are the Hayman fire, where part of the watershed was designated 
for treatment, but appeals needed to be resolved before that 
could occur; and the Squires fire, the one the President 
visited, where appears and litigation slowed up the work that 
needed to be done, so that it could not be done before a fire 
hit.
    Mr. Walden. In the case of the Sour Biscuit fire in 
southwestern Oregon, half a million acres were burned, I met 
with Josephine County Commissioners 2 weeks ago, they have 
already been in and harvested and are beginning I guess 
replanting in the 25 acres that the county had in that area. 
Can you describe for me what the Forest Service's time line is 
to get in and do any kind of salvage effort?
    Mr. Rey. Sure, the Forest Service has already done a 
limited amount of salvage of what we call hazard trees that 
represent a direct threat to human life and welfare. That has 
been concluded using a categorical exclusion.
    In our case, the situation is a little different because 
the fire did not go out finally until about November 19, so we 
looked at a large level assessment, a full environmental impact 
statement, to do all the treatments as part of a comprehensive 
project. We completed the analysis that precedes that 
environmental impact statement at the end of the year, we are 
assuming that we will have the environmental impact statement 
completed by this fall or thereabouts, and we will begin 
starting to deal with the salvage activities that have to occur 
thereafter.
    Some of the rehabilitation work is already being done, all 
the emergency rehabilitation work or virtually all of it, has 
already been completed.
    Mr. Walden. But will it not take, in most people's 
estimate, another year of appeals after you complete the EIS 
before you actually can get in on the ground?
    Mr. Rey. Most likely, given the size of the operation and 
the location of the area.
    Mr. Walden. So 2 years basically.
    Mr. Rey. For large projects and controversial areas, that 
seems to be about the norm.
    Mr. Walden. And is it not true also that if it is pine, 
within that 2 year period, the value of those trees is 
basically lost?
    Mr. Rey. It depends on the size of the trees and the 
species involved. Lodgepole will last longer than ponderosa. In 
this particular instance, it is mostly ponderosa and Doug fir.
    Mr. Walden. Mr. Chairman, could I ask a question of Mr. 
Massey?
    Mr. McInnis. Mr. Walden, we have got to keep it pretty 
brief, because I want everybody to have an opportunity.
    Mr. Walden. Am I over my 4 minutes?
    Mr. McInnis. Well, the timer broke, so I'm guessing right 
now.
    [Laughter.]
    Mr. Walden. How convenient. I will keep going until I hear 
the buzzer.
    [Laughter.]
    Mr. McInnis. You can assume you have heard the buzzer.
    Mr. Walden. All right. Mr. Massey, when I was in a part of 
my district, there were logs on a rail car that were burned 
pine, I believe they came from this area clear up into Oregon, 
which are going to a mill in my district. Can you just briefly 
describe what your time lines are to get in after a fire, and 
begin restoration and salvage efforts?
    Mr. Massey. Yeah, they told us 2 years and I do not think 
it is going to be 2 years. There are a lot of trees already 
showing cracks, but as soon as they are done, we are ready for 
recovering. We are doing some of it already.
    Mr. Walden. You are already doing some?
    Mr. Massey. Some of the bare activities, yes, and 
reseeding, we are already doing.
    Mr. Walden. Very good. Thank you, Mr. Chairman, for your 
indulgence.
    Mr. McInnis. Thank you, Mr. Walden.
    Mr. Hayworth.
    Mr. Hayworth. Thank you, Mr. Chairman.
    Let me continue with Chairman Massey for just a second, on 
the question of the mill there on the White Mountain Apache 
Reservation.
    I understand in terms of salvage, you have a mill there but 
as I understand it, you are fitted primarily for large diameter 
trees, 17 inches and above. Given the efforts of some to reduce 
the size of trees that could be processed, will you have to 
retrofit your bill to do that?
    Mr. Massey. Yes, Hayworth. Our mill was built about 40 
years ago, that was when we had big trees on the reservation, 
but as of today, we have more smaller trees and we really do 
need assistance in downsizing our mill.
    Mr. Hayworth. So you would have to downsize the mill. Do 
you know how long a period it would take to retrofit it?
    Mr. Massey. We started some process already, I think we 
have got about $8 million into our mill downsizing already, but 
we still need some more to make it run efficient, to run small 
trees.
    Mr. Hayworth. Continuing with the subject of money, I was 
very interested in Mayor Kelley's offer, if you will, to the 
Federal Government, a loan--and let me call up my friends from 
the Administration, if I could, please, to talk about this. 
Because I appreciate the thinking outside the box and it goes 
without saying, when we were visiting earlier, Mark, that the 
Mayor was very happy to hear that the funds are on the way and 
we will try to avoid the phrase ``the check is in the mail,'' 
for obvious reasons.
    But what about this thinking outside the box, I mean, 
should we in the Congress look to find a mechanism for inter-
governmental agreements where local municipalities or county 
governments or even with the trying financial conditions we 
have right now, states in essence float a loan to the Federal 
Government to expedite projects?
    Mr. Rey. We actually have those agreements. If you have 
enough time to do the upfront work to execute a memorandum of 
agreement with a state or a local government, and we have many 
of those because firefighting is a cooperative and inter-
governmental effort, then money can flow back and forth between 
the Federal and local governments. In California, for instance, 
we rationalize at the end of a fires season what we owe the 
state or the county of Los Angeles, or what they owe us.
    The problem here was we had no instrument to work from 
ahead of time, during the timeframe involved. But if the Mayor 
wants to look at something on a longer term basis, or any unit 
of government does, we are open to that and have the tools to 
do it.
    Mr. Hayworth. Well, this would then beg the question, I 
believe, for us as legislators, to work with our friends in 
appropriation and try to form a fast track uniform process, 
because when you are dealing with fires and you are dealing 
with the trauma a community undergoes, and we have all heard of 
really the risks of a second environmental disaster with beetle 
infestation and disease and all those other problems, that just 
as we come into an area and try to work very quickly under the 
auspices of FEMA with low-interest loans to try and get people 
back on their feet, perhaps there is a mechanism we need to 
explore to fast track it so there is uniformity to move that 
forward.
    Does that sound plausible, Rebecca?
    Mr. Rey. It sounds imminently plausible. We could look at 
the authority to write short-term instruments that can be 
executed very quickly. The memoranda of agreement that we do 
write tend to be programmatic, they tend to be expressions of 
how we are going to cooperate, share funding and resources over 
an extended period of time. They are not designed to deal with 
an emergency situation like this.
    Mr. Hayworth. So that would be something that we need to 
look at.
    Rebecca, one quick--
    Mr. McInnis. Time is up.
    Mr. Hayworth. I did not hear Betty Crocker's bell, but I 
will accede to the Chairman.
    Mr. McInnis. Well, again, Betty Crocker--
    Mr. Hayworth. Is out baking right now.
    Mr. McInnis. Yes. That thing is not working, so I am doing 
the best I can at guessing at about 4 minutes. Thank you, Mr. 
Hayworth.
    Mr. Renzi, you may proceed.
    Mr. Renzi. Thank you, Mr. Chair.
    Mark--Secretary Rey, if I could ask you a couple of 
questions real quick. We in the Congress and in the White 
House, in the President's initiative, are trying to give you a 
tool, a new tool, called stewardship contracting, and yet there 
are those who are opposing us in this realm. And I would like, 
you do not mind, please to explain to the public, particularly 
in Flagstaff, the quick essence of stewardship contracting and 
also as it relates to some of the funding that my colleague Mr. 
Gibbons was talking about, as it relates to maybe A-Bar-S, 
Apache-Sitgreaves and some of the hope that we can have in the 
White Mountains.
    Mr. Rey. Simply stated, stewardship contracting gives us a 
new tool that we currently lack, to do long term, landscape 
level work on the ground, by using the authority you provided 
us to write a long-term stewardship contract--10 years in 
length or shorter. That's twice as long a contract as we can 
write under existing procurement regulations, and allows us to 
treat areas where there is not as much commercial value as 
there are in other areas where we can use commercial timber 
sale contracts to do the treatments.
    So the importance of the tool is it allows us to work over 
a longer term basis at a landscape level. The contractor who 
signs the contract has the stability with a 10-year contract to 
make investments not only in the equipment that he uses to do 
the work on the ground, but perhaps in the infrastructure to 
use low-value material and convert it into biomass energy or 
particle board or something else for trees that are not of a 
sufficient size or quality to be used in sawing lumber. It is a 
very important tool.
    One of the things I think it is worthwhile to announce 
today is that we are poised on the brink of announcing a long-
term stewardship contract on the Apache Sitgreaves National 
Forest. We are going to call it the White Mountain stewardship 
project, it will last over 10 years, it will treat 150,000 
acres, 15,000 acres a year. The contract has been developed in 
cooperation with local communities and the Nature Conservancy. 
The Nature Conservancy has agreed that they would be our 
monitor of how well we do under the stewardship contract. We 
are hoping to get it announced in July, solicit public comments 
on it and get it operating this fall.
    So we will be able to see on the Apache-Sitgreaves National 
Forest and the White Mountain area, the value of this 
contracting tool. And hopefully the way it brings people 
together to look at land treatments that need to be done to 
avoid the circumstances that we saw last summer.
    Mr. Renzi. Thank you, Mr. Secretary. I want to thank you 
for that announcement and also thank Ms. Watson for her help at 
White River.
    Just real quick, we have got about 30 cattlemen who drove 
up in a bus this morning from Globe and we have had a real 
tendency to see our cattle moved off the Tonto. Our cattle 
industry in rural Arizona is a critical part of our economic 
engine.
    Could you please speak briefly to the cattle's role in 
creating a healthy forest?
    Mr. Rey. We do in many areas use livestock to reduce flora 
and forage to reduce fire risk. In many of our forests where we 
have fuel breaks, particularly in southern California and 
elsewhere in the southwest, we use cows, goats and sheep to 
maintain the fuel breaks. So they do have a salutary effect in 
that regard.
    Here in the southwest, we are in the middle of an extended 
drought cycle and it has been a very tough time to maintain 
range quality and we have had to make very difficult decisions. 
But I will tell you that we are committed to retaining the 
grazing industry as an integral part of the public lands and as 
an important component of slowing the development and 
subdivision of private lands, because every ranch that goes out 
of business tends to become a subdivision or a series of 
ranchettes. In the last 20 years, 3.5 million acres in the 11 
western states have been converted from privately owned ranch 
land, often ranch lands that were providing important wildlife 
habitat, to subdivisions.
    Mr. McInnis. Ms. Watson, I am going to allow you to answer 
that because I think it is very important.
    Ms. Watson. All right, thank you very much.
    I just wanted to make mention that the Bureau of Land 
Management shares the sentiments that Mr. Rey just described 
and I would like to urge your constituents to participate in a 
proposed rulemaking that the Bureau of Land Management just put 
out on modifications to the grazing rules and regulations and 
our processes. It was just published in the Federal Register 
and we need and want comments from the grazing folks on this 
initiative. We too think that grazing plays a very important 
role, not just in the health of the lands, but in the health of 
our rural economies. We want to give them the tools to continue 
on the land in the 21st century.
    Mr. McInnis. Rebecca, I assume that you have a website that 
folks could look up?
    Ms. Watson. Yes, if they go to the Department of Interior 
website, they can find those regulations there.
    Mr. McInnis. Mr. Rey, I assume that applies to your agency 
as well--website?
    Mr. Rey. There is a USDA website. If I was more computer 
literate, I could remember--
    Mr. McInnis. Well, they could put in search, but there is a 
website out that where they can get some of this data. Also, we 
are going to try and put everything we can on our website for 
today's hearing, some of the pictures too.
    Mr. Pombo. Mr. Chairman, if you would just yield on the 
point.
    Mr. McInnis. Of course.
    Mr. Pombo. For all of the members of the audience, all of 
the information from this hearing will be linked to the House 
Resources Committee website as well as the information that our 
two Under Secretaries just talked about will be linked to our 
website. It will take our staff a couple of days to get it on 
there, but all of that will be on our website. So any further 
information that you want, you will be able to pull down. Thank 
you.
    Mr. McInnis. And that website, Mr. Chairman, would be--what 
would they throw in a search?
    Mr. Pombo. Ask one of them.
    [Laughter.]
    Mr. McInnis. Get your pencil out and we will give it real 
quick.
    Mr. Pombo. Resources.gov--
    Mr. Shadegg. Do you want me to read the whole thing here?
    Mr. McInnis. Go ahead.
    Mr. Shadegg. //ResourceCommittee.House.gov/107cong/--
    Mr. McInnis. Slow down, slow down.
    Mr. Pombo. Just put in ResourcesCommittee.gov.
    Mr. McInnis. ResourcesCommittee.gov will do it for you.
    Mr. Shadegg. I am informed there is a handout with the 
website address on it.
    Mr. McInnis. Terrific, we will do that.
    Mr. Shadegg, you may proceed.
    Mr. Shadegg. Thank you, Mr. Chairman. I want to begin with 
you, Chairman Massey.
    You heard some discussion earlier that there was an ongoing 
effort in Washington the try to strike a middle ground and pass 
legislation this year where we worked with George Miller and 
others to try to reach compromise legislation. Mr. Walden and 
the Chairman of this Subcommittee worked very hard on that.
    But we were opposed in that because some people to this day 
across America, many, adamantly believe we should not be 
treating our forest. Chairman Massey, I just want to compliment 
you on this PowerPoint presentation. I wish somebody would make 
a TV documentary of it to show to the Nation and to the people 
of the Nation and to our colleagues in Congress. We got a 
chance to see the photos, I want to walk through some of them 
quickly.
    First, it showed that untreated forest is an abject 
disaster, that is a picture of that. It shows that by contrast, 
a treated forest is just dramatically better, even after the 
fire goes through it.
    And then it showed something I had not realized. You have 
photographs that show where it has been treated only 
mechanically, but not by burning as well, prescribed burning. 
It is better than untreated, but it is not near as good as land 
that has been treated both mechanically and by prescribed 
burning. And I think that is an incredibly important lesson for 
us to learn.
    It also shows something else that I have been focused on. I 
want to focus a lot on the issue of timber salvaging. My 
colleague Mr. Walden brought out the fact that if we do not do 
timber salvage work very quickly here in Arizona--because 
mostly our forests are ponderosa and not pole pine, we had 
better do it quickly, and we are not doing it quickly enough. 
But your photos also showed that in areas of the fire where 
there had been a forest fire before and there had been no 
salvage, they were devastated much worse by the second fire 
than in areas of the most recent fire where there had been 
previous fires and you had done timber salvage and restoration 
work.
    And I think that is a tremendous PowerPoint presentation, 
which as I said, I wish we could make into a documentary.
    Is it true that the tribe is now currently doing timber 
salvaging and doing it fairly aggressively?
    Mr. Massey. Yes, we are doing with several contractors on 
the reservation and part of our own sawmill, we are doing some 
of that salvage also. But I would like to thank you for 
pointing those things out. I think from the Rodeo-Chediski 
fire, there is history there. I think we call can go take a 
trip and learn from it of what we have been doing to our 
forests out there.
    Mr. Shadegg. I have information showing that you have at 
least three bidders that have already bid to do timber salvage 
work and I guess it is going forward presently, and they are 
harvesting that timber salvage right now; is that right?
    Mr. Massey. Yes.
    Mr. Shadegg. Secretary Rey, I want to ask you a question 
before I run out of time and the Betty Crocker bell rings. It 
is my understanding that on the non-reservation portions of the 
Rodeo-Chediski fire, we only have let one timber salvage 
contract and I understand it is only of the type you previously 
described, that is on areas adjacent to roads and campgrounds 
where a falling tree could injure or kill someone; is that 
right?
    Mr. Rey. Actually there are a couple of contracts that have 
been let, all of them under that categorical exclusion and all 
of them currently under litigation.
    Mr. Shadegg. That was my second question. At the moment, 
they have all been stopped by litigation; is that correct?
    Mr. Rey. So far that is correct.
    Mr. Shadegg. And under the normal time line for that 
litigation, is there any hope that we will be able to do the 
salvage timbering or will the litigation prevent us from being 
able to do that if it pursues its normal course, because this 
is ponderosa pine and we have 2 years or less?
    Mr. Rey. It is a little too early to tell. If the case goes 
to a full trial on the merits, the scenario you describe is 
probably correct, but at this point, we have not even had a 
hearing on a preliminary injunction. So it is unclear what will 
happen.
    Mr. Shadegg. I want to encourage you on behalf of all of 
northern Arizona to aggressively pursue that litigation and try 
to win it any way you can. And I also want to tell you that 
some of us in Congress are thinking about introducing 
legislation that would address that ongoing litigation.
    But beyond that, is there--are there plans to let 
additional contracts for areas beyond those adjacent to the 
human habitat areas?
    Mr. Rey. Yes, the environmental impact statement covering 
those areas should be done in May and then, depending on 
whatever appeal and litigation activity occurs thereafter, we 
will see what happens next.
    Mr. Shadegg. My final question is, is there anything else 
that we can do legislatively to assist you in ensuring that 
that timber salvage work does go forward?
    Mr. Rey. We could probably talk about that back in 
Washington, if you would like.
    [Laughter.]
    Mr. Shadegg. Well, some of us want to do that, so thank you 
very much.
    Mr. McInnis. Unfortunately, Betty Crocker has been replaced 
by the little hammer up here.
    But Mr. Shadegg, I would point out that your questioning on 
litigation is absolutely on point and that has really caused a 
problem. And while the litigation is being delayed, I think we 
will probably hear from some of the rest of the panel, the 
beetles move in and then pretty soon the beetles make it and 
then we have got another disaster on our hands. But I am glad 
you brought that up, I appreciate that.
    Mr. Pombo. Mr. Chairman, just to clear this up in my mind, 
when we are talking about this timber salvage that you are 
discussing, we are talking about removing dead trees.
    Mr. Shadegg. Dead trees inside the footprint of the Rodeo-
Chediski fire that could be used--have an economic value right 
now but as has been brought out in other questioning, soon will 
have no economic value whatsoever.
    Mr. Pombo. So you are not suggesting cutting green trees, 
you are suggesting that we go in and remove dead and burned 
trees.
    Mr. Shadegg. Mr. Chairman, that is absolutely right.
    Mr. Pombo. OK.
    Mr. McInnis. And I might add, Mr. Chairman, keeping in mind 
that every day that goes by that you do not remove that, that 
becomes a nest for beetles and then when the beetles do not 
have their tummy full from that, they fly to the live trees. 
And we have experienced it in huge proportions in Colorado.
    I want to thank the panel; thank you very much. I apologize 
you had to stand there for all this questioning, but thank you 
very much for coming and I ask that the audience recognize the 
group.
    [Applause.]
    Mr. Gibbons. Mr. Chairman.
    Mr. McInnis. Yes.
    Mr. Gibbons. Mr. Chairman, if I may ask the indulgence of 
the Committee while we are changing panels here, there are some 
of us who would have liked to have added questions to this 
panel. If it is in the discretion of the Chairman and the 
Committee, we would like to submit questions for the record for 
the panels to answer.
    Mr. McInnis. For the audience here, we have a procedure, 
because we almost always run into time problems in Committee 
hearings, so we do have a procedure that allows the Committee 
members to submit further questions and submit questions for 
the witnesses and those responses and then we incorporate those 
into the record.
    The Chairman of the whole Committee has asked me to 
remind--well, not remind, many of you are not aware of this, 
but some of you would have liked to present some public 
testimony, but you did not have an opportunity, for obvious 
reasons, to present it as our panel has been able to present 
it. So we are going to allow you an opportunity to submit 
written testimony. Again, you can send it by e-mail or you can 
send it--and we will get you an address on the handout for the 
Committee. We do ask that you submit that testimony within the 
next two or 3 days. And we will include that in the public 
record as well. So please, be aware of that.
    I want to thank the second panel for attending. Dr. Moore, 
you may go ahead and proceed to the podium, you are going to be 
the first.
    Let me introduce the whole panel--Dr. Moore a doctor with 
the Greenspirit Strategies, Inc.; Dr. Wally Covington--Doctor, 
nice to see you again, School of Forestry, Northern Arizona 
University; Sarah Cassatt from Flagstaff; Dr. Kolb from 
Northern Arizona University; Mr. Gibson from Pulp and 
Paperworkers Resource Council; and Mr. Ack from the Grand 
Canyon Trust.
    Thank you all. Dr. Moore, my timer is broken, so we are 
going to give you 5 minutes and I am going to give a little tap 
if you are running over. I appreciate you watching that. Thank 
you very much, you may proceed.

     STATEMENT OF PATRICK MOORE, PH.D., CHAIRMAN AND CHIEF 
             SCIENTIST, GREENSPIRIT STRATEGIES, LTD

    Mr. Moore. Thank you, Mr. Chairman and members of the 
Subcommittee for this opportunity to testify today.
    As an ecologist, co-founder of Greenpeace, where I served 
15 years full time, and a life-long environmentalist, I find 
myself in a era where many other environmentalists have adopted 
policies that would see millions starve in Africa rather than 
eat perfectly safe genetically modified corn, that oppose dams 
producing renewable hydroelectric power in China when the 
alternative is non-renewable coal, and that would see forest 
fires kill every living thing rather than support sustainable 
forestry and the use of renewable wood.
    In this policy environment, I fashion myself the sensible 
environmentalist. And there is nowhere a greater need for some 
common sense than in the debate over how to manage the national 
forests and other public forest lands.
    There is simply no sense in allowing conditions to prevail 
that inevitably result in uncharacteristic and catastrophic 
wildfires. The waste of renewable resources, the destruction of 
wildlife, the loss of soil and siltation of rivers, the release 
of vast amounts of carbon dioxide and the loss of property and 
sometimes human life are things to be avoided, not encouraged. 
This is especially true when one considers how simple it is 
through the application of time-tested silvicultural practices 
to maintain forests in a state that minimizes catastrophic 
outcomes.
    There are two primary root causes of the forest conditions 
on Federal public lands today. The first is constitutional and 
political. Most of the Federal public lands are in the West and 
most of the population and politicians who determine the fate 
of those lands are in the east. This imbalance in electoral 
accountability has led to policies that satisfy remote 
interests while stifling more local ones.
    The second root cause is ideological and stems from the 
fact that many powerful environmental groups are basically 
anti-forestry and favor policies that reduce the use of wood 
rather than encourage its use as a renewable resource. They 
promote a policy of cut fewer trees, use less wood.
    A sensible environmentalist knows that the correct 
environmental policy is grow more trees, use more wood. This in 
turn requires active management, the application of 
scientifically based silvicultural treatments and the 
productive use of the wood thus obtained.
    The active management of the majority of public lands with 
forests to reduce fire risk, to enhance wildlife habitat, to 
protect life and property and to obtain wood in no way 
contradicts the desirability of maintaining a world class 
system of protected areas where industrial activity is 
restricted or banned. The World Wildlife Fund official policy 
is that 10 percent of the world's forests should be off limits 
to industrial use. That is a reasonable policy, but begs the 
question of what to do with the remaining 90 percent. A 
sensible environmentalist would favor sustainably managed 
forests producing high volumes of wood, while taking the needs 
of wildlife and biodiversity into account.
    The anti-forestry activists are telling us the way to save 
the forest is to let them burn to the ground. Last summer, I 
toured forests in Idaho with a group that included former 
Forest Service Chief Jack Ward Thomas. We witnessed the 
devastation caused by uncharacteristic wildfires in the 
ponderosa pine forest in the high country northeast of Boise. I 
include a few images from that field trip for your interest.
    These photographs show that even after 15 to 20 years, the 
forest has not recovered from the devastation caused by 
uncharacteristic wildfires.l The soil was burned off exposing 
bare rock. Erosion continues, sending debris into rivers where 
it damages fish habitat. A beautiful biodiverse ponderosa pine 
forest has bene reduced to a barren landscape that will take 
decades to recover.
    I am not saying that fire in forests is always bad for the 
environment. Fire can be a very useful tool for managing fuel 
loads and enhancing wildlife habitat. But fire is a tool that 
should only be used by professionals trained in forest science, 
not by idealists with the naive notion that because fire is 
natural, it is automatically good for the environment.
    The inferno that began in the Bandelier National Monument 
in Los Alamos, New Mexico in May 2000 is a classic case in 
point. The park officials who started this fire did so with 
good intentions. But they failed to take into account the fact 
that over 50 years of fire prevention had resulted in a fuel 
load buildup that nearly guaranteed the catastrophic results 
that ensued. The only solution in these circumstances is manual 
and mechanical removal of wood to reduce the fuel load. In some 
types of forests, it may then be possible to manage fuel loads 
with prescribed fire. In other types of forests, however, 
especially where there are homes and other property at risk, 
mechanical thinning and harvesting are the only practical 
options.
    Just a brief word about the precautionary principle which 
is so often used these days to try to convince us that we 
should do nothing. There is a risk of using logging and 
thinning practices in forests, but there is a far higher risk 
of allowing those forests to come to a state where they will 
have catastrophic fires. In other words, the precautionary 
principle is not only about considering the risk of doing a 
certain thing, it is also about considering the risk of not 
doing it, not doing active management in other words.
    It is therefore essential that the present legislative and 
policy obstacles to implementing active management of national 
forests and other Federal forest lands be removed. It is 
unfortunate that some activist groups characterize this need as 
being destructive to the environment, when it is actually the 
only way to break the present environmentally destructive 
pattern of fuel buildup followed by catastrophic wildfire. I 
wish the legislators, policymakers and all those responsible in 
the field well in bringing about these very necessary changes 
in law and practice.
    Members of the Subcommittee, I have attached a section from 
my book Green Spirit: Trees are the Answer, for your interest. 
The section that is about fire, and I would also ask you to go 
to greenspirit.com which is my website which contains a great 
deal more material on this and many other subjects.
    Thank you very much.
    Mr. McInnis. Thank you, Dr. Moore, very interesting 
testimony.
    [The prepared statement of Dr. Moore follows:]

   Statement of Patrick Moore, Ph.D., Chairman and Chief Scientist, 
                      Greenspirit Strategies Ltd.

    As an ecologist, co-founder of Greenpeace, and a lifelong 
environmentalist I find myself in an era where many other 
environmentalists have adopted policies that would see millions starve 
in Africa rather than eat perfectly safe genetically modified corn, 
that oppose dams producing renewable hydroelectric power in China when 
the alternative is non-renewable coal, and that would see forest fires 
kill every living thing rather than support sustainable forestry and 
the use of renewable wood, I fashion myself the Sensible 
Environmentalist. And there is nowhere a greater need for some common 
sense than in the debate over how to manage the National Forests and 
other public forest lands.
    There is simply no sense in allowing conditions to prevail that 
inevitably result in uncharacteristic and catastrophic wildfires. The 
waste of renewable resources, the destruction of wildlife, the loss of 
soil and siltation of rivers, the release of vast amounts of carbon 
dioxide, and the loss of property and sometimes human life are things 
to be avoided, not encouraged. This is especially true when one 
considers how simple it is, through the application of time-tested 
silvicultural practices, to maintain forests in a state that minimizes 
such catastrophic outcomes.
    There are two primary root causes of the forest conditions on 
Federal public lands today. The first is constitutional and political. 
Most of the Federal public lands are in the West, and most of the 
population and politicians who determine the fate of these lands are in 
the East. This imbalance in electoral accountability has led to 
policies that satisfy remote interests while stifling more local ones. 
The second root cause is ideological and stems from the fact that many 
powerful environmental groups are basically anti-forestry and favor 
policies that reduce the use of wood rather than encourage its use as a 
renewable resource. They promote a policy of ``cut fewer trees--use 
less wood''. A Sensible Environmentalist knows that the correct policy 
is ``grow more trees--use more wood''. This in turn requires active 
management, the application of scientifically-based silvicultural 
treatments, and the productive use of the wood thus obtained.
    The active management of the majority of public forests; to reduce 
fire risk, to enhance wildlife habitat, to protect life and property, 
and to obtain wood, in no way contradicts the desirability of 
maintaining a world-class system of protected areas where industrial 
activity is restricted or banned. The Word Wildlife Fund official 
policy is that 10% of the world's forests should be off-limits to 
industrial use. That is a reasonable policy but it begs the question of 
what to do with the remaining 90%. A Sensible Environmentalist would 
favor sustainabley managed forests producing high volumes of wood while 
taking the needs of wildlife and biodiversity into account.
    The anti-forestry activists are telling us that the way to save 
forests is to let them burn to the ground. Last summer I toured forests 
in Idaho with a group that included former Forest Service Chief Jack 
Ward Thomas. We witnessed the devastation caused by uncharacteristic 
wildfires in the Ponderosa Pine forest in the high country northeast of 
Boise. (Here are a few images from that field trip).
    These photographs show that even after 15-20 years the forest has 
not recovered from the devastation caused by uncharacteristic 
wildfires. The soil was burned off exposing bare rock. Erosion 
continues, sending debris into rivers where it damages fish habitat. A 
beautiful, biodiverse Ponderosa pine forest has been reduced to a 
barren landscape that will take decades to recover.
    I am not saying that fire in forests is always bad for the 
environment. Fire can be a very useful tool for managing fuel loads and 
enhancing wildlife habitat. But fire is a tool that should only be used 
by professionals trained in forest science, not by idealists with the 
naive notion that because fire is ``natural'' it is automatically good 
for the environment. The inferno that began in the Bandelier National 
Monument near Los Alamos, New Mexico in May 2000 is a classic case in 
point. The park officials who started this fire did so with good 
intentions. But they failed to take into account the fact that over 50 
years of fire prevention had resulted in a fuel load build-up that 
nearly guaranteed the catastrophic results that ensued. The only 
solution in these circumstances is manual and mechanical removal of 
wood to reduce the fuel load. In some types of forest it may then be 
possible to manage fuel loads with prescribed fire. In other forest 
types, especially where there are homes and other property at risk, 
mechanical thinning and harvesting are the only practical options.
    It is therefore essential that the present legislative and policy 
obstacles to implementing active management of National Forests and 
other Federal forest lands be removed. It is unfortunate that some 
activist groups characterize this need as being destructive to the 
environment when it is actually the only way to break the present 
environmentally destructive pattern of fuel build-up followed by 
catastrophic wildfire. I wish legislators, policymakers, and all those 
responsible in the field well in bringing about these very necessary 
changes in law and practice.
    (Please see the attached excerpt from my book ``Green Spirit--Trees 
are the Answer'')
    Fire in the Mountains (Excerpt from Green Spirit--Trees are the 
Answer, Patrick Moore, 2000)
    While the changes caused by ice are as slow as glaciers, the 
destruction caused by fire is instantaneous by comparison. A lightning 
strike or a careless camper can burn an entire hillside or valley in a 
matter of hours. The worst fires last for weeks, destroying new areas 
each time the wind picks up to fan the flames. Forest fires spark fear 
in humans and animals alike. If you find yourself in the wrong place at 
the wrong time the flames cannot be outrun.
    Public attitudes towards forest fires have always been strong. 
Fear, fascination, and anxiety over environmental and economic 
devastation have combined to generate powerful opinions. People who 
live in communities surrounded by forest want to be able to control 
fires so their towns don't get burned to the ground. Foresters view 
fire as sometimes beneficial and sometimes harmful, depending on a wide 
range of factors. Many environmental activists take the view that since 
fires are natural occurrences they are therefore good and should 
generally not be controlled.
    Little can be gained by arguing about whether forest fires in 
general are good or bad. First, forest fires come in a great variety of 
sizes and intensities. Some fires burn a small area and kill only the 
shrubs and ground-cover, leaving the trees alive. Other fires kill 
virtually everything over vast areas including the seeds and soil, 
leaving the site sterile and subject to erosion. Second, while forest 
fires are often ``good'' as a way of temporarily increasing forage for 
wild grazing animals they are just as often ``bad'' for soil, trees, 
fish, birds, and humans. We tend to think worse of wildfires the larger 
the insurance claim when there is loss of human life and property. This 
may seem reasonable to us but it has little to do with the health of 
forest ecosystems.
    For the sake of discussion forest fires can be placed in one of 
three groups: those started by lightning, those started by humans 
through carelessness or accident, and those caused by humans on 
purpose, often called ``prescribed burning.'' Wherever forests are 
valued for timber, recreation, and wildlife, efforts are taken to 
control wildfires to protect these values. In 1924 the U.S. Congress 
passed the Clarke-McNary Act, an agreement among forest land owners, 
the western States, and the Federal Government to cooperate in 
controlling fires. A monument at Snoqualmie Falls in Washington State 
commemorates the historical meeting where the agreement was reached. 
Since that time fighting fire has become a sophisticated enterprise 
employing satellite surveillance, helicopters, fire-retardant chemicals 
and water bombers, in addition to the traditional fire-spotters in 
mountaintop watchtowers. Each year thousands of fires are reported and 
most of them are controlled before they spread very far. Some of them 
get away and do a lot of damage before they are contained.
    In British Columbia, fire control is the responsibility of the 
provincial government. In an average year some 2,500 wildfires are 
reported, of which about half are caused by lightning and half by 
people. In addition, hundreds of fires are ignited on purpose for a 
number of reasons including brush control, preparation of harvested 
areas for planting, and improving grazing land for wildlife and cattle.
    Forest fire control has had a significant impact on the ``natural'' 
cycle of forest disturbance and renewal that occurred prior to the 
advent of modern forest management. Areas severely burned were 
particularly large during periods of drought. Even today, in the far 
northern boreal forest of Alaska, Yukon, and the Northwest Territories, 
where there is little incentive to control fires, vast areas are burned 
by lightning strikes nearly every year. When these fires spread without 
any intervention they have sometimes wiped out whole mountainsides and 
valleys. If the soil is badly burned it can take decades for the forest 
to recover on exposed rock. These periods of catastrophic burning were 
followed by periods of re-growth and a new succession of forests that 
were burned again when conditions were right. Today, in areas where 
forests are commercially valuable, most potentially devastating fires 
are put out before they get out of control but there are still many 
fires that defy early attempts at control and burn large areas.
    Some species of plants and trees are specially adapted to survive 
forest fires. Trees such as Douglas-fir, western larch, and longleaf 
pine have thick bark that protects them from ground fires. The seeds of 
some trees are adapted to survive all but the hottest blaze and some of 
their cones actually require heat from fire to trigger the release of 
seeds. The nutrients in the ashes from fires, so long as heavy rains do 
not wash them away, provide a basis for rapid growth of new plants on 
the site.
    Foresters realize that in some areas small frequent ground fires 
play an important role in reducing the potential for eventual 
catastrophic fires. The ground fires can clear away the accumulation of 
dead wood and brush before the fuel load becomes large enough to 
support a fire that kills the trees. While this might lead one to think 
that fires should therefore be allowed to burn whenever they start it 
is not that simple. It is often difficult to tell in advance if a 
particular fire is the kind you want or if it might develop into an 
inferno that wipes out a whole forest. When there are towns nearby the 
decision becomes even more difficult. This is a good example of a real-
life situation that requires judgment based on experience and 
knowledge. The answer cannot be found in a rule or regulation and even 
the wisest person will get it wrong sometimes. It's instructive to 
consider two examples of situations where judgments were questioned and 
where there has never been a resolution on the subject of whether a 
wildfire should have been put out or not.
    In the summer of 1994 there was a large forest fire near Penticton 
in the Okanagan Valley of British Columbia. The fire started in rugged 
hills south of the town in timber not considered valuable. Initially, 
winds were light and blowing away from the town so forestry and 
environment officials decided to let it burn as a way of clearing off 
the fuel load and improving grazing for wild mountain sheep. This 
worked fine until a few days later when the wind came in strong from 
the south and fanned the flames in the direction of the town of 35,000. 
I watched as the pines exploded in flame and the blaze leapt from tree 
to tree. Whole suburbs were evacuated, 18 homes were burned down, and 
the town's electrical supply was threatened. Water bombers were called 
in from Vancouver Island and as far away as Ontario to combat the blaze 
and save the town. Luckily the combined efforts of forestry 
firefighters, water bombers, and the Penticton Fire Department kept the 
damage confined to the outskirts. Needless to say, government officials 
came under severe public criticism for not doing more to extinguish the 
fire. Even so, environmentalists and wildlife advocates declared that 
the fire would result in improved wildlife grazing habitat.
    A much larger fire began in July of 1988 during a hot dry summer in 
Yellowstone National Park. <SUP>1</SUP> At first the officials in 
charge decided to let the fires burn as part of the natural cycle. As 
the summer progressed the fires became more numerous and spread 
throughout the park. Local environmentalists strongly opposed 
controlling the fires even though they were spreading outside the park 
into commercially valuable forest. Loggers, ranchers, and residents of 
nearby communities wanted the fires stopped. By September the main 
lodge at Old Faithful was threatened with destruction and the decision 
on action was passed all the way up to the White House. By the time 
President George Bush ordered the National Guard in as firefighters, a 
massive effort was required to subdue the blazes, ultimately costing 
over $120 million. In the aftermath those in favor of controlling such 
fires before they get out of control felt they had been right all 
along. The environmentalists disagreed, stating that even though it had 
been finally judged necessary to put the fires out that they had been 
beneficial to the ecosystem. They believed the forest would recover 
quickly from this ``natural'' event.
---------------------------------------------------------------------------
    \1\ Micah Morrison, Fire in Paradise: The Yellowstone Fires and the 
Politics of Environmentalism, HarperCollins, New York, 1993.
---------------------------------------------------------------------------
    Eight years later I visited Yellowstone, and made extensive 
observations on the effects of the fire, which in the end affected over 
a million acres (400,000 hectares), nearly 50 percent of the area of 
the park. There are huge areas of forest where all the trees and plants 
were killed and there are other vast stretches where the forest was 
partially burned. It soon became clear to me that depending on where 
one looked, a case could be made for both positions regarding the 
impact on the ecosystem. In some areas, where the fire had not been 
severe, new lodgepole pine seedlings have grown back so thick they look 
like a green carpet. These sites will recover fairly quickly. But in 
other extensive areas, such as the Lewis River canyon, all the trees 
are dead and very few new trees have grown back. These areas were so 
hot that the seeds were burned and the phosphorous in the soil was 
vaporized. The only vegetation after eight years is from seeds like 
fireweed and cottonwood that have blown in on the wind. The soil has 
been heavily eroded in places and it will take many decades before a 
healthy new forest becomes established.
    It is one thing to debate the merits of forest destruction by fire 
in a park and quite another when commercially valuable timber is at 
stake. It is even more problematic when a fire starts in a park and 
then spreads outside the park into areas designated for forestry. The 
two land uses, parks and timber production, are managed according to 
different values. In the park we care about aesthetics, recreation, and 
an environment not dominated by the material needs of people. On 
commercial forest lands we care about wood production, wildlife, and 
recreation. Fire is not aware of these distinctions and does not 
respect the boundaries between them.
    I don't believe there is an absolute right or wrong answer to the 
question of whether a particular fire should burn or not. Wildfires in 
forests, whether caused by lightning or people, remind us that we are 
not always in control of the outcome of events. The only rational 
approach is the combined use of experience, careful judgment, and 
common sense. It is just as foolish to reject efforts to control forest 
fires as it is to think they should always be put out. The most 
reasonable approach must balance forest health, timber supply, human 
safety, and property protection. Such a complex mix of factors, each 
depending on circumstance, cannot be reduced to a simple formula.
    In many of the areas where it is practiced, logging has replaced 
fire as the major cause of change in the forest. To some extent 
clearcutting and other forms of harvesting can ``mimic'' the impact of 
fire in the evolution and successional development of the forest. This 
is discussed later in this chapter.
                                 ______
                                 
    Mr. McInnis. Dr. Covington. Dr. Covington, welcome to the 
Committee, I appreciate your attendance here today. You may 
proceed.

 STATEMENT OF W. WALLACE COVINGTON, PH.D., SCHOOL OF FORESTRY, 
                  NORTHERN ARIZONA UNIVERSITY

    Mr. Covington. Thank you very much. Thank you, Chairman 
McInnis, Chairman Pombo and members of the Committee for the 
opportunity to testify before this Subcommittee. And thank you 
for breakfast this morning. You find out you feed a forester, 
you have got a friend for life.
    Mr. McInnis. Well, you are buying lunch, I assume you have 
packed lunches coming in for all of us.
    Mr. Covington. So on with the testimony. I will summarize 
the highlights of it and of course ask that the full body of my 
testimony be incorporated in the proceedings.
    Although the general principles that I will talk about 
today apply to the vast majority of forests of the West, of the 
frequent fire or dry forest types of the West, I will focus 
most of my testimony on the ponderosa pine type. As you know, 
the General Accounting Office has identified that over 90 
percent of the severe crown fires in the West occur in 
ponderosa pine and closely related forest types.
    My testimony today has four major points. First, that the 
greatest threat to the sustainability, diversity and social 
viability of the forests and communities of the West is our 
failure to aggressively restore forest health in these frequent 
fire forests.
    My second point is that the pace and scale of forest health 
restoration treatments is wholly inadequate and unconscionable. 
Treatments should at least be on the scale of acres destroyed 
by catastrophic fires. I will say more about that in just a 
minute.
    My third point is that knowing what we now know, it is 
critical that we move forward with large scale restoration-
based fuel treatments, using an adaptive management approach.
    And my fourth and final point is that there are emerging 
models of communities working together with agencies and other 
organizations to restore forest health in the full suite of 
values that accrue to society from forest health restoration.
    So first, the greatest threat to sustainability, diversity 
and social viability in the West is our failure to restore 
forest health. I used to say that it was crown fires, but in 
fact, that is overly simple. It is also the bark beetle 
infestations and all of the manifestations of forest health 
problems that we now see.
    Simply installing fuel breaks around our cities and rural 
developments, in my opinion, is forsaking wildlands that are 
the basis of the long-term sustainability of the western United 
States and of the nation. Such actions fail to address one of 
the most contentious problems that we face, the protection of 
endangered species. Severe frequent wildfires of the West are 
the greater taker of endangered species habitat right now. It 
is not forest harvesting, it is not development, 
suburbanization or any of that; it is these severe wildfires 
that we are seeing.
    If we are serious about restoring ecosystem health, we must 
confront the bigger problem, not just protecting our houses and 
habitat, but protecting the houses and habitats of wildlife, of 
spotted owls, of goshawks, os salamanders, all of the rest of 
the components of the community of life in our western forest 
lands.
    The second point, the pace and scale of our forest 
restoration treatments is wholly inadequate.
    The current rate of acceleration in the severity and size 
of wildfires in the West indicates that average annual losses 
over the next two decades are likely to be in excess of 10 
million acres per year. Unless we act aggressively, we will 
long for the years of 20002 and 2000 because the trend is 
undeniable. It is been building now for five decades. Using the 
reasonable assumption that preventative restoration treatments 
should at least be on the pace and scale of losses to severe 
stand replacing fires, one would conclude that we should 
conservatively be treating five to ten million acres per year, 
and that the size of those treatment areas should be on the 
scale of the losses we are now accruing. We should be looking 
at 100,000 to half a million acre units when we analyze and 
implement treatments, not 10,000 acre units, not 20,000 acre 
units. It needs to be hundreds of thousands of acres.
    I also want to point out that when I speak about 
preventative restoration treatments, I am not talking about 
trying to close the barn door after the horses are out. What I 
am talking about is getting in before wildfires occur and 
putting in treatments like we have seen in earlier testimony 
today, that clearly will prevent the kind of devastation--
    Mr. McInnis. Doctor, we have got to speed it up a little.
    Mr. Covington. OK. I have got my little watch running here 
too, so I am now going to wrap this up.
    The last point that I have to make is that we have 
sufficient knowledge to do these treatments on the scale of 
hundreds of thousands of acres and that we need to do so in 
adaptive management framework.
    And my final point is that we have emerging models of 
communities working cooperatively to make this happen. One of 
the best examples I think is here in the Flagstaff area, the 
Greater Flagstaff Forest Partnership, which is working on 
restoring the Greater Flagstaff Forest Ecosystem.
    And again, thank you very much for the opportunity to 
present testimony.
    Mr. McInnis. Thank you, Doctor, and I appreciate your time.
    [The prepared statement of Dr. Covington follows:]

Statement of Dr. W. Wallace Covington, Regents' Professor and Director 
  of the Ecological Restoration Institute, Northern Arizona University

    Chairman McInnis, and members of the Committee, thank you for this 
opportunity to testify on a subject of personal importance to me and of 
critical importance to the health of our nation's forests and the 
people and communities that live within them.
    My name is Wally Covington. I am Regents' Professor of Forest 
Ecology at Northern Arizona University and Director of the Ecological 
Restoration Institute. I have been a professor at NAU since 1975.
    I have a Ph.D. in forest ecosystem analysis from Yale University.
    Over the past 25 years I have taught graduate and undergraduate 
courses in research methods, ecological restoration, ecosystem 
management, fire ecology and management, forest management, range 
management, wildlife management, watershed management, recreation 
management, park and wildland management, and forest operations 
research. I have been working in long-term research on fire ecology and 
management in ponderosa pine and related ecosystems since I moved to 
Northern Arizona University in 1975. In addition to my publications on 
forest restoration, I have co-authored scientific papers on a broad 
variety of topics in forest ecology and resource management including 
research on fire effects, prescribed burning, thinning, operations 
research, silviculture, range management, wildlife effects, 
multiresource management, forest health, and natural resource 
conservation. I am senior author of the Ecosystem Restoration and 
Management: Scientific Principles and Concepts chapter of the 
interagency publication entitled The Ecological Stewardship Reference. 
I am a member of numerous professional societies including the 
Ecological Society of America, the International Society for Ecosystem 
Health, the Society for Conservation Biology, the Natural Areas 
Association, the Soil and Water Conservation Society, the Society for 
Range Management, and the Society of American Foresters. I am also a 
member of the Society for Ecological Restoration and was founding chair 
of its Science and Policy Working Group. In addition to publishing in 
the scientific literature I have been actively involved in outreach 
efforts to natural resource professionals, community leaders, and the 
general public on issues related to forest ecosystem management.
    Although the general principles that I will discuss apply to the 
vast majority of the West's dryer forest types, I will focus my 
testimony on ponderosa pine forests. As the GAO has pointed out over 90 
percent of the severe crown fire damage nationally is in this forest 
type.
    My testimony today has four major points:
    1. LThe greatest threat to the sustainability, diversity, and 
social viability of the forests and communities of the West is our 
failure to restore forest health in the frequent fire forests of the 
West.
    2. LThe pace and scale of our forest health restoration treatments 
is wholly inadequate; treatments should at least be on the scale of 
acres burned by severe wildfire annually.
    3. LKnowing what we now know, it is critical that we move forward 
with large-scale restoration-based fuel treatments using an adaptive 
management approach.
    4. LThere are emerging models of communities working to reduce the 
threat of fire while restoring the forest for its full suite of values. 
Their success depends on meaningful community collaboration, human and 
financial resources and adequate scientific support to make well 
informed management decisions. Congress, Federal agencies, 
universities, and non-governmental organizations must support these 
communities to help them achieve success. These groups should be 
supported and encouraged to work at the scale of the greater ecosystem, 
200,000 to 1,000,000+ acres.
Background
    It is an unfortunate set of circumstances that have led to this 
hearing. Scientists have predicted the current forest crisis for the 
last 75 years (Leopold 1924, Weaver 1943). In 1994 I was senior author 
on a review paper in which I stated that we could anticipate 
exponential increases in the severity and extent of catastrophic fire. 
It is not a prediction I ever wanted to come true. In that same paper, 
I also suggested that we have a narrow window of opportunity to take 
preventative actions to restore forest health and minimize the losses 
of civilian and firefighter lives as well as the mounting damage to our 
nation's natural resources.
    The forests of the West are full of communities that have poor 
escape routes and little capability for evacuation in the event of a 
fast moving fire. It is not likely that our luck will continue. Recent 
fires have traveled spread at rates in excess of 10 miles in a 24 hour 
period. Given such a rate of spread in heavy forest fuels there is no 
way that we will be able to evacuate vulnerable mountain communities in 
time to prevent the loss of lives. Clearly, if we do not do something 
quickly we can expect civilian and firefighter fatalities that are 
today unimaginable. I commend the Committee and Congress for taking a 
problem-solving approach to the current and future fire situation.
    I am optimistic that thoughtful action, adequate resources and 
public and private leadership we can begin to solve this crisis.
    1. LThe greatest threat to the sustainability, diversity, and 
social viability of the forests and communities of the West is our 
failure to restore forest health in the frequent fire forests of the 
West.
    Simply installing fuel breaks around our cities and rural 
developments and forsaking the wildlands would be an abdication of our 
responsibility to future generations. Attention cannot be narrowly 
focused on a ring around the developed areas. Such actions will fail to 
address one of the most contentious issues of our time, the protection 
of endangered species. Severe wildfires in frequent fire forests of the 
West are the greatest single threat to critical habitat for many of 
these vulnerable species because they are not adapted to stand 
replacing fires. According to a recent draft plan by the Coconino 
National Forest surrounding Flagstaff, Arizona, over the last ten years 
the nesting habitats of seven northern goshawks and six Mexican spotted 
owls have been eliminated or severely altered by stand replacement 
fires in the vicinity of the San Francisco Peaks.
    There are numerous factors that contribute to the decline of 
species in this country but the biggest threats, according to experts 
like E.O. Wilson, a Harvard conservation ecologist, are habitat 
destruction and degradation. Degradation of habitat occurs for many 
reasons but one of the most severe factors is the elimination of 
important ecological processes, such as the periodic, low-intensity 
burns that characterize the fire dependent ponderosa pine forest. By 
not restoring the forest we contribute to the decline of habitat and 
the collision between society and nature.
    From a conservation biology perspective (conservation biology deals 
with the biology of rare and declining species), one of the most 
critical needs for species conservation is the ecological restoration 
of the core areas of greater ecosystems. Core areas are large areas 
that are managed as source areas for native plants and animals to 
disperse across the larger landscape. Core areas are typically, but not 
always, wilderness areas, National Park backcountry, and similar 
undeveloped areas. In the ponderosa pine type, these core areas are 
often even more overcrowded by unnaturally dense stands of trees than 
is the rest of the landscape. As such, our parks, wilderness areas, and 
other reserve areas are at a much greater risk of catastrophic crown 
fire than is the rest of the landscape. Furthermore, because of the 
importance of these areas as strongholds of biological diversity, their 
loss to crown fire is a much more critical blow to biological diversity 
than are fires in other areas. If we are serious about restoring 
ecosystem health we must confront the difficult problem of how to 
restore these critical core areas and do so immediately. At the very 
least we should seek to protect them with a defensible perimeter using 
restoration based fuel breaks much as we are trying to do with urban 
areas.
    2. LThe pace and scale of our forest health restoration treatments 
is wholly inadequate; treatments should at least be on the scale of 
acres burned by severe wildfire annually.
    The current rate of acceleration in the severity and size of 
wildfires in the West indicates that average annual losses over the 
next two decades will be in excess of 5-10 million acres per year. 
Using the reasonable assumption that preventative restoration 
treatments should at least be at the pace and scale of losses to severe 
stand replacing fire, one would conclude that we should be treating 5-
10 million acres per year. Our current pace and scale is woefully 
inadequate given the scope of the problem. Unless we accelerate 
treatments rapidly and immediately we will never get ahead of the 
problem.
    3. LKnowing what we now know, it is critical that we move forward 
with large-scale restoration-based fuel treatments using an adaptive 
management approach.
    We have a solid body of scientific information to support a 
systematic scientific approach for implementing forest restoration that 
will protect people, communities and the forest. Adaptive management 
would use this information, coupled with ongoing monitoring and 
evaluation, to ensure that maximum learning comes from ongoing 
operational treatment implementation.
    We have sufficient knowledge to implement large, landscape scale 
restoration treatments in ponderosa pine and related ecosystems. Such a 
scientific approach should be based on attempts to objectively discover 
the truth about how best to learn how to improve treatments during the 
course of ongoing large-scale restoration of the landscape. The 
scientific method has been developed as a systematic way to discover 
truth, or more specifically to avoid being fooled by biases about how 
we imagine that things might be. A.D. Bradshaw (1993) of the University 
of Liverpool in England has presented a particularly cogent discussion 
of the need for objectivity in ecological restoration work. Otherwise, 
he fears that arguments over restoration objectives and approaches will 
tend to degenerate into decisions and actions based on intuition and 
impressions instead of the best knowledge available. He goes on to 
state that, ``With this goes the belief that good restoration is 
intuitive, stemming from feelings rather than logical understanding, 
and that because of this it is only learned by experience...Certainly 
nobody should ever decry the importance of intuition...Yet applied to 
the exclusion of other principles, these beliefs will destroy the 
efficiency and effectiveness of restoration ecology...''
    Restoration ecology, he posits, must be based on six cardinal 
points:
    1. LAwareness of other work.
    2. LPreparedness to carry out proper experiments to test ideas.
    3. LPreparedness to monitor fundamental parameters in a restoration 
scheme.
    4. LFurther tests and experiments suggested by these monitoring 
observations.
    5. LThe restoration of functioning ecosystems in which a whole 
variety of species is involved.
    6. LPublished results.
    There is abundant scientific research that began in the 1890's and 
continues today that provides a sound scientific framework for 
implementing the science and practice of restoration in ponderosa pine 
and related frequent fire ecosystems. We have solid information about 
presettlement forest conditions, changes in fire regimes over the last 
century, deterioration of overall ecosystem health, and ecological 
responses to thinning and prescribed burning--the key elements of any 
attempt to restore ecosystem health in ponderosa pine and related 
ecosystems. We know that current overcrowded stands of trees do not 
sustain the diversity of wildlife and plants that existed a century 
ago. We know this by examining the data of early naturalists and 
scientists. We also know this to be true from primary research. 
Scientists that have compared biological diversity of overstocked 
stands--stands that have had decades of fire exclusion--with open, 
park-like stands that have not had severe fire regime disruption, have 
found greater plant diversity, greater insect diversity, and greater 
bird diversity. Similar studies have also found greater old-growth tree 
vigor and resistance to insect attack in open, park-like stands--stands 
similar to those present before settlement. We also know that stopping 
ecologically based forest restoration that includes thinning, is not 
saving the forest as some would like you to believe, but only 
contributing to its demise and causing severe losses to the wealth of 
species that depend on it.
    Research across the Intermountain West has shown that restoration 
treatments substantially reduce fire hazard by thinning trees to 
decrease tree canopy density, break up interconnected canopy fuels, 
raise the crown base height, and then reduce accumulated forest floor 
fuels and debris with prescribed fire. Where tree density is great, 
fire alone is inadequate. Without thinning, fire can lead to increased 
mortality, especially among old growth trees. This is the typical case 
over most of the ponderosa pine type throughout the West.
    Restoration thinning enhances the productivity (growth) of trees, 
allowing young trees to develop old-growth characteristics such as 
large size and full crowns. Perhaps most importantly, restoration has 
been shown to increase rapidly the productivity of native understory 
grasses and herbs, the species that make up 90-99% of the plant 
biological diversity in western fire-adapted forests. The resources 
provided by abundant understory vegetation--seeds, flowers, fruits, and 
cover--translate into key wildlife habitat components. For example, the 
number of butterfly species and individuals increased within two years 
in Arizona sites that had received ecological restoration treatments.
    A variety of restoration options are being investigated at research 
sites across the West, applying treatments developed locally by 
scientists, managers, environmental activists, resource users, and 
members of the public. It is important to continue and expand the 
research effort, but at the same time it is imperative that we accept 
the responsibility to apply the extensive knowledge we already have, 
before more forests are lost. Restoration faces many challenges, 
because ecosystems have been highly fragmented and degraded by decades 
of overuse. It is not necessarily simple nor is success always 
guaranteed. But the preponderance of research clearly indicates that 
restoration management approaches stand in striking contrast to the 
destructive effects of unnaturally intense fires. Clearly the risks of 
inaction far outweigh the risks of scientifically based restoration 
treatments.
    The actions that others and I believe should be taken to restore 
the ecological integrity of ponderosa pine forests and therefore reduce 
the threat of crown fire are well known. I do not advocate a ``one-size 
fits all approach'' but rather crafting management approaches based on 
the location under analysis, its presettlement condition, and its 
relationship to the broader ecosystem and the communities that live 
within it. In this sense, ecological restoration should not be viewed 
as a strict recipe or a rigid set of prescriptions. Rather, ecological 
restoration should be viewed a broad intellectual framework for 
restoring and enhancing not only ecosystem health, but also sustainable 
human uses of the land.
    At the Ecological Restoration Institute we have developed some 
general principles for restoration of ponderosa pine ecosystems http://
www.eri.nau.edu/. In general, treatment design should:
    <bullet> LStrive to emulate, insofar as is practical, natural 
ecosystem patterns and processes. In ecological restoration we refer to 
these natural conditions as ``reference conditions''. In most cases for 
ponderosa pine forests this includes fewer trees per acre; retaining 
older trees and removing the excess trees thus opening up the forest 
canopy to promote increased numbers and species of plants and grasses.
    <bullet> LSeek to incorporate human needs with ecosystem 
conservation goals. For example, in many circumstances it may be 
desirable to deviate from strict-sense restoration prescriptions to 
accommodate specific uses by humans, endangered species, or other 
ecosystem management objectives.
    <bullet> LRecognize that ecologically based restoration treatments 
not only provide fuel breaks to stop crown fires from spreading across 
the landscape, but also enhance resource values and minimize the risk 
of environmental degradation.
    <bullet> LBe based on comprehensive economic analysis. Initially 
the cost of pre-suppression treatments and restoration appears large, 
however, when compared to the cost of fire suppression, property loss, 
environmental services lost (such as water), potential loss of lives 
and other factors it is relatively small. As others have said, we can 
either pay now, or pay much more later.
    <bullet> LRecognize that initial costs will be higher than 
maintenance costs. For example, in a degraded forest the cost of 
restoration can be as high as $700/acre. Following treatment, 
prescribed, low-intensity fire can be used as the primary tool at a 
much lower cost, as little as $40/acre for large areas.
    <bullet> LRecognize that agency staff capacity and operational 
funds are limited and must be increased to meet the challenge. In the 
near term, fire suppression costs will continue to mount and 
implementing pre-suppression treatments will require resources as well.
    <bullet> LConsider the potential for the creation of new 
restoration based jobs and industries. Many new jobs will be created 
throughout the nation as a consequence of implementing ecological 
restoration. Furthermore, in many situations the woody material could 
be removed and used to produce wood products to provide jobs and offset 
some of the costs of the restoration.
    This is not to suggest that we do not need more research or that we 
should not continue to learn from current treatments so that we can 
improve future treatments. One of the most important contributions the 
scientific community could make to improve land management is to 
develop monitoring protocols that are simply applied, affordable, 
understandable to land managers and that can be quickly synthesized to 
inform adaptive management.
    This need for continued research and monitoring is particularly 
acute for processes that operate at the landscape scale. For example, 
with regard to endangered and threatened species as well as many other 
species occupying the forest, we need more information on wide-ranging 
animals that we cannot gather until there are more and larger 
restoration treatments in place. Ironically some critics of forest 
restoration argue that before we can implement landscape scale 
restoration treatments we must know the effects of treatments on this 
scale--a Catch-22 argument.
    4. LThere are emerging models of communities working to reduce the 
threat of fire while restoring the forest for its full suite of values. 
Their success depends on meaningful community collaboration, human and 
financial resources and adequate scientific support to make well 
informed management decisions. Congress, Federal agencies, 
universities, and non-governmental organizations must support these 
communities to help them achieve success. These groups should be 
supported and encouraged to work at the scale of the greater ecosystem, 
200,000 to 1,000,000+ acres.
    There are emerging models of communities working to reduce the 
threat of fire while restoring the forest for its full suite of values. 
Designing restoration and fuel reduction strategies that protect towns 
and their wildland habitats is not easy because of the social, economic 
and philosophical ties people have to forests. In addition, even with 
broad support for treatments there are some people and organizations 
that will choose not to participate, yet will litigate if the 
approaches don't match their ideology. The towns working to implement 
fire risk reduction and the ecological restoration of forests are 
developing important models for accomplishing protection. In addition, 
their experiences are an important source of information that should be 
used by decision-makers, agency officials and others for adapting their 
own ways of operating to support community-based decisions.
    An exemplary community based collaborative group has been working 
to restore the forests right here around Flagstaff. For the past six 
years the Greater Flagstaff Forests Partnership has worked to develop 
and implement strategies to prevent catastrophic fire and restore the 
ecological integrity of ponderosa pine forests in the Greater Flagstaff 
Forest Ecosystem. Over 25 public and private organizations participate 
in the Partnership. Members include Northern Arizona University, the 
Coconino National Forest, the City of Flagstaff fire department, the 
Chamber of Commerce, the Grand Canyon Trust and many others. The group 
was formed in response to the volatile fire season of 1996. During that 
season fires were a constant threat within the city limits and two 
wildfires in the Coconino National Forest demonstrated the 
vulnerability of the San Francisco Peaks to fire. In fact, it was the 
decision to re-deploy fire fighters from the Hochderffer fire in the 
Coconino National Forest to a fire within the Flagstaff City limits 
that resulted in the Hochderffer fire growing to approximately 16,000 
acres.
    The goal of the Partnership is to analyze the forest surrounding 
Flagstaff and within that area to treat strategically located areas to 
achieve fire protection for the town, the surrounding wildlands, and 
especially the San Francisco Peaks. Although there are aggressive fuel 
reduction treatments underway on city property and on private property 
in the city, the Partnership recognizes the social and economic 
importance of applying ecologically based restoration to the forest 
surrounding Flagstaff. The Ecological Restoration Institute at Northern 
Arizona University in collaboration with the Rocky Mountain Research 
Station and others is developing the science-based treatments, research 
and monitoring that are essential for developing effective approaches. 
Developing the science behind each treatment is a critical part of 
achieving community consensus and responding to criticism. Other 
important activities include developing economically viable approaches 
to restoration by promoting and developing the use of small diameter 
trees (where feasible), community outreach and education, and 
exploration of restoration based employment options.
What Congress Can Do
    There are several constructive steps Congress and the Federal 
agencies can take to improve our current situation.
    <bullet> LTreatments to reduce fire threat and restore the 
ecological integrity of forests should become the single biggest 
priority of forest management policy and the land management agencies 
working in the West. The 1999 GAO report pointed out that the Forest 
Service has estimated that 39 million acres of Forest Service lands are 
at high risk to catastrophic wildfire in that region alone.
    <bullet> LCongress should provide adequate resources to the 
agencies to maximize treatments. A simple extrapolation of recent rates 
of increase in crown fire damage suggests that within the next decade 
acres burned could easily double whereas costs for fire suppression and 
compensation could approach four billion dollars annually.
    <bullet> LWherever possible, Congress and the land management 
agencies should support the collaboration of forest communities to 
design ecologically based restoration treatments. This includes: 
producing high quality, timely environmental review documents; 
elevating the production of the review documents to a top priority; 
assisting communities to develop economically viable opportunities for 
restoration products; and assisting to develop new employment 
opportunities in restoration.
    <bullet> LSupport the development of science-based restoration 
treatments.
    To move forests from their current degraded conditions to healthy, 
diverse, and productive ecosystems requires knowledge. Our lack of 
understanding of how naturally functioning ponderosa pine forests 
function and the ecological and social implications of changed forest 
conditions has led to the current situation we now face with regard to 
catastrophic fire, endangered species and the social and economic upset 
of forest communities.
    The Ecological Restoration Institute at Northern Arizona University 
and its collaborators are generating significant knowledge about pine 
forest restoration and working to get that information into the hands 
of communities and land managers that can apply it on the ground. With 
each treatment we learn more and can incorporate that knowledge into 
the next set of treatments. However, the time for clinical trials is 
over. Restoration based forest health treatments are proving to be so 
beneficial in contrast to no action that we must move forward rapidly 
and at large scales.
    Thank you very much for asking me to appear before the 
Subcommittee.
                                 ______
                                 
    Mr. McInnis. Our next witness, Ms. Cassatt, you may 
proceed.

    STATEMENT OF SARAH CASSATT, GARDENS MANAGER, ARBORETUM, 
                       FLAGSTAFF, ARIZONA

    Ms. Cassatt. Thank you. Thank you for the opportunity to 
speak here. I work at the Arboretum at Flagstaff, which is a 
botanical garden here in the area.
    The mission of the Arboretum at Flagstaff focuses on the 
conservation of plants and plant communities native to the 
Colorado Plateau and the wise stewardship of our natural 
resources.
    One of the Arboretum's primary concerns relative to 
wildfires and forest management is the issue of invasive 
noxious weeds. Where invasive weeds spread into native 
habitats, they have the following impacts: They reduce native 
plant populations and jeopardize the survival of rare plants. 
They alter native plant communities, sometimes replacing them 
entirely. They reduce wildlife habitat and the biodiversity of 
both flora and fauna. Invasive noxious weeds also degrade 
ecosystems in a variety of ways. Some species alter soil 
chemistry inhibiting the growth of native plants, some alter 
site hydrology, they may interfere with nutrient cycles and 
some of them alter the fire cycles and other characteristics, 
increasing fire frequency and intensity of those fires.
    Invasive noxious weeds have already impacted 40 million 
hectares of land in North America and cost the United States 
economy billions of dollars a year.
    I would like to talk a little bit about weed 
characteristics relative to this issue. The ability of 
particular plant species to rapidly invade new areas is based 
on several characteristics that provide competitive advantages 
under certain environmental conditions. Invasive plants tend to 
be species adapted to disturbed site conditions and their 
spread often follows the path of disturbances through habitats. 
They tend to be heavy seed producers, various species may 
produce 5,000, 50,000 and even 500,000 seeds per plant per 
year. These seeds may remain viable in the soil for up to 35 
years. They typically grow well in soil low in organics and 
nutrients and are often very drought tolerant. The most 
troublesome of these species become dominant on a site, persist 
as dominants for years and may be toxic or poisonous.
    The factors related to weeds that also relate to fires and 
forest management are as follows: Fire removes organics from 
the soil, exposing the soil and reducing moisture and nutrient 
levels. High intensity fires destroy important microorganisms 
in the soil that support native plant life, and thus make it 
difficult for those plants to regenerate.
    Research in Arizona has shown a positive correlation 
between higher fire temperatures and a greater predominance of 
invasive weeds revegetating those areas.
    Much of the equipment used in forest management activities 
are designed to be efficient in moving through forests. That 
usually means they have good traction, and tight turning 
radiuses. Unfortunately, that also means they are really good 
at churning up the soil.
    Staging areas also disturb the soil surface and can compact 
the soil, both of which provide competitive advantages for the 
invasive weed species. People, animals, transport vehicles and 
equipment used in logging and thinning are all excellent 
vectors for transporting weed seeds from infested sites to new 
areas.
    So what can we do? We think that prevention is, by far, the 
best method for controlling the spread of invasive noxious 
weeds. Once they are established, many of them are notoriously 
very difficult to control or remove.
    So we would like to propose the following:
    Evaluate each management area for existing weed colonies 
and the potential for spreading these weeds into, through, and 
out of these areas.
    Minimize the potential for weed transport by avoiding or 
managing infested areas and by thoroughly cleaning vehicles 
before moving to new areas.
    Following activities that disturb soil, mitigate those 
areas by mulching the area and/or reseeding with native 
understory species. Both of those activities will help reduce 
the likelihood of the non-native invasive species becoming 
dominant.
    Where fire is involved, reinoculate the soil with 
microorganisms. This can be done by spreading native 
undisturbed soil over the area and also reseed, again with a 
native species.
    There is some research going on looking at the slash pile 
burns. The bigger those slash piles are, the hotter the 
temperatures and again, the greater the disturbance of that 
soil. Those sites tend to become good vectors for introducing 
non-native invasive species.
    So we would like to propose that during that kind of 
management activity, slash pile sites be kept small to minimize 
the burn temperature, and then again, restore those sites once 
the burning has been completed.
    It is also important to conduct some follow up monitoring 
after forest management activities, to identify sites where 
invasive species are coming in and then conduct immediate and 
aggressive removal and control methods of new weed colonies 
while they are small enough to still be manageable. There have 
been many areas, many cases throughout the United States and 
the world where areas were let go and became problems that we 
now do not know how to manage.
    In summary, the Arboretum of Flagstaff encourages the 
Subcommittee to consider the significant impacts of invasive 
noxious weeds on native plants, native plant communities and 
ecosystem functions. We strongly recommend that weed management 
be required as part of all forest management activities and 
that sufficient funding be provided for follow up monitoring 
and control of invasive weeds. Integrating weed management into 
the overall forest health management activities is essential to 
create truly healthy forests that will continue to provide both 
forest products and healthy functional ecosystems on which we 
all depend.
    Thank you.
    Mr. McInnis. Thank you, Sarah. Your points are excellent 
and I can tell you that the average individual out there does 
not even think about noxious weeds. So your points are very 
well taken, excellent. In our state, tamarix has overrun our 
state which uses, as you know, several hundred gallons a week. 
So thank you very much for your testimony. I appreciate that.
    Ms. Cassatt. Thank you.
    [The prepared statement of Ms. Cassatt follows:]

     Statement of Sarah Cassatt, Gardens Manager, The Arboretum at 
                     Flagstaff, Flagstaff, Arizona

Invasive Noxious Weeds And Their Relationship To Wildfires And Forest 
        Management Activities
    The mission of The Arboretum at Flagstaff focuses on the 
conservation of plants and plant communities native to the Colorado 
Plateau and the wise stewardship of our natural environment.
    One of The Arboretum's primary concerns relative to wildfires and 
forest management is the issue of noxious, invasive weeds, which are 
spreading rapidly throughout the West. Invasive weeds tend to move into 
sites where the soil has been disturbed. Both fires and forest 
management activities often result in disturbed soils. Where invasive 
weeds spread into native habitats, native plant populations continue to 
be reduced. The Colorado Plateau region includes many unique habitats 
as well as many rare, threatened, and endangered plant species. In 
fact, about 15% of the native plant species of the Colorado Plateau is 
globally rare, whereas the average in other regions of the country is 
about 10%. The continuing spread of noxious, invasive weeds jeopardizes 
the survival of rare native plants and reduces overall plant 
biodiversity.
    The spread of noxious, invasive weeds also impacts plant 
communities and ecosystem functions. As invasive weeds take the place 
of native plants, plant communities and associated habitat functions 
are altered and wildlife habitat and biodiversity is reduced. Ecosystem 
functions are being impacted through changes to a variety of components 
including hydrology, chemistry, and fire behavior, and the overall 
values of our natural resources are diminishing.
    The rapid expansion of invasive, noxious weed populations is 
costing the United States economy billions of dollars annually in lost 
production, abandonment of farms, eradication and control, and habitat 
restoration.
    The Arboretum at Flagstaff encourages the Subcommittee on Forests 
and Forest Health to consider the significant impacts of invasive, 
exotic species on native plants, plant communities, and ecosystem 
functions. The spread of invasive weeds tends to increase in response 
to activities that disturb the soil and native plants. The Arboretum 
strongly recommends best management practices that minimize the spread 
of invasive species be required as a part of all forest management 
activities and that sufficient funding be provided for follow-up 
monitoring and control of invasive, exotic species that do arise 
subsequent to forest management activities.
    Many questions remain regarding mechanisms weed species use to out-
compete native plants, how they take advantage of disturbance 
activities, and how best to control and eradicate them. The Arboretum 
at Flagstaff also strongly recommends that funding be provided to 
incorporate research on these questions into forest management 
activities. Concurrent research will maximize the benefits of forest 
health restoration programs.
Invasive, Noxious Weed Characteristics Relevant to Forest Management 
        Activities
    The ability of particular plant species to rapidly invade new areas 
once introduced is based on several characteristics that provide 
competitive advantages under certain environmental conditions. Those 
that become dominant by eliminating other species, may be toxic, 
poisonous, or parasitic, and that significantly reduce the desirable 
functions of the habitat are generally considered invasive, noxious 
weeds.
    <bullet> LMany exotic plant species grow and spread aggressively 
following various types of disturbances to forests and rangeland 
habitats. Some of these species, once established, have been observed 
to spread from disturbed sites into undisturbed sites.
    <bullet> LParticularly in disturbed sites, invasive species may 
out-compete native species, becoming dominant or even becoming a 
monoculture. The most troublesome are those that persist as dominants 
for years or decades, alter plant communities and ecosystem functions, 
are toxic or poisonous.
    <bullet> LMany invasive species are heavy seed producers. Several 
species are capable of producing up to 50,000 seeds or more per plant. 
Seeds may persist in the soil for a few years to 35 years or more. An 
individual dalmation toadflax can produce up to 500,000 seeds, which 
may remain viable in the soil for 10 years.
    <bullet> LOther invasive species spread aggressively through 
extensive and rapid root growth. These plants can quickly produce new 
shoots from root buds when disturbed by mowing, burning, or hand-
pulling.
    <bullet> LThe dominance of invasive, noxious weeds degrade 
ecosystems in several ways:
    <bullet> LSome noxious species alter soil chemistry, inhibiting the 
growth and germination of other species.
    <bullet> LNoxious species may interfere with natural nutrient and 
water cycles, creating secondary impacts to other plants and the 
ecosystem.
    <bullet> LSome invasive species alter the fire cycle and the 
characteristics of fires within an ecosystem.
    <bullet> LThese changes to ecosystems alter plant communities, 
wildlife habitat, and ecosystem functions.
    <bullet> LSome exotics are related to native species and are able 
to hybridize with them, which in the long run may genetically eliminate 
the native species.
Disturbance Factors that Contribute to the Spread of Noxious, Invasive 
        Weeds
    Invasive plants, both native and non-native, tend to be species 
adapted to disturbed site conditions. They typically grow well in soils 
with low organics and nutrient levels. Their seeds sprout when on or 
near the surface of exposed soils and many are adapted to low soil 
moisture levels. These conditions are often the result of activities 
integral to forest health management.
    <bullet> LFire removes organic material from the surface layer of 
the soil, exposing the soil and reducing moisture and nutrient levels. 
High intensity fires also destroy important microorganisms in the soil, 
which are important for plant uptake of water and nutrients. All types 
of fire activities have this affect including prescribed fires, slash 
pile burns, and uncontrolled fires. Research in northern Arizona 
forests have shown that the more intense the fire, the greater the 
number and species of exotic weeds. Many questions remain about the 
relationships between the timing of fires, soil types, and the 
successful invasion of noxious weeds.
    <bullet> LMuch of the equipment used to thin or harvest trees 
disturbs the soil by churning up the surface layer and compacting the 
soil. Churning the surface exposes weed seeds to light, allowing them 
to sprout. Soil compaction limits plant root activities and reduces the 
water holding capacity of the soil.
    <bullet> LEquipment, vehicles, people, and animals are all vectors 
for transporting seeds from one location to another. Of primary concern 
is the movement of any of these vectors from an area infested with 
invasive, noxious weeds into an area not yet infested. Another 
important consideration is disturbing a site that previously sustained 
activities that brought weed seeds into the area. Areas that have been 
heavily logged or have been grazed earlier may retain weed seeds in the 
soil ready to sprout following the next disturbance.
Mitigation Measures
    There are a number of Best Management Practices available to 
minimize the opportunities for invasive, noxious weeds to expand into 
new areas and to become dominant in areas in which they already occur 
as a result of forest health management activities.
    Prevention is by far the most important measure for controlling the 
spread of invasive, noxious weeds. Once noxious weeds become 
established, their removal and even just control has proven very 
difficult and costly. Many infestations require multiple control 
efforts each year and for several years. Some species have successfully 
resisted control efforts for many years and research is ongoing to 
identify new methods. Early detection of an infestation and early and 
aggressive application of control methods are the most successful and 
by far least costly in time and expenses. The following is a brief 
outline of BMP methods currently recommended.
    <bullet> LEvaluate each area in which management activities are 
planned and identify the potential for weed infestations from existing 
stands and from potential seed bank in the soil based on previous 
activities in the area. Also identify ecological processes for that 
habitat relevant to the type of management activities planned. For 
example, determine the role of natural fire process for the habitat and 
natural forest stand densities to which the native plant communities 
are adapted.
    <bullet> LLimit possible weed seed transport from infested areas to 
non-infested sites. Avoid activities in or adjacent to heavily infested 
areas or remove seed sources and propagules from site prior to 
conducting activities, or limit operations to non-seed producing 
seasons. Wash or otherwise remove all vegetation and soil from 
equipment before transporting to a new site.
    <bullet> LFollowing activities which expose the soil, mitigate by 
covering the area with weed seed free mulch and/or seed the area with 
native species. Covering the soil will reduce the germination of weed 
seeds, maintain soil moisture, and minimize erosion.
    <bullet> LConduct regular follow-up monitoring of areas in which 
the soil has been disturbed to identify any new infestations of 
invasive, noxious weeds.
    <bullet> LConduct immediate and aggressive removal and control 
measures of new stands of invasive, noxious weeds while colonies are 
small and manageable. Consider that weed removal and control activities 
may again result in disturbed, exposed soil. In these cases, provide 
follow-up restoration measures, such as seeding, to restore a healthy 
native community to minimize the opportunities for future invasions by 
weeds.
    Invasive noxious weeds have become a significant and costly problem 
throughout the forests and rangelands of the western United States. 
These weeds not only impact individual native plant and animal species, 
they also jeopardize entire ecosystems, which are the basic support 
system for our natural resources. Integrating weed management into the 
overall forest health management activities is essential to create 
truly healthy forests that will continue to provide both lumber 
products and healthy functional ecosystems on which we all depend.
                                 ______
                                 
    Mr. McInnis. Dr. Kolb.

     STATEMENT OF THOMAS KOLB, PH.D., SCHOOL OF FORESTRY, 
                  NORTHERN ARIZONA UNIVERSITY

    Mr. Kolb. I appreciate the invitation to testify here 
today. Just a little on my background: I have been on the 
faculty in the School of Forestry at NAU for about the last 10 
years and during that time, much of my research has focused on 
the response of ponderosa pine forests to thinning and 
prescribed burning, also to drought and bark beetle attacks.
    I also serve as President of the Board of Directors of the 
Greater Flagstaff Forests Partnership that has been mentioned 
already. The Partnership is a non-profit organization that 
works with the Coconino National Forest to help restore 
healthier forest conditions surrounding Flagstaff. For the last 
5 years I have been a member of the Partnership Advisory Board, 
which includes 25 members. This has given me I think a pretty 
keen understanding of both the ecological issues and community 
concerns.
    I just want to reiterate the point that clearly tree 
densities need to be reduced in our forests to reduce fuel 
levels and fire hazard, but there is an extra benefit of that. 
We have research results that indicate quite clearly that 
reducing tree densities by thinning will also provide more 
resources and energy for the trees to produce resin, which is 
their primary defense against bark beetles. So thinning has the 
extra benefit of increasing bark beetle resistance of trees.
    I also advocate that these thinning treatments should not 
be restricted to the urban/wildland interface area, the area 
right around homes. This is an important area and a high 
priority area, but the quality of life and also the economy of 
people living in forested towns like Flagstaff are strongly 
linked to a healthy forest landscape. Proposals that I have 
heard that would limit tree thinning and prescribed burning to 
narrow bands around housing developments are very short-
sighted, in my view.
    I also want to make a case that this thinning should be 
aimed at trees less than 100 years old, not the old growth 
trees in the forest. In the southwest, for example, these old 
growth trees are scarce because of past timber harvest, but we 
know that they are more important for wildlife habitat and they 
are oftentimes more resistant to fire because they have thicker 
bark than the younger trees. However, just conservation of 
these existing old growth trees is not enough. We need to 
create conditions where the small trees will grow rapidly into 
good sized trees that have old growth characteristics. And we 
can do that through creative thinning. We know that 
silvicultural management of stands can make these young trees 
grow into old growth forests much quicker.
    I also want to talk about something that I think has been 
under-emphasized so far in the hearing and that is the 
development of local markets and industries for small diameter 
trees. For example, the forest partnership here has a project 
that has had environmental reviews completed and this project 
has taken years to complete because we cannot do anything with 
the wood. There are no vigorous markets or industries that will 
use these small diameter trees and it has really slowed down 
progress for us.
    We know from other parts of the United States and from 
other countries that industry can use small diameter trees 
profitably. Industry does not need large diameter trees in all 
cases. Locally, the most serious impediment to using those 
small diameter trees is uncertainty about the supply of these 
trees. No industry will come here and invest if they do not 
have some certainty that there will be a multi-decade supply of 
trees on a given time schedule. It is imperative that managers 
of Federal, state and tribal forests and private landowners 
work together to coordinate a reliable supply of this resource 
so that we can promote markets and industries that use these 
small diameter trees.
    Some of the exciting developments in these areas are 
sawmills that use small diameter trees and also biomass energy 
plants that use wood of any size and also leaves and bark to 
produce energy and electricity.
    I am going to touch on salvage logging and give you a 
different perspective on salvage logging. First of all, I do 
support salvage logging in some cases where very dense forests 
have high numbers of dead trees killed by bark beetles. These 
are cases where there are lots of dead fuels that need to be 
reduced to reduce fire hazard. However, I caution against 
widespread acceptance of salvage logging as being a way to 
restore areas that have been burned in wildfires, especially 
areas where you just have burned trees left and there has been 
severe soil damage.
    Why do I caution you this way? We know that dead wood on 
the site provides habitat for insects, for animals, for 
microorganisms that over the long term will help these sites 
recover. Logs on the ground also help stabilize soils and in 
these severely burned areas, soil erosion is a severe problem. 
Salvage logging may involve new road construction and if it 
does, soil erosion can even be worse. And also locally, I have 
seen no evidence that areas that burned in very hot wildfires 
and severe crown fires, reburned hotly afterwards. I have been 
looking at areas that burned here in 1996 and the year 2000 and 
I have seen no evidence that these areas burned again very 
hotly or that these areas spread fire to unburned areas.
    So I think that salvage logging should be approached 
cautiously, but I do recognize that there are situations where 
salvage logging must be used for safety reasons, immediately 
adjacent to roads, trails, towns and homes. And in those cases, 
it needs to be done using best logging practices. If trees have 
to be cut in salvage logging on steep slopes, they should be 
removed with helicopters. And I was very pleased to learn 
recently that on the Apache Tribal lands where there is some 
salvage logging that has started as has been mentioned, that 
helicopter logging is being used to minimize soil damage.
    And the last topic I will briefly talk about are bark 
beetle outbreaks. Your staff has made it very clear to me that 
bark beetles should be on my agenda. Attached to my written 
testimony are two documents that describe the current 
conditions of bark beetle outbreaks in northern Arizona and 
there is one pamphlet that describes what we know in terms of 
prevention and control. Both of these pamphlets were authored 
by Tom DeGomez, who is the Arizona State Forest Extension 
Specialist.
    If you read through that information, what you will see is 
all we can really do on a landscape level to make trees more 
resistant to bark beetles is use thinning to create healthier 
forest conditions. Once a big bark beetle outbreak gets going, 
in many respects, it is harder to stop than a wildfire. There 
is not a bark beetle rapid response team out there that can 
aggressively attack this problem.
    So we are going to see a lot more bark beetle mortality in 
the next year. How much no one can say. Observations in other 
parts of the country suggest that these bark beetle outbreaks 
in one region lasts two to 5 years before they taper off.
    Mr. McInnis. Thank you, Doctor. I noticed from the hotel 
this morning looking out there, the beetle kill that you are 
experiencing here in your own community. That is deadly stuff. 
I appreciate your testimony. Thank you.
    [The prepared statement of Dr. Kolb follows:]

   Statement of Dr. Thomas E. Kolb, Professor of Forestry, School of 
                 Forestry, Northern Arizona University

    I appreciate the invitation to testify at this hearing. I have been 
on the faculty of the School of Forestry, Northern Arizona University 
(NAU), Flagstaff, Arizona, for the last 10 years, where I am currently 
Professor of Forestry. At NAU, I teach courses in forest ecology, 
forest health, and tree physiology, and much of my research focuses on 
the response of ponderosa pine forests to forest management actions, 
stress, drought, and insect attacks.
    I also serve as President of the Board of Directors of the Greater 
Flagstaff Forests Partnership (GFFP), a non-profit organization working 
with the Coconino National Forest to restore healthy forest conditions 
surrounding Flagstaff. In this role, I have worked with the 
Partnership's 25-member Partnership Advisory Board since 1998 which has 
given me a keen understanding of both ecological issues and community 
concerns.
    My testimony today represents my own views, not the opinions of NAU 
and the GFFP.
Forest Health in Southwestern Conifer Forests
    There is little debate now that coniferous forests in the 
Southwestern U.S. are in terrible condition. High tree density caused 
by heavy regeneration in the early 1900s and suppression of surface 
fires that used to kill many young trees have led to forests 
characterized by highly stressed trees that are susceptible to bark 
beetle outbreaks, low plant and animal diversity, degraded habitat for 
animals adapted to open forests and grasslands, and uncontrollable, 
highly destructive wildfires. These symptoms of decline are most 
evident in ponderosa pine forests, but also occur in some pinyon-
juniper woodlands and higher elevation mixed conifer forests.
Corrective Actions
    I advocate the following actions to improve forest health in 
Southwestern ponderosa pine forests:
    1. Reduce tree densities to levels that will constrain fire to 
burning understory fine fuels, such as leaf litter and herbaceous 
vegetation, not tree canopies. In some forests that already have low 
tree densities, prescribed fire alone can be used to achieve this goal. 
However, most ponderosa pine forests contain too many trees for the 
fire alone approach, and require mechanical thinning to reduce 
densities. After tree densities are reduced to safe levels, fires 
should be allowed to burn through the understory as long as houses and 
towns are not threatened. Light, surface fires are a natural part of 
the ponderosa pine forest, and have beneficial effects on most plants 
and wildlife habitat.
    2. Do not limit tree reduction treatments to the urban-wildland 
interface. While these treatments can reduce wildfire hazard to houses 
and towns if only applied locally, the forest health crisis is much 
larger. The economy and quality of life of most people living in 
forested towns are strongly linked to a healthy forest landscape. For 
many people, a healthy forest means green trees, meadows of native 
grasses, good wildlife habitat, protection from flooding by properly 
functioning watersheds, and recreation on the surrounding landscape, 
not only in their backyard or neighborhood. Proposals to limit tree 
thinning and burning activities to small areas surrounding human 
settlements are short sighted.
    3. Thinning should be aimed at trees less than 100 years old, not 
old-growth trees. Old-growth trees, which for ponderosa pine can be 
defined as trees with yellow bark and greater than 100 years old, are 
scarce on the landscape because of past logging. They are more valuable 
for wildlife habitat than younger trees and often are more resistant to 
fire. However, conservation of existing old-growth trees is not enough 
to improve forest health; we need to create conditions that accelerate 
growth of young trees to large sizes. Development of forests with old-
growth characteristics can be promoted by careful forest thinning.
    4. Use a mosaic of different tree thinning approaches on the 
landscape, rather than one approach everywhere. Such a mosaic should 
include: heavily thinned stands, lightly thinned stands, meadow 
openings, unthinned stands, stands with a clumpy tree pattern, and 
stands thinned to approximate stand conditions present before European 
settlement. Creative use of such a mosaic can be used to reduce hazard 
to human settlements, provide diversity in stand appearance that most 
people like, and provide a diversity of habitats for animals.
    5. Act now using an adaptive management approach in spite of 
incomplete information. We will never have all the information needed 
to address all important issues related to forest management. The best 
we can do is monitor the results of management actions, and learn by 
doing. Waiting for all the important information will result in large 
losses of ponderosa pine forests to wildfire and bark beetles and 
unacceptable impacts to people.
    6. Develop local markets and industries that use small diameter 
trees, not large diameter trees. We know from other areas of U.S. and 
other counties that industry can use small diameter trees profitably. 
The most serious impediment to developing local markets and industries 
for small diameter trees is uncertainty about wood supply. Managers of 
Federal, State, and Tribal Forests must work together to coordinate a 
reliable supply of wood to promote market development. Sawmills that 
specialize in using small diameter trees and biomass energy plants that 
use trees to produce energy are exciting developments in this area.
    I caution against efforts to re-establish local industry based on 
large sawlogs. Such an approach would be a step backwards, and will 
create an uprising of public dissent that will threaten our efforts to 
improve forest health.
    7. Many wildfire burned areas do not need salvage logging for 
restoration. I am concerned about recent proposals to clean-up severely 
burned areas by salvage logging of dead trees. If the goal is to hasten 
recovery of severely burned areas, I advocate leaving dead trees on 
site, not logging them. Dead wood provides habitat for many animals, 
insects, and micro-organisms that are important components of forest 
ecosystems. Logs on the ground will help stabilize soils and provide 
favorable micro-habitats for tree establishment. Road building 
associated with salvage logging often creates erosion, which is already 
a major problem in wildfire areas, and promotes establishment of exotic 
noxious weeds that reduce forest health. I have seen no evidence that 
dead trees left in severe wildfire areas in Southwestern ponderosa pine 
forests are highly prone to reburning catastrophically, or spread fire 
to unburned forests.
    Despite these cautions, I recognize that salvage logging may be 
justified immediately adjacent to trails, roads, and houses for safety 
reasons, and to support economies of communities dependent on logging. 
In these cases, logging should be done when soils are not saturated, 
and soil compaction should be minimized by using best logging 
practices. If trees have to be cut on steep slopes, helicopter logging 
should be used. I was pleased to hear that some of the salvage logging 
of areas burned by the Rodeo-Chediski Fire on the Apache Tribal Lands 
used helicopter logging.
    8. Invasion by exotic, noxious plants is a serious concern in 
wildfire burned areas. Several exotic, noxious plants that have 
degraded rangelands and forests in California and the northern Rocky 
Mountains, such as diffuse knapweed, spotted knapweed, yellow star 
thistle, and leaf spurge, are present in Arizona. Once established, 
these noxious plants degrade ecosystems, and can persist for decades. I 
urge the panel to take this threat seriously and mandate and provide 
the resources for thorough sanitation of vehicles, people, and 
equipment entering wildfire areas. Exotic, noxious weeds in wildfire 
burned areas should be monitored and controlled aggressively.
                                 ______
                                 

For Immediate Release: Pine Bark Beetle Outbreak in Arizona
    Written by: Tom DeGomez, Forest Health Specialist, with the 
University of Arizona Cooperative Extension Forest Health Working Group 
and the Arizona Bark Beetle Task Force which includes professionals 
from University of Arizona, Northern Arizona University, United States 
Forest Service, & Arizona Public Service
    Arizona's ponderosa pine and pinon forests have sustained 
significant impacts from the bark beetle outbreak of 2002. Conservative 
estimates, based upon U.S. Forest Service aerial surveys of Federal 
lands, place the number of dead ponderosa pine statewide at 2 million 
on 503,000 acres. This estimate is admittedly low because the surveys 
were done between late July and October and many additional trees were 
detected during fall. One area was re-flown in October and levels of 
mortality increased more than 300% over the earlier estimates.
    The most heavily impacted forests of the state are the Tonto, 
Apache-Sitgreaves, and Prescott National Forests, and the San Carlos 
Apache Reservation and adjacent state and private lands. Some stands in 
these forests have 80 to 90% tree mortality, other stands have less 
that one percent mortality. Mortality in pinon pine woodlands are 
equally high. A late season survey of 28 square miles of pinon woodland 
southeast of Flagstaff revealed 700,000 dead trees or more than 90% of 
the mature pinon trees in the area. Table 1 describes the extent of the 
outbreak in Arizona's national forests.
[GRAPHIC] [TIFF OMITTED] T5487.007


    Several trees in the juniper family, and spruce have also been 
attacked by bark beetles. Native junipers, native Arizona cypress and 
Leyland cypress are among those being killed by the cypress bark 
beetle. Spruce bark beetle activity has occurred on over 35,000 acres 
of spruce as well.
    The two main reasons why bark beetles are killing so many trees is 
that the forest has too many trees and the trees are very dry. 
Overcrowded forest conditions coupled with drought lead to the high 
probability of beetle attack. Unfortunately the winter of 2002-03 has 
not been as wet as hoped for. Moisture levels for the winter of 2002-03 
(October to Jan) are running 3 inches below normal. The current dry 
conditions coupled with very high levels of over wintering bark beetles 
could very well lead to greater bark beetle outbreaks in 2003. Recent 
rains in mid February could greatly improve forest health; however it 
may take several years for stressed trees to rebuild carbohydrate 
stores. Stored carbohydrates are used by the tree to produce beetle 
fighting resin (pitch).
    The forests of Arizona have been able to survive in relatively dry 
conditions because in past centuries low intensity fires helped to 
maintain a low density of trees in the forest. Whereas, in the past 
century we have controlled fire which allowed many forested areas to 
become overcrowded.
    The best way to avoid having trees attacked by bark beetles is to 
take preventive measures. First and foremost is to lower tree density 
through thinning. Many people are unsure as to which trees should be 
removed. In these cases it may be best to consult with a certified 
forester or arborist. For a listing of certified professionals consult 
the yellow pages, call your local University of Arizona County 
Extension office, or log on to www.isa-arbor.com to find a certified 
arborist or www.safnet.org/certified/directory.htm to find a certified 
forester.
    When removing trees it is important to treat the logs and slash 
properly or you may promote beetle populations to increase in the down 
material. If you are not interested in saving the logs then they can be 
hauled to the landfill or chipped. If they are chipped don't pile the 
chips deeper than 3 inches next to live trees as the chips may attract 
bark beetles. Try to keep chip piles in the open sun and as far from 
live trees as possible.
    If bark beetles are found in the logs and you wish to keep the logs 
for firewood there are several options. Utilize the firewood prior to 
April 1. Peeling the bark from the logs will expose the brood to 
natural enemies. The bark should then be raked into a pile and burned. 
Covering sun exposed stacked logs with clear plastic in an attempt to 
cook beetles overwintering in the bark may not work as well in practice 
as in theory. If you use this method keep the stacks small (2 to 3 
layers high) and check the plastic often for tears and any other 
openings that may allow the adult beetles to escape.
    The small slash (limbs and tops less than 3 inches in diameter) is 
less likely to be used by beetles. This material can be chipped, or 
piled for burning this winter. When piling, put the smallest diameter 
material in the middle with the largest on the outside.
    Often property owners will have several trees that have significant 
value in their landscape. These trees may be valued for their size or 
location. These high value trees can be given additional care to 
prevent infestation. They can be irrigated or sprayed with preventative 
insecticides.
    If these trees are irrigated they should be given enough water to 
wet the soil at least two feet deep. The water should be applied in a 
donut shaped pattern at the drip-line or outer edge of the trees 
branches. It generally takes about 2'' of rain to soak 2 feet deep. 
Check the soil 6 to 8 inches deep just outside the drip-line of the 
trees monthly. If the soil is dry, then water. Generally, the months 
that most often warrant watering are May, June, and October. However, 
depending on weather patterns watering may be needed any month of the 
year. If current dry conditions continue this winter you may need to 
irrigate in March or April. Keep in mind watering restrictions that may 
be in effect in your community and follow those guidelines as well.
    Applications of fertilizers will not help protect trees from the 
effects of drought, and will not protect against bark beetle attacks.
    Un-infested trees can be protected from beetle attacks by spraying 
with insecticides. When spraying, the entire trunk and the bases of 
large branches of the tree 4'' in diameter and greater must be soaked. 
Spraying large trees is generally not a practice that homeowners can do 
themselves, to locate a certified pesticide applicator call the Arizona 
Structural Pesticide Control Commission at 800-223-0618. The only 
registered chemicals for this purpose are carbaryl and permethrin. You 
must use a product that is especially formulated for bark beetles, such 
as Sevin SL, Dragnet, or Astro. This is a protective measure only, it 
will not kill beetles once they enter the tree. Typical home and garden 
products containing carbaryl or permethrin will be ineffective. If the 
correct material is applied properly it should be effective for an 
entire season. Spraying should be completed prior to April 1 to ensure 
a full season of protection.
    The only known direct control method is the removal of infested 
trees. A good rule to remember is ``If the tree is brown cut it down, 
if in doubt cut it out.'' If we leave dead trees standing we run the 
risk of the new generation of beetles leaving the tree and attacking 
more trees. Finding reddish-brown boring dust in the bark crevices of a 
tree indicates that the tree has been successfully attacked, and the 
tree should be cut down even if the tree is still green at that point. 
If dead trees are next to houses or other structures, they can become a 
hazard tree.
    Insecticide injections or systemics have not proven effective 
against bark beetles. Many trees have been injected with what seemed to 
be success. What has actually happened is that the treated tree 
successfully pitched out the attacking beetle with resin prior to the 
treatment. The tree was then injected with insecticide when in fact no 
beetles were actually in the tree. The tree saved itself! Studies have 
proven that injecting chemicals will not kill bark beetles attacking 
conifers.
    There are several miracle cures being promoted to save trees from 
bark beetles. These materials may not have gone through extensive 
research to test their effectiveness. Buyer beware! Often, if what is 
being marketed sounds ``too good to be true'' it generally doesn't live 
up to its billing. Remember, it is against the law to use unregistered 
pesticides and using pesticides for insects not listed on the label is 
unwise.
    The University of Arizona, Northern Arizona University, and U.S. 
Forest Service will be engaged in research to test materials to prevent 
and control bark beetles in Arizona. When these studies are completed 
and reviewed the results will be released to the public as soon as 
possible.
    Many trees may only have the top half of the tree dead. Most often 
what happens is that the lower half of the tree will be killed shortly 
thereafter. Do not cut the top out of the tree hoping that the rest of 
the tree will recover. It is best to remove such trees to prevent the 
spread of beetles to other trees and to prevent them from becoming a 
hazard tree. You need not wait until the entire tree turns brown, many 
adult beetles may have flown from the tree before turning brown.
    Remember, the most effective method for preventing bark beetle 
infestations is to thin overly dense stands of trees. If you need more 
information please contact your local University of Arizona Cooperative 
Extension office, State Land Department, or your local fire department. 
Additional information can be found at the following web sites. http://
ag.arizona.edu/extension/fh/ or http://ag.arizona.edu/yavapai/

Contact:
Tom DeGomez, Forest Health Specialist
University of Arizona
928-523-8385
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="254140424a48405f6544420b44574c5f4a4b440b404150">[email&#160;protected]</a>
                                 ______
                                 

    [An attachment to Mr. Kolb's statement follows:]
    [GRAPHIC] [TIFF OMITTED] T5487.008
    
    [GRAPHIC] [TIFF OMITTED] T5487.009
    
    [GRAPHIC] [TIFF OMITTED] T5487.010
    
    Mr. McInnis. Mr. Gibson, you may proceed.

  STATEMENT OF KENT B. GIBSON, PULP AND PAPERWORKERS RESOURCE 
                            COUNCIL

    Mr. Gibson. Thank you. Good morning. My name is Kent Gibson 
from Snowflake, Arizona. I thank the House Resource Committee 
for this important field hearing and for the opportunity to 
express my concerns. I have worked for 30 years in the forest 
products industry. For 27 years I have been a member of the 
United Paperworkers International Union and the PACE 
International Union. Our memberships, working with our 
companies provide this country with high quality paper 
products. Today, I represent over 300,000 of my brothers and 
sisters who depend on wood fiber and timber to produce our 
products. I am currently serving on the national steering 
committee of the Pulp and Paperworkers Resource Council, a 
grassroots labor organization representing the interests of the 
nation's pulp, paper and solid wood products industry. We are 
dedicated to conserving the environment while taking into 
account the economic stability of the workforce and the 
surrounding community.
    The testimony I give today needs to be viewed within the 
framework of my section of the forest products industry, which 
is the pulp and paper industry of this country. I also ask that 
you remember that my counterparts in logging, lumber mills, 
plywood and particle board mills and other industries who 
depend on our national forest lands are experiencing problems 
equal to or greater than those I speak of today.
    In 1992, a group of five employees from Stone Forest 
Industries traveled to Washington, D.C. to meet with Members of 
Congress and discuss the serious problems facing our forest 
products industry.
    The hard fact is that within 5 years I was the only member 
of that group who had a job in the forest products industry. My 
friends who worked at sawmills here in Flagstaff, Eagar, 
Arizona and South Fork, Colorado, along with towns like 
Fredonia, Heber and Winslow were all losing their mills, a 
vitally important part of their social and economic viability.
    It is estimated that the two small lumber mills remaining 
in Arizona, which are not on the tribal lands, may produce 
about 2 percent of the 500 million board feet of timber 
harvested in Forest Service Region 3 during 1989. As alarming 
as this trend is to our state, the problem is not isolated to 
the forest products industries of Arizona. If you would look at 
this chart, in the last 10 years, 135 pulp and paper mills in 
the United States have closed. Since 1997, 30,000 people have 
lost their jobs in the pulp and paper industry. This represents 
30,000 people who have lost their primary source of income, 
hundreds of counties, cities and towns who have lost much of 
their tax base. This occurred despite the fact that the basic 
forest reserves had not declined.
    The mill that I work in chose to reconfigure our operation 
to 100 percent recycled operation. This decision in part was 
due to the difficulty in obtaining a reliable supply of wood 
for fiber. Paper mills have always used small diameter timber, 
thinnings and chipped wood to produce our products. In 1989, 
the Snowflake mill used an estimated 60,000 cords of pulpwood 
and 290,000 units of chips. A unit of chips is about 2400 
pounds. Which was an economic impact of $23 million. But in the 
1990's it became increasingly more difficult to secure 
contracts for wood needed to supply our operations. Arizona 
forests needed thinning but our mill was hauling chips from as 
far away as east Texas and Montana to supply our operation. The 
national impact of the loss of forest products revenue in just 
the pulp and paper mills is significant.
    In the past decade alone, much of the forest products 
industry in this state is gone. And without industry, there is 
no infrastructure to support the work that must be done to 
return the forests to sound health. We must realize that 
industry is a vital tool in the recovery of our forests. Some 
say that we can place the cost of forest health recovery on the 
taxpayers and require someone other than industry to help 
restore the forests. I ask why pay someone else to do the work 
when industry has a need for the resources and will produce the 
products used by every one of us.
    The areas that were most affected by the Rodeo-Chediski 
fire were not properly managed due to heavy restrictions. There 
is an absolute cause and effect relationship that exists 
between poor forest health and catastrophic wildfires. Had 
these forests been properly managed, we would not have seen the 
hundreds of thousands of acres destroyed in our state and the 
millions of acres across the Nation just last year. There are 
many tools needed to return our forests to a healthy condition, 
but we cannot forget three important tools which are thinning, 
controlled burning and logging.
    The members of the Pulp and Paperworkers Resource Council 
strongly support the President's initiative to prevent 
wildfires, return the forests to health and create stronger 
communities. There should be no place for catastrophic wildfire 
in our forest management philosophy. It is imperative that a 
healthy forest management plan be implemented in order to 
protect our forest resources throughout the United States.
    Thank you.
    Mr. McInnis. Thank you, Mr. Gibson.
    [Applause.]
    Mr. McInnis. I guess one who fully appreciates your 
testimony, Mr. Gibson, is somebody without a job. Most of us in 
this room are fortunate enough right now to have jobs, but your 
testimony is moving and it does have--in my beginning comments, 
I talked about what I called the economic--the environmental 
impact, but it certainly has an economic impact on people of 
your trade. Thank you very much for your testimony. I think you 
spoke well on behalf of your colleagues that you represent.
    [The prepared statement of Mr. Gibson follows:]

   Statement of Kent B. Gibson, Pulp & Paperworkers Resource Council

    Good afternoon, my name is Kent Gibson from Snowflake, Arizona. I 
thank the House Resource Committee for this important field hearing and 
for the opportunity to express my concerns. I have worked 30 years in 
the forest products industry, and I am currently employed by a large 
paper mill as an instrument and controls technician. For 27 years I 
have been a member of the United Paper workers International Union and 
the PACE international union. Our membership working with our companies 
provide this country with high quality paper products. Today I 
represent over 300,000 of my brothers and sisters who depend on wood 
fiber and timber to produce our products. I am currently serving on the 
national steering committee of the Pulp and Paperworkers Resource 
Council, a grassroots labor organization representing the interests of 
the nation's pulp, paper, and solid wood products industry. We are 
dedicated to conserving the environment while taking into account the 
economic stability of the workforce and surrounding community.
    The testimony I give today needs to be viewed within the framework 
of my section of the forest products industry, which is the pulp and 
paper industry of this country. I also ask that you remember that my 
counter parts in logging, lumber mills, plywood and particle board 
mills, and other industries who depend on our national forest lands are 
experiencing problems equal to or greater than those I speak of today.
    In 1992 a group of five employees from Stone Forest Industries 
traveled to Washington D.C. to meet with members of congress and 
discuss the serious problems facing the forest products industry. The 
hard fact is that within 5 years I was the only member of that group 
who had a job in the forest products industry. My friends who worked at 
sawmills here in Flagstaff, Eagar, Arizona, and South Fork Colorado, 
along with towns like Fredonia, Heber, and Winslow were all losing 
their mills a vitally important part of their social and economic 
viability.
    It is estimated that the two small lumber mills remaining in 
Arizona may produce about 2 % of the 500 million board feet of timber 
harvested in Forest Service Region 3 during 1989. As alarming as this 
trend is to our state, the problem is not isolated to the forest 
products industries of Arizona. In the last 10 years at least 135 pulp 
and paper mills have been closed in the United States. (See attachment 
A.) Since 1997 more than 30,000 people have lost their jobs in the pulp 
and paper industry. (See attachment B.) This represents 30,000 families 
who have lost their primary source of income, hundreds of counties, 
cities, and towns which have lost much of their tax base. This occurred 
despite the fact that the basic forest reserves had not declined.
    The mill that I work in chose to reconfigure our operation to 100% 
recycle fiber. This decision in part was due to the difficultly in 
obtaining a reliable supply of wood for fiber. Paper mills have always 
used small diameter timber, thinnings, and chipped wood to produce our 
products; in 1989 the Snowflake mill used an estimated 60,000 cords of 
pulp wood and 290,000 units of wood chips, an economic impact of 
$23,443,000.00. But in the 1990's it became increasingly more difficult 
to secure contracts for the wood needed to supply our operations. 
Arizona forests needed thinning but, our mill was hauling chips from as 
far away as east Texas and Montana to supply our operation. 39,500 
cords of wood and 182,400 units of chips were used in the final year of 
timber based operation, 1997, with an economic impact of 
$24,139,000.00. The national impact of the loss of forest products 
revenue in just the pulp and paper mills is significant.
    In the past decade alone much of the forest products industry in 
this state is gone. And without industry there is no infrastructure to 
support the work that must be done to return the forests to sound 
health. We must realize that industry is a vital tool in the recovery 
of our forests. Some say that we can place the cost of forest health 
recovery on the taxpayers and require someone other than Industry to 
help restore the forests. I ask why pay someone else to do the work 
when industry has a need for the resources and will produce the 
products used by every one of us.
    The areas that were most affected by the Rodeo-Chediski forest fire 
were not properly managed due to heavy restrictions. There is an 
absolute cause and effect relationship that exists between poor forest 
health and catastrophic wildfires. Had these forests been properly 
managed we would not have seen the hundreds of thousands of acres 
destroyed in our state and the millions of acres across this nation 
just last year. There are many tools needed to return our forests to a 
healthy condition, but we cannot forget three important tools which are 
thinning, controlled burning, and logging.
    The members of the Pulp and Paperworkers Resource Council strongly 
support The Presidents Initiative to prevent wildfires, return the 
forests to health and create stronger communities. There should be no 
place for catastrophic wildfire in our forest management philosophy. It 
is imperative that a healthy forest management plan be implemented, in 
order to protect our forest resources throughout the United States.
Attachment A:
    Summary of jobs lost in the western United States--Oregon, Idaho, 
Washington, and California
    Total Mills closed--396
    Total Mill jobs lost--35,610
    Total Logging jobs lost--10,942
    Total jobs lost--46,552
Attachment B:
    U.S. Paper Mill shutdowns by year--American Forest and Paper 
Association
    Employment at Pulp and Paper Mills--Bureau of Labor Statistics
Attachment C:
    Table 102--USDA Forest Service--1989-2000
Attachment D:
    Pulp & Paperworkers Resource Council Position on Forest Health
                                 ______
                                 
                                 [GRAPHIC] [TIFF OMITTED] T5487.003
                                 
                                 [GRAPHIC] [TIFF OMITTED] T5487.004
                                 
                                 [GRAPHIC] [TIFF OMITTED] T5487.005
                                 
                                 [GRAPHIC] [TIFF OMITTED] T5487.006
                                 
    Mr. McInnis. Mr. Ack, thank you for coming and you may 
proceed.

  STATEMENT OF BRADLEY L. ACK, SENIOR PROGRAM DIRECTOR, GRAND 
                          CANYON TRUST

    Mr. Ack. Thank you, Mr. Chairman and members of the 
Subcommittee, thank you for inviting me to testify here this 
morning.
    My name is Brad Ack and I am the Senior Program Director 
with the Grand Canyon Trust, it is a regional conservation 
organization based here in Flagstaff. We have been involved in 
the forest ecosystem restoration issue for sometime now and we 
are one of the founding members of the Grand Canyon Forest 
Partnership. I am the Vice President to Tom's Presidency on the 
Board of the Forest Partnership. We also serve on the Advisory 
Board, the Governor's Forest Health Advisory Committee and on 
the Centennial Forest Advisory Committee.
    I want to make three key points in addition to what I have 
submitted in my written testimony.
    First, absolute agreement there is an ecological crisis on 
the southwestern ponderosa pine forest. I think you have heard 
that overwhelmingly today and I think there is broad agreement. 
I differ in saying that it is the result of management, not 
unmanaged forests. And I think that point has not been made 
today. We got to where we are today because of the management 
practices that we have engaged in over the past century, and we 
need to keep that in mind as we move forward toward solutions.
    Secondly, the National Environmental Policy Act is not the 
problem, from our perspective as an organization that has been 
working through it for sometime. It is really the 
implementation and the management of the National Environmental 
Policy Act that has been a problem. And I am going to talk 
about that in more detail, and provide some suggestions for 
solutions.
    And then finally, to reiterate Tom's point, building 
markets and utilization of small diameter wood is going to be 
absolutely essential to getting restoration done at the scale 
and at the pace that Dr. Covington spoke of. Without those 
markets, it will not matter what we do to NEPA, it will not 
matter what we do to our forest management practices, the wood 
is not going to come out of the forest.
    So first, the ecological crisis, we do urgently need to 
address it, we all agree with that. But where we are today is 
the result of some of the past management. We have these very 
high densities of small trees in the southwest because of 
exclusion of fire due to the removal of fine fuels, suppression 
of fire, the removal of the old growth forest structure which 
people have talked about here, the extirpation of predators, 
extensive building of roads which has led to much of the 
invasive weed colonization and so forth. Those are the 
management practices of the past that have led to some of this 
crisis and what we recommend and what the Grand Canyon Forest 
Partnership--Greater Flagstaff Forest Partnership works on is 
comprehensive ecological restoration; not just thinning and 
burning, that is an absolutely essential piece, but we have to 
look at the bigger system, we have to look at the rest of the 
values across the system, we have to look at wildlife and 
wildlife habitat, we have to look at ecological values like 
springs and rare species and so forth.
    That is what we have been trying to do here in the 
Flagstaff region. We have broad support, Tom mentioned 25 
organizations that are part of that effort. And it also means 
that we do not repeat the mistakes of the past that got us to 
this present forest condition, and I think that is very 
important as we go forward in the next century of forest 
management.
    Second point about NEPA, we have found in our experience 
that the Forest Service--and we have great colleagues on the 
Forest Service and wonderful working relationships, but they 
are not adequately staffed to do NEPA at the scale and the pace 
that we need in this region. We are taking up to 2 years to get 
environmental assessments and environmental impact statements 
through the process. That is before we get to any of that 
potential delay associated with appeals and litigation. That is 
just doing to documentation. I have colleagues in the Forest 
Service who tell me they should be able to do it in 3 months, 
so 2 years versus 3 months.
    Our suggestion, and it is in some legislation that we are 
working on with Senator Jon Kyl, which I hope you all have 
copies of, proposes better funding and dedicated teams for the 
Forest Service to do NEPA. We have a pilot project here in the 
southwest, we call it a Super NEPA team. Essentially is a group 
of people who do nothing else but environmental planning for 
forest restoration. And they guarantee a certain number of 
projects will get through the mill every year, will get 150,000 
acres a year or 200,000, 500,000 whatever the number is, will 
get that number done on an annual basis through the 
environmental planning process, and will have the staff to do 
it. They will not be taken off to fight fires, as they are now, 
five or 6 months a year leaving the planning process 
essentially on hold. We will have the right expertise, they do 
not use lawyers right now on these teams, and we need to have 
lawyers on these teams. Obviously the legal questions in NEPA 
are very important. We need to have conservation biology, we 
need to have GIS.
    So we are suggesting better funding of dedicated teams to 
do NEPA right rather than saying let us throw NEPA out. Let us 
not throw the baby out with the bath water here. There are 
problems with the implementation, but it is more, in our 
perspective, in the management and the allocation of resources 
to NEPA.
    Finally, on markets, we have been studying the market issue 
in this region for a number of years now. Again as part of the 
Greater Flagstaff Forest Partnership, we have spent National 
Fire Plan dollars to look at this situation. There are a number 
of ways to utilize this material, it is happening in many other 
parts of the country, many other parts of the world. It is not 
happening much in the southwest in large part because of the 
uncertainty. That NEPA compliance team would help deal with the 
uncertainty. But it is going to take some co-venturing from the 
Federal Government here. This is low margin investment when you 
consider the high risk, the high downside. The upside is not so 
great, we need some co-venturing here and this proposed 
legislation that we have been working on with Senator Kyl talks 
about the creation of essentially a small corporation to do co-
venturing with the private sector on establishing small 
diameter utilization enterprises. We think that that coupled 
with this more coordinated planning effort and more assured 
supply of small diameter is going to really make the difference 
in getting restoration done at the scale and at the pace that 
we all agree it needs to be done at.
    So thank you very much for your attention this morning.
    [The prepared statement of Mr. Ack follows:]

  Statement of Bradley L. Ack, Program Director, Grand Canyon Trust, 
                           Flagstaff, Arizona

    Chairman and Members of the Subcommittee, thank you for the 
opportunity to testify here today. My name is Brad Ack and I am the 
Program Director at Grand Canyon Trust. Grand Canyon Trust is a 
regional conservation organization dedicated to the protection and 
restoration of the canyon country of the Colorado Plateau. We have a 
long and proud history of seeking pragmatic solutions to difficult 
environmental problems.
    The Trust has been proactively working to restore degraded and fire 
prone forests in northern Arizona since 1997. We are very concerned 
about the risks of catastrophic, or stand replacing fires in this 
region as they have the capacity to destroy all that we work to 
conserve. Our efforts on forest restoration include founding the Grand 
Canyon Forests Partnership (now the Greater Flagstaff Forests 
Partnership) in cooperation with the U.S. Forest Service in 1997 and 
subsequently becoming involved in all aspects of ecological 
restoration--from project design, implementation and monitoring to 
hiring thinning contractors and providing low-interest loans to local 
small-diameter wood processors.
    Grand Canyon Trust holds seats on the Greater Flagstaff Forests 
Partnership's corporate and advisory boards and serves on the Arizona 
Governor's Forest Health/Fire Plan advisory committee and Northern 
Arizona University's Centennial Forest's advisory committee.
    The following testimony is based on our empirical knowledge of 
what's needed to increase the scale, pace, and quality of ecological 
restoration in degraded southwest ponderosa pine forests.
    This testimony will address (1) causes and symptoms of the current 
ecological situation, (2) what we should do about it, (3) how we get 
there from here, (4) obstacles we've encountered and solutions to these 
obstacles. This testimony is based directly on our six years of 
experience to achieve forest ecosystem restoration in the ecological, 
social, and economic environment of northern Arizona. It may or may not 
be applicable to other parts of the country with different ecological, 
social, and economic circumstances.
I. There is indeed an ecological crisis in the Ponderosa pine forests 
        of the Southwestern United States.
    The causes of this ecological crisis include fire exclusion due to 
removal of fire-carrying grasses and forbs by livestock; active fire 
suppression; removal of the dominant old-growth forest structure; 
predator extirpation; and road building.
    The symptoms of this crisis include dangerous accumulations of 
hazardous fuels; high densities of small trees; too few large and old 
trees; declining native biological diversity; and increasingly large 
and severe fires affecting human and ecological communities. Severe 
fires are but one symptom, albeit the most obvious, of an ecosystem in 
rapid decline.
II. What Do We Need to Do About This Problem?
    We need to place an extremely high priority on restoring degraded 
and fire prone ecosystems. Ecological restoration is the process of 
assisting the recovery of an ecosystem that has been degraded, damaged 
or destroyed. We urgently need to undertake that process at a scale 
that is commensurate to the degradation and fires we are now witnessing 
in Southwest ponderosa pine ecosystems.
    Ecological restoration is not necessarily synonymous with fire 
prevention or fuels reduction; research has shown that different types 
of fuel reduction treatments can have different consequences for fire 
behavior, biodiversity, wildlife habitat, tree vigor and forest health. 
Except in areas immediately adjacent to communities, fuels reduction 
strategies need to be consistent with broader ecological restoration 
goals including conserving the diversity and resilience of native plant 
and animal communities, safely re-establishing the natural variability 
of fire regimes and tree recruitment, and facilitating the development 
old-growth forest structure. Ecological restoration should also entail 
rehabilitation and protection of rare and rich biological communities 
like springs, riparian areas, and meadows.
    Effective solutions address both the symptoms and causes of a 
problem; reversing the declining health of southwest ponderosa pine 
ecosystems must also include taking a hard look at those activities 
that may be contributing to further decline such as livestock grazing, 
road building and road management, and recreation management. If we are 
serious about restoring these forests, we need to deal with the 
fundamental causes of their decline, and not just the symptoms. We 
should not repeat the actions that got us to this point in the first 
place.
III. How Do We Get There From Here?
    Our experience in the Greater Flagstaff Forests Partnership 
indicates that in order to be successful, ecological restoration must 
be ecologically sound, scientifically defensible, socially acceptable, 
and economically viable. Some key elements of a successful restoration 
program include:
    <bullet> LParticipatory processes based on involving a diversity of 
stakeholders;
    <bullet> LDeveloping and then working from a common ecological, 
social, and economic vision;
    <bullet> LAn adaptive management framework with clear science-based 
guidelines by which to monitor, evaluate, design, implement and improve 
treatments;
    <bullet> LErring on the side of caution when faced with 
uncertainty;
    <bullet> LFocusing on areas of broad agreement, or ``the radical 
center'': for example, we have very broad agreement to do restoration 
in this forest type when thinning is limited to young trees smaller 
than 16'' dbh.
    <bullet> LCongressional, state, local, university, and non-
governmental support of community-based restoration efforts.
IV. What Are the Main Obstacles We Have Encountered?
1. Our experience indicates that agency management of the NEPA process, 
        rather than the regulatory environment of NEPA itself, is a 
        problem.
    There are systematic management and personnel problems within the 
Forest Service unrelated to the regulatory environment of NEPA that 
affect the quality, effectiveness, and efficiency of planning. These 
include (1) fragmented and delayed analyses due to personnel transfers 
and/or re-assignments (most notably to fight fire); (2) inadequate 
staffing levels and prioritization; and, (3) lack of relevant expertise 
(law, conservation biology) utilized during the planning process.
    These problems result in (1) extremely slow execution of the NEPA 
process, (2) avoidable mistakes that subject decisions to legitimate 
and time-consuming appeals and litigation and (3) analyses that are 
marginally commensurate to the guiding intent of NEPA or to 
contemporary principles of conservation science.
    Our purpose here is not to be overly critical of the Forest 
Service. Our purpose is to provide an honest assessment so that 
appropriate solutions may follow. Until these problems are resolved and 
careless mistakes are prevented, well-intentioned projects will 
continue to be legitimately appealed, litigated, and delayed--
regardless of the regulatory environment in which they occur. Changing 
or circumventing regulations will not prevent careless mistakes or the 
appeals and/or litigation that result from them.
    Our oral testimony will detail two cooperative projects between the 
Coconino National Forest and the Greater Flagstaff Forests Partnership 
that exemplify these problems. The first of these, the Kachina Village 
Forest Health Project, has taken two entire years to move from initial 
scoping to final EIS. The second, the Fort Valley Ecosystem Restoration 
Project, was riddled with avoidable mistakes that resulted in two 
successful appeals and one successful lawsuit.
    Our recommendation: Do NEPA correctly according to existing 
regulations and authorities by creating a regional NEPA teams whose 
sole purpose is to ensure efficient, high-quality NEPA analyses for 
ecological restoration and fuels reduction projects. Such teams would 
consist of experts solely dedicated to executing NEPA analyses and 
decisions who would not be available for other duties such as fire 
assignments.
    Our recommendation: Utilize new data and tools for computer-based 
mapping that can clarify scientific uncertainty, place restoration 
projects within a larger ecological context, and when employed in NEPA 
analysis, enhance the quality and transparency of analyses underpinning 
decisions, thereby also advancing public understanding, dialogue, and 
support of restoration efforts.
    Fires are now occurring at the landscape scale. We need to conduct 
analyses at similar scales, using the best available science to 
strategically prioritize restoration projects and understand their 
effects within a landscape context. Better science will not slow down 
the process of restoring and protecting our forests. To the contrary, 
it will allow us to increase our ability to think bigger and think 
better at the same time.
    Thanks to support from Senator Jon Kyl and the Northern Arizona 
University Ecological Restoration Institute, Northern Arizona 
University's Sisk Laboratory for Conservation Biology and Landscape 
Ecology is developing such a capability for Southwest ponderosa pine 
forests.
2. Lack of markets for small diameter wood
    While restoration cannot be expected to fully pay for itself, 
offsetting the costs of implementation by creating value from small 
logs can determine the economic viability of projects. Our experience 
clearly indicates that without the development of a new sector based on 
the utilization of small diameter wood in the Southwest, we will not 
get the restoration work done at the scale and pace we need it to be 
done, and the Forest Service will continue to need to cut large trees 
to finance fuels reduction work. This is certain to cause serious 
conflict and delay, while also being unjustifiable ecologically.
    Our recommendation: Create a Small Log Enterprise Development 
Center to provide financial and technical assistance to nonprofit 
organizations, small enterprises, and individuals throughout Northern 
Arizona to promote the creation of enterprises that use, and provide 
value-added processing for, small diameter logs that are removed from 
covered forests through fire risk reduction and forest restoration 
efforts. Help to create an adequate site for such businesses to co-
locate and share infrastructure resources. Without government 
assistance, private sector money is unlikely to flow into this needed 
enterprise.
    These recommendations are the subject of a draft piece of 
legislation formulated by the staff of Senator Jon Kyl and ourselves. 
It is entitled the Forest Health, Restoration and Small Enterprise 
Development Act.
    Thank you for inviting me to speak in front of the Committee today.
                                 ______
                                 
    Mr. McInnis. Mr. Ack, I especially appreciated your 
comments in regard to the teamwork, community effort, the 
corporation. You have got some excellent ideas, thank you for 
your testimony.
    I now ask that the panel--sorry to do this to you, but if 
you all would not mind standing by the podium up there. And Mr. 
Chairman, you can begin the questioning. Members, we have 30 
minutes, so I think we can go five or 6 minutes, if you would 
like.
    Mr. Pombo. Thank you, Mr. Chairman. I will just tell you 
this is some of the best testimony that I think I have ever 
heard on this issue, from this panel. You all did a fantastic 
job.
    I would like to start with Dr. Moore, if I could, and talk 
a little bit about the management of our forests and what is 
involved with doing. I think in my mind and what we have tried 
to come up with in producing legislation on the healthy forests 
is a way of taking all of the ideas that we have heard here 
this morning and putting those together and stepping in and 
trying to manage some of the mismanagement that has occurred in 
the past. And I know that you have quite an extensive 
environmental background in protecting our world's resources.
    How do you feel about taking a lot of these ideas and 
putting it together in a management plan that is developed 
locally, that you are bringing local people and making them 
part of the process, both the process of planning it and the 
actual work that has to be done in making that work on a local 
basis so that when you look at it on a macro basis, it is 
actually working?
    Mr. Moore. I strongly believe that short of transferring 
ownership of Federal lands, that it is very important to 
devolve the management authority and the management planning 
down to a more local level. In other words, national forests 
and BLM land should be grouped into geographically reasonable 
sizes that can be managed at more the state level. Of course, 
there has to be rules that the landlord puts on that you cannot 
go outside of, but the management plan should be done at the 
local level.
    One of the biggest flaws institutionally with the Federal 
land is the ownership structure and the fact, as I mentioned, 
that the people are in the east, the land is in the West and 
when it comes to votes in Congress, it is almost always 
satisfying often distant priorities and it is easy to make 
yourselves look green when none of your constituents suffer 
from the decisions you are making. And that is what has 
happened time and time again.
    On the other hand, the Forest Service, being this huge 
national organization with people moving from one district to 
another through their careers, the question is who is the 
steward? It is not the contractors in the private sector 
because they are just bidding on jobs. And it is not the Forest 
Service in many cases because the individuals in the--I mean 
you to go Europe and Canada, my home country, very often you 
will have an individual forester managing the same area of land 
for their whole career. Then you get institutional memory being 
built into the system. Whereas, if you try and manage the thing 
on a Federal level. you often lose the ability to have a 
steward in the system.
    Mr. Pombo. Thank you. I think I would prefer that we break 
it down even further than what you are suggesting, and take 
smaller regions and manage them in a very small region, where 
you do have the mayor or the chairman from the local tribe, and 
the local environmental group, and you have these people that 
actually live and work in that community that get together and 
develop management plans. And we do have a national standard, 
and I do not think anybody is talking about doing away with the 
national standard. But the actual planning process, bringing in 
people who actually live and work in that community, to make 
those decisions. And how do they meet that national standard 
and have a healthy forest locally.
    I am sure that in your years of experience in this, that 
you have found that the people who care the most about that 
forest or that environmental problem are the people who 
actually live there. That is why they are there.
    Mr. Moore. That is often the case, but I just point to the 
Quincy Library Group as a classic case of people organizing at 
a local level, but without going into the byzantine nature of 
the situation, it has still been very difficult for them to 
move forward in the way they should because of the complexities 
of the Federal laws and the Forest Service institution itself. 
It has got to be streamlined, is really what it comes down to.
    So the two main themes I would stress are devolution of the 
management authority to a more local level and streamlining the 
process so that we can get on with the job that everybody seems 
to know has to be done.
    Mr. Pombo. Thank you very much.
    [Applause.]
    Mr. McInnis. Thank you, Mr. Chairman. Mr. Gibbons.
    Mr. Gibbons. Thank you very much, Mr. Chairman, and to our 
witnesses, thank you for appearing here today.
    I have--or would like to begin questioning Mr. Gibson 
because I think of anybody here who has the expertise to decide 
on how to create a small business market with regard to small 
diameter trees, you, more so than we in Congress or any of the 
experts with Ph.D.s, could give us some insight on that.
    So what would you recommend? How can we help create a small 
diameter local tree market that would utilize the experience of 
the industry to help with all of this, and are there certain 
roadblocks that you have experienced in your history or your 
background, such as regulations or whatever, that we need to 
remove? What would you suggest we do to create a local small 
diameter tree market?
    Mr. Gibson. Well, first of all, there is an unfriendly 
attitude toward industry as a whole. Industry is vilified as 
the bad guys. If you say logger, it is a bad word to a lot of 
people. So you have to have a philosophy change that says hey, 
these guys are trying to help us, so what can we do to help. 
Can we give them, you know, contracts that last long enough to 
pay for their investment. Those kind of things are difficult to 
get at this time because we do not know where we are going to 
get our resources from. And so before you can put out those 
kind of investments, you have to have guarantees.
    Mr. Gibbons. Are lawsuits a current threat and a problem to 
you?
    Mr. Gibson. Lawsuits are not a current threat to me, but to 
the industry as a whole, I think they are a major problem.
    Mr. Gibbons. Thank you, Mr. Gibson. Let me turn a quick 
question over to Dr. Kolb, I appreciated your testimony.
    With regard to the pine bark beetle, Doctor, once these 
beetles are found in trees, as we see here in this local 
community, what is the proper treatment?
    Mr. Kolb. Well, once beetles are in a tree, that tree is 
dead, you cannot pump any kind of insecticide into the tree, 
even though some people try to sell you on that. It is not 
effective. Once there are large numbers of beetles in a tree, 
that tree is dead. The best thing to do is to rapidly cut that 
tree down and treat the wood and the branches in a way that the 
beetle larvae that over-winter in the tree will be killed.
    Some of the guidelines that I attached to my testimony go 
over how one might do that. You can pile that material and burn 
it, you can debark it so the phloem that the beetles live in 
dries up and that will kill the insects in the wood.
    Mr. Gibbons. Sounds like an expensive process.
    Mr. Kolb. Well, it is. For a homeowner that has a few high 
value trees that they want to protect or for a campground. If 
the trees are not attacked, you can spray the trees with the 
proper insecticide. The spraying has to be done by a licensed 
applicator, it is fairly expensive also; it runs $50 to $80 per 
tree locally. And people are doing that when they have high 
value trees that they want to save. But once a tree is 
attacked, none of that will work.
    Mr. Gibbons. Thank you, Dr. Kolb. Dr. Covington, I 
appreciated your comments with regard to the acreages that you 
experience or believe need to be treated.
    The Ninth Circuit Court of Appeals, which includes the 
Arizona area, Nevada, Utah, California, most of the West, has 
recently ruled that a maximum of 5000 acres can be treated 
before you have to go through this long delay, full blown EIS 
process.
    In your opinion, is there anything magical about a 5000 
acre limitation? Is that something that has some scientific 
connotation to it that would allow the Court to make that 
decision?
    Mr. Covington. I am unaware of what their logic was. All I 
can--what I can say though is that if we are limited to 5000 
acre treatments, there is no way we are going to get on top of 
this problem. We really do need to be looking at the scale of 
hundreds of thousands of acres as treatment units.
    Mr. Gibbons. So you feel, as most of us who look at it from 
a layman's point of view, but you from a scientific point of 
view, that it was an arbitrary limitation.
    Mr. Covington. Again, I do not know what their rationale 
was. But, you know, if we were in 1950, a 5000 acre treatment 
unit for planning and analysis and treatments might work, you 
have got enough time to do it. But in 2003, 5000 acres, these 
are just postage stamps in huge landscapes that are at threat.
    Mr. Gibbons. Thank you. Thank you, Mr. Chairman.
    Mr. McInnis. Thank you, Mr. Gibbons. Mr. Walden, you may 
proceed.
    Mr. Walden. Thank you, Mr. Chairman.
    First, I wanted to thank--is it Ms. Cassatt? I wanted to 
thank you for your comments on noxious weeds, an enormous 
problem in my district and throughout a lot of the rural west, 
so I appreciate your suggestions and your comments and I know 
in the President's budget, there is a significant increase this 
year over last year in funding to deal with this issue. So 
hopefully we can make some progress there.
    I wonder if I could ask a question of both Dr. Covington 
and Dr. Kolb. One of the issues that is moving forward here 
deals with diameter size and I know as we get into some of 
these management projects, I begin to hear, well, we want to 
save certain diameter width and I have seen some displays where 
there are old growth trees, and the concept is to manage to old 
growth, the LSR situation in Oregon and all. And yet, we have 
suppressed fire for 100 years and a lot of these trees are 
about 100 years old, so we have been in play, as Mr. Ack would 
say, in terms of interfering. Now you have got 100 year old 
trees next to each other. How do you choose among them and do 
you, and is diameter of the trees at breast height really the 
best way to manage for forest health? And if not, what is?
    Mr. Covington. First, the diameter--there is no widespread 
rule of thumb about what diameter trees should be removed or 
should be left. The point that Tom made in his testimony is 
something that I have been pretty fervent about for some time, 
is that the old growth population crash has occurred at about 
the same pace that the post-settlement population eruption has 
occurred. So as young trees have increased, old trees have died 
due to competition and fire and logging operations.
    So I think it would be unwise to try to set any kind of 
national diameter limit.
    Mr. Walden. So would you manage to a specific area within a 
forest, so area-by-area, pre-fire suppression, pre-settlement; 
is that the best way to do this?
    Mr. Covington. That is a starting--a starting point should 
be reference conditions, the kinds of conditions that were 
present before fire regime disruption was put into place. And 
then you would deviate from that for specific reasons. You 
might leave more or less trees to achieve specific management 
goals.
    So, you know, I think what we have to realize is that the 
diameter limit is mostly related to commercial value, and most 
of the people that are arguing for diameter limits are really 
more concerned about the development of the wood products 
industry with the possibility that once the trees that need to 
be removed for forest health restoration, once those have been 
removed, that then there would be pressure to remove even more 
trees, to start removing the trees that are needed for 
conservation purposes.
    Mr. Walden. Can we hear from Dr. Kolb as well, and then I 
have a final question for Mr. Ack.
    Mr. Kolb. Well, one thing that Wally has taught me is that 
one way to spot old growth ponderosa pine trees very easily is 
they are trees that have yellow bark and big plates on them. 
And if you do that in this area, you are almost always talking 
about a tree that is 120-plus years old. Oftentimes, they are 
200 to 300 years old.
    In our Greater Flagstaff Forest Partnership projects, we do 
not cut those trees ever, because they are valuable and they 
are easy to identify.
    I guess the other point I would add is I think there is 
probably far too much energy spent debating about guidelines to 
use in cutting trees that are 16 to 20 inches in size. We spend 
a lot of energy talking about these issues, but biologically on 
most projects, it really does not matter whether you draw that 
line at 16, 17, 18, 19 or 20 inches, it is just not that 
important. It is an important hot button issue for some 
environmental groups because of the issues that Wally just 
raised about the fear that we are going to have industry 
addicted to large diameter sawlogs again and it is going to 
cause management problems in the future.
    That is my perspective on it.
    Mr. Walden. Mr. Ack, if I could ask you, you raise this 
issue of NEPA appeals and the need for more staffing, and I 
will read through the bill that you and Senator Kyl are working 
on obviously.
    But my experience has been that no matter what the 
professional foresters do, no matter how much time they put 
into a NEPA document, EA and EIS, the litigation appeals flow 
endlessly, regardless of what they do.
    So my question is, is there a way to break that cycle of 
litigation? We are trying to do it through some of the 
legislation we are proposing for better disclosure, more 
involvement up front, time limits on the amount of appeals, and 
requiring those who want to appeal to actually participate up 
front in the process, in order to have standing to appeal, to 
end the postcard appeal that caused so much problem.
    But I would appreciate your comments on that.
    Mr. Ack. I think those are all worthy solutions or worthy 
proposals. One thing is stick to areas where there is broad 
social agreement and there will be much less appeals. And this 
issue of large diameter trees versus small is a social issue 
more than a biological issue, as I think you have just heard 
from the two forest ecologists. But it is an important social 
issue and every time we put it on the table, we are going to 
attract people who are willing to do whatever it takes to stop 
the project.
    We can get 90 percent of the way there if we stick to small 
diameter trees and boy, with the government, 90 percent is a 
great distance. So I think that--
    Mr. Walden. That is how much we have shut down now, so 
yeah, it would be nice to reverse that.
    Mr. Ack. Absolutely.
    Mr. Walden. Let me close with one comment, that we had an 
appeal in my district of 50 trees that were cut by the 
firefighters to fight a fire, and when they went to simply take 
those that had already been cut, out and get some value out of 
them, that was appealed. I mean this system is out of control 
right now and it has got to be changed.
    [Applause.]
    Mr. McInnis. We need to move on. Mr. Walden, I completely 
agree with you. We somehow have got to condition society to 
move from emotional management of our forests to scientific 
management of our forests. I noticed your comment, let us go to 
an area where it is socially acceptable. I have yet in my term 
of chairmanship ever found anything, when you mention thinning, 
that is socially acceptable to certain sects out there, groups 
out there. You may respond to that very briefly and then we 
will move on.
    Mr. Ack. The only response is you can also do the documents 
in a way that the appeal takes 30 days to run its course and it 
is denied and there is no further follow up, if you do not make 
any mistakes in the documentation.
    Mr. McInnis. You are right, and that is why that team work, 
and I like the concept in your bill of putting a team out 
there, and I like the concept--well, I happen to be an 
attorney, I think there is some housecleaning that needs to 
happen out there, and I do like the concept of putting some 
people on the ground with some legal expertise to try and get 
it done right the first time.
    [Applause.]
    Mr. McInnis. Mr. Hayworth.
    Mr. Hayworth. Thank you, Mr. Chairman, and I thank Brad 
Ack, I thank my friend from Oregon for really highlighting the 
issue. Brad, thanks for working proactively with Senator Kyl.
    But I share the lament, having worked on these issues for 
the better part of a decade, in a time when we were simply 
discussing in theory around here what happened, and it is even 
now, with the salvage of dead trees, a group from New Mexico, 
not even Arizonans, have filed suit to stop the process. And 
there reaches a point where you hear all sorts of terms bandied 
about, but I think it is fair to ask, who is the extremist in 
this instance, when you ignore forest health and safety of a 
population. It seems to me a context of reasonableness, what 
the reasonable person test is, and sadly, some evade all 
reason, no matter how noble the efforts are to get the legal 
documents to perfection. There is no reasoning with those who 
will not reason. And that has brought us to where we are today.
    Let me turn to Dr. Covington very quickly. Wally, some 
years ago--and I mentioned it in my opening remarks and I think 
it might bear some amplification--you talked about a scenario 
where the fire, the incendiary fire storms of Dresden that we 
saw in World War II, the horrific nature of the bombing that 
went on there and the storms whipping up of their own volition 
after the fires were started--that type of scenario could be 
visited on a city like Flagstaff. If we took the nature of the 
acreage affected by the Rodeo-Chediski fire, what would that 
fire have done to Flagstaff?
    Mr. Covington. Well, I actually have a graphic of that back 
up here on the wall. If you take--maybe I will just wait until 
I get that.
    [Pause.]
    Mr. Covington. Thank you. This is a half million acre, 
centered in the fire shed of Flagstaff, so the greater 
Flagstaff ecosystem or the greater Kachina Peaks ecosystem, 
whatever you want to call it. So the fires come up from the 
southwest out of Sycamore, Oak Creek Canyon, burn up threatened 
500,000 acres. This is the San Francisco Peaks, this is the 
City of Flagstaff, Williams, Navajo Army Depot, and this would 
entail three wilderness areas, three national monuments, four 
cities, Cochina, Mountain Air, all of that area could 
reasonable be burned in a fire of that size.
    And what we have to understand is this is not a theoretical 
scenario, this absolutely is going to happen unless we do 
something about it. And we do not have much time.
    I was staggered by last year's fire season. I really did 
not think we would see half a million acre fires for about 
another 20 or 30 years, as the landscape filled in. But it is 
here, this is our reality today.
    Mr. Hayworth. Thank you, Dr. Covington.
    Let me just close by thinking my friend Kent Gibson, long 
time constituent until the realignment, now Mr. Renzi's 
constituent.
    I just want to thank everyone for coming and for offering 
positive solutions and I think the challenge is to find what is 
reasonable and like minded or good hearted people with this 
intent, I think can agree on what is reasonable and the time 
does call for bold action.
    Thank you very much, Mr. Chairman.
    Mr. McInnis. Thank you, Mr. Hayworth. Mr. Renzi, you may 
proceed.
    Mr. Renzi. Thank you, Mr. Chairman. I want to thank the 
panel also for your testimony, in particular Dr. Covington, for 
a statistic that you gave us, which is that five to ten million 
acres of forest needs to be treated in order for us to get back 
to a healthy forest and to a balance, a holistic balance in our 
environment.
    Mr. Gibson, your testimony was compelling. The idea--I 
think we all agree that the timber industry must work in 
partnership with the local communities and with the 
environmentalists in order to strike a balance that we can get 
there together, is an absolute.
    I also want to point out that in northern Arizona, we have 
got to fund a way to bring back a reasonable timber industry. 
It is absolutely important for our economy and our jobs and in 
order for small businessmen to make those kind of capital 
investments that it is going to need, they are going to need 
the guarantees of 10 to 15 years worth of products. In order to 
have 10 or 15 years worth of products, we have got to free 
ourselves from the environmental lawsuits that year in and year 
out are used to obstruct.
    Therefore, Mr. Ack, it is encouraging to hear you talk 
about having a super NEPA team, including legal experts that I 
am guessing would somehow be able to draft legislation or would 
have some sort of binding mediation so we do not end up in this 
litigious society that we see ourselves in right now.
    Mr. Ack. Well, the team, the way it is set out in that 
draft legislation, would have the legal skills to be able to 
know what the case law is, to avoid the simple mistakes that 
the people who want to obstruct these processes hang their hats 
on. It is really not that hard when there is gaping errors made 
or glaring errors because the case law changes quickly and the 
Forest Service staff, as has been pointed out I think by Dr. 
Moore, clearly move around, they have different 
responsibilities and they are not legal experts. So our 
proposal on that team is that the lawyers are there to help 
craft documents that are legally defensible, so if it does get 
litigated, it gets dismissed at the first hearing rather than 
going through a case on the merits that drags on for 2 years.
    Mr. Renzi. Thank you.
    In addition, one of the nexus of the arguments, one of the 
big rubs that we are seeing in our community is not only on the 
argument of the diameters and the size, but whether or not we 
should be thinning the forests out in the outland, in the back 
country. I have got a good friend in this community, Bobby Orr, 
who helps run one of the fire departments here, and he taught 
me early on about what is firewise in our community and how 
private homeowners need to be able to keep their own property 
thinned.
    And yet the idea that we take that thinning and move it out 
into the back country is opposed by some people. They want to 
say that we should be treating and thinning only within the 
urban/wildland interface. But it really would be a last stand 
to ask our firemen to put themselves in harm's way right when 
that fire is on our doorstep.
    So the idea, Dr. Covington, of being able to thin in the 
outback, of being able to provide defensible perimeters is an 
absolute, particularly when you look at the fire season that 
approaches Flagstaff and the idea that you told me that a fire 
that starts in Oak Creek Canyon in the morning could sweep 
through and be in Flagstaff by the evening and because of the 
topography and the wind, we could have an overtake fire here 
that our good firemen would not be able to stop.
    Would you like to comment on that, please?
    Mr. Covington. Yes, I think that scenario is a likely 
scenario. And not just in Flagstaff, you can look throughout 
the western United States, we have got communities that are 
just sitting ducks.
    So from a fire protection standpoint, it is important. It 
is also important from a habitat standpoint. As came out in 
previous testimony today, no one wants to live in Flagstaff 
with a half mile buffer of live forest around it. You know, 
it's the greater ecosystem, it's the habitat why we are all 
here.
    Mr. Renzi. Yeah, I do not want to see our Flagstaff become 
an ashtray.
    Sarah, could I ask you just real quick, thank you for your 
testimony, very, very interesting and very unique, particularly 
we have not heard that kind of testimony on a panel.
    What are the two most non-native and noxious species of 
weeds in our area that we need to deal with?
    Ms. Cassatt. I think one of the worst ones throughout much 
of the West is the spotted knapweed. There are a couple of 
knapweed species, but that species, basically nothing eats it, 
it usually forms monoculture stands, it has sharp stickers, it 
is really a nasty plant that is hard to get rid of.
    Secondly, here, there is actually a group of three or four 
species, I cannot remember if I put them in there or not.
    Mr. Renzi. That is OK.
    Ms. Cassatt. I could get you a list of the high priority 
species that have been identified for Arizona.
    Mr. Renzi. All right. I just want to point out that if we 
are able to move forward with the stewardship projects, the 
slash piles that you talked about which contribute to the weeds 
would not be there, because those small diameter fuels would 
actually be harvested. So that would be a way to work together.
    Thank you, Sarah. Thank you, Mr. Chairman.
    Mr. McInnis. Thank you, Mr. Renzi. I might add, Mr. Renzi, 
in regards to your statement in regard to urban interface, 
which is absolutely correct, back in the outback, which is 
where I happen to live, the watersheds are back there, the 
wildlife is back there, the air pollution and for these people 
to think that you can handle this by going back--we actually 
had, as you know, some of our colleagues on the panel actually 
said half a mile or quarter of a mile--quarter of a mile back 
and then you would not treat. Geez--anyway, the watersheds are 
awful important, but to wrap up our questioning, Mr. Shadegg, 
you may proceed.
    Mr. Shadegg. Thank you, Mr. Chairman.
    I simply want to begin by thinking all of these panelists. 
It makes me proud that we have right here in Arizona cutting 
edge expertise in addressing this problem, which is a national 
problem.
    Dr. Covington, I note and I think it is very significant 
that your change in the No. 1 threat from the fire itself to 
our failure to respond to the conditions that are creating the 
fire. And I do not think there is disagreement with Brad Ack 
that it is a problem with management. We managed wrong before 
is how we got ourselves into this mess. And I think that point 
is well taken.
    I want to thank you, Dr. Covington, for all your work, but 
I also like--it is always nice when you give us specific 
recommendations and you conclude your testimony with four 
things Congress can do. Often we do not hear actual suggestions 
and I will tell you, I am committed to the No. 1 suggestion, 
which is we have got to advance treatments and we have got to 
do it at a much faster pace.
    Mr. Kolb, I was fascinated by your testimony and I want to 
express my appreciation for it. Knowing, for example--I just 
went into Bradshaw last weekend with my son and saw devastation 
of bark beetles there, and knowing that thinning will help 
fight the bark beetle problem is an important fact for me to 
try to get out to my constituents and understand.
    You made the point about limiting thinning to the urban 
interface is bad public policy. I will tell you when we were 
fighting this issue last year, the Chairman of the Subcommittee 
and my colleague, Mr. Walden, and I, every day we met this 
fight that just said well, all we need to do is the interface, 
all we need to is the interface, all we need to do is the 
interface. And I am thinking, you know, some day I want my 
great grandkids and their great grandkids to be able to go 
someplace deep into the forest and have it still be there. And 
if we never treat the deep forest, that will not be true. So I 
appreciate that and I hope your colleagues around the country 
will listen to you.
    Your encouragement of the markets for small diameter trees, 
I strongly believe in that and Mark Rey has brought products in 
front of us and shown how you can use small diameter trees to 
do that.
    I thought your points about salvage logging were well 
taken, but I have a theory; if in fact--and I think you 
acknowledged this in your testimony--if in fact, the forest is 
overgrown to begin with, then allowing every tree, following a 
devastating fire, to remain is allowing too many trees to 
remain. It seems to me, if the premise is we have allowed our 
forests to get too thick--when this lawsuit was filed to stop 
the salvage timbering that is supposed to go forward right now 
in Arizona, the group that filed it issued a press release in 
which they said they believed every single tree burned in the 
Rodeo-Chediski fire should be allowed to fall where it is. And 
what I heard you say is that some of those trees should be 
allowed to fall, but not necessarily every single one of them, 
where it is too thick.
    And I do want to note that in the proposal from the Forest 
Service, there are, I think, 25,000 board feet of timber that 
would be removed by helicopter, and I want to make sure I 
understood your testimony correctly.
    Mr. Kolb. Well, clearly there are severe wildfire 
situations where we do not have to leave every tree onsite. I 
advocate leaving many dead trees onsite, and I think the best 
thing that could happen in terms of restoration of those sites 
is send crews out to cut them and leave them on the ground, get 
them on the ground quickly so that soils will be stabilized, 
they will start--trees will start to decompose more quickly on 
the ground because there is more moisture down there. This will 
help recovery in the long term, but--
    Mr. Shadegg. Where the forest was excessively dense, would 
you not also agree some of those trees can come out?
    Mr. Kolb. Well, there are cases where to pay for those 
activities probably some of those trees have to come out, 
unless taxpayers are going to subsidize that or someone else is 
going to subsidize that.
    To answer your question exactly, it depends on the 
situation, it depends on how much soil damage there is, it 
depends on how many trees are remaining, so that is where 
foresters come into play, they can assess those conditions on a 
site-specific basis.
    Mr. Shadegg. I am going to lose my time, I want to make one 
last point. Brad, I compliment you and the Grand Canyon Trust, 
on all of the work you do. I think you have shown a great 
spirit. If every environmental group were as open-minded and 
engaged in as productive a dialogue--I am going to pick a nit 
with you. You said NEPA is not the problem. I think maybe a 
more accurate statement would be if we had enough money, NEPA 
would not be the problem. But the reality is, I do not think we 
have the money to do as much--as deep an analysis as quickly as 
needs to be done, and I want to associate myself with Greg 
Walden's comments. NEPA does allow a single environmental 
extremist to file a lawsuit to block the will of the majority 
and the consensus of all the expertise in this room.
    I assume that you do not necessarily completely agree with 
the President's healthy forest initiative, that this could be 
done by a categorical exemption. I guess I would like to know 
if that is true, No. 1, and No. 2, is there a middle ground 
between addressing it as a categorical exemption and requiring 
a full-blown NEPA process which I believe is going to cost too 
much money and take too much time, and at the end will still 
result in the lawsuit that Greg has talked about.
    Mr. Ack. Well, it is a difficult question. I think our 
proposal of this team is that if you have a team that is 
working on multiple projects, that maybe encompass 200, 300, 
400,000 acres of 10 different projects, you are going to get 
some real economies of scale and efficiencies of scale, rather 
than having 10 different teams doing that. And you can avoid 
the mistakes.
    I do not believe the categorical exclusions exempt 
lawsuits, they exempt appeals, if I am not mistaken.
    Mr. Shadegg. Yes, I think you are right.
    Mr. Ack. So you still--if you do not do a project well, you 
are still going to face--you save 45 days of appeal and 30 days 
of response, but you still have lawsuits. And I just do not 
believe that we want to exclude the right of citizens to 
address grievances through the courts if we do not have to 
abridge that right. That is kind of a fundamental right of this 
democracy.
    Mr. Shadegg. With regard to areas of social agreement, we 
may come to social agreement on large diameter trees, the sad 
part is I do not think we are ever coming to social agreement 
on the dense forests where some of your colleagues say only do 
the urban interface.
    Mr. Ack. Well, I am completely in agreement with working on 
the broad ecosystem. Our mission is the larger ecosystem, not 
the urban interface.
    Mr. Shadegg. I will be happy to yield to my colleague, Mr. 
Renzi.
    Mr. Renzi. Thank you very much. On the issue that you 
talked about with leaving trees or salvage trees in the woods, 
I need to point out to you that many of the trees, if left 
standing and not fallen will provide, what we call the widow-
maker effect. So it is unsafe for the kids to go into the 
woods, it would be unsafe.
    So with the idea that we are able to go in and salvage, 
particularly those trees that are on Rodeo-Chediski and the 
Indian fire in Prescott, the idea of leaving them standing does 
not allow us to go in and replant or fertilize and restore.
    So under the widow-maker concept, I would like to just 
point that out.
    Mr. Kolb. My verbal and written--
    Mr. McInnis. Just a minute, Doctor, let me tell you that we 
have got to wrap it up.
    Mr. Kolb. OK.
    Mr. McInnis. So make your comment in 20 seconds and then we 
will wrap it up.
    Mr. Kolb. I can do it. My verbal and written testimony 
clearly indicates that for safety purposes, salvage logging is 
certainly justified near trails, roads, houses. Also, the trees 
do not stay standing that long; we have been watching trees 
that burned catastrophically in 1996, after about 5 years, they 
start the break in half and come down.
    Mr. McInnis. Thank you. Mr. Chairman.
    Mr. Pombo. Just a concluding statement for this, and you 
guys can sit down. What we should have done is we should have 
had to stand up for as long as you were and then it would have 
probably hurried it up.
    But just a concluding statement on this, I want to again 
thank Congressman Renzi for hosting us, the City of Flagstaff 
for allowing us and being such a great host, to hold this 
hearing. Taking over as Chairman of the Resources Committee, 
one of my goals is to do this a lot more often, and to bring 
Congress out to the people, not only to allow us to hear from 
people out in the real world, but also to give you the 
opportunity to educate us.
    So I thank Chairman McInnis for bringing this hearing out 
here, I think this is extremely important, I think what all of 
you heard, what the Committee heard today, was some extremely 
valuable testimony as we move forward in what we hope to be a 
consensus effort to have a balance in protecting our forests 
for future generations.
    So I thank you, Mr. Chairman, I thank Mr. Renzi for hosting 
us in this hearing, and thank the City again.
    Mr. McInnis. Mr. Renzi, I also extend our thanks to you and 
your staff for helping coordinate this, asking for it. I think 
you were well rewarded, we have got some help for the tribe, we 
got an announcement from Mr. Rey, so on and so forth.
    I also want to stress that what we are attempting to do 
here really is truly move from an emotional argument. And 
frankly the testimony about the influence in the East versus 
the West, Doctor, is exactly on point. And that is how it has 
managed to move from scientific management to emotional 
management, because of the numbers.
    I also want to thank the City and the law enforcement 
personnel and the other agencies of the City that helped us put 
this together. I want to especially thank the witnesses who 
have come from across the country. I thought your testimony was 
great and that is exactly the intent of having these kind of 
hearings. Most of all, I want to thank the audience. I thought 
this was a--you were very polite, very professional and we 
should note that this is probably the longest time that any of 
you have sat in a crowd this size and not heard cellphones for 
3 hours.
    [Laughter.]
    Mr. McInnis. It is kind of a nice pleasure.
    On behalf of the Committee, thank you, the City of 
Flagstaff, and thank you to our audience.
    [Whereupon, at 1:04 p.m., the Subcommittee was adjourned.]

  Statement of The Honorable Jeff Flake, a Representative in Congress 
                       from the State of Arizona

    Thank you Chairman Pombo for providing the opportunity for this 
field hearing today. I also thank Congressman Renzi for his part in 
requesting this hearing on issues so vital to Arizona.
    There is a crisis in the national forests. Fires have blazed 
through at unprecedented rates in the last few years, treatments have 
been delayed or halted, droughts have contributed to the severity of 
fires and dozens of timber mills that can provide assistance through 
thinning have been driven out of business or prevented from working. 
Today, the President's Healthy Forest Plan is being looked at by 
Congress in order to address this crisis situation.
    Last year alone, wildfires burned over 7.1 million acres of public 
and private land. To put this in perspective, Secretary Norton has told 
us in the past that this is an area about the size of the states of 
Maryland and Rhode Island combined. Over 460,000 of those burned acres 
were part of the Rodeo-Chediski fire here in Arizona. Hundreds of 
communities felt the impact through road closures, evacuation, burned 
homes, burned structures, temporary displacement and loss of valuable 
property. Yet the problem persists.
    For years the work of the Federal land managers has been hindered 
and delayed and the lands have suffered. Now, over 75 million acres of 
forestlands are at an unnaturally high risk for catastrophic wildfire. 
Some of that acreage at high risk includes already burned areas that 
haven't been cleaned up yet.
    Environmental extremists have prevented the U.S. Forest Service 
from implementing several forest management plans. There have been many 
frivolous lawsuits along with a widespread concert of effort that has 
spread the agency's budget thin. In the Southwestern region alone 
(Arizona and New Mexico), 15 decisions to implement fuels treatments 
were appealable decisions. Of those 15 decisions, 11 were appealed and 
two were litigated. This is a number well beyond allowing for 
productive land management.
    Even closer to home is the example of the Apache Sitgreaves and 
Tonto National Forests, site of the Rodeo-Chediski fire. The Forest 
Service awarded three timber contracts to remove dead and burned timber 
from those forests--necessary cleanup on those lands--and on January 
10, 2003, the Forest Conservation Council filed a lawsuit against the 
efforts. If the dead trees are left much longer, the U.S. taxpayers, 
through the Forest Service, will be footing the bill for any future 
cleanup efforts because all value of the timber will have been lost.
    Finally, if these Forest Service projects are able to continue, 
there are few places to turn for commercial work. Sawmill and pulp and 
paper mill operations have significantly decreased and closures have 
skyrocketed over the past several years. According to statistics from 
the American Forest and Paper Association, the West has been severely 
impacted since 1989 when 400 mills in the West closed over 378 of those 
were lumber and panel mills. This idled some 36,000-factory workers. 
Another 36,000 logging jobs were lost as well, bringing the total 
direct jobs lost to over 70,000 within the industry alone. These 
numbers show how reliability of forest related jobs is low and further 
hinders necessary treatments.
    The President has introduced the Healthy Forest Initiative, which 
will counter the catastrophic impact of last year's wildfire season on 
communities and environmental resources. Focusing on legislative and 
administrative proposals to empower land managers to better deal with 
the crisis conditions and allowing for certain fuel reduction projects 
on Federal lands under accelerated procedures, the proposal hopes to 
address the plethora of concerns. Congressman Shadegg, Hayworth, myself 
and others have also introduced legislation to improve the situation 
for communities susceptible to wildfire.
    Land managers are only expected to treat about 2 million acres this 
year of the 75 million acres at unnaturally high risk to catastrophic 
fires. The Forest Service needs both of its tools used in maintaining 
forestlands: the removal of trees and prescribed burning to effect 
change and contain the threat of catastrophic wildfire to local 
communities. It is time to think long-term about how current policy 
should be changed to prevent a continuation of the threat of wildfire 
to public lands and nearby communities.

                                   - 

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
